NO. _____________

In The

Supreme Court of the United States
-------------------------♦-------------------------

BRAD KEITH SIGMON,
Petitioner,

v.

BRYAN P. STIRLING, Commissioner, South Carolina
Department of Corrections; WILLIE D. DAVIS,
Warden of Kirkland Correctional Institution,
Respondents.

-------------------------♦------------------------ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
-------------------------♦-------------------------

PETITION FOR WRIT OF CERTIORARI
-------------------------♦------------------------Joshua Snow Kendrick
Counsel of Record
KENDRICK & LEONARD, P.C.
Post Office Box 6938
Greenville, South Carolina 29606
(864) 760-4000
josh@kendrickleonard.com

Megan E. Barnes
JUSTICE 360
900 Elmwood Ave., Suite 200
Columbia, South Carolina 29201
(803) 765-1044
megan@justice360sc.org

Counsel for Petitioner
Dated: October 26, 2020
THE LEX GROUPDC  1050 Connecticut Avenue, N.W.  Suite 500, #5190  Washington, D.C. 20036
(202) 955-0001  (800) 856-4419  www.thelexgroup.com

-i**CAPITAL CASE**
QUESTIONS PRESENTED
In Martinez v. Ryan, 563 U.S. 1032 (2012), and Trevino v. Thaler, 133 S. Ct.
1911 (2013), this Court held that ineffective assistance of trial counsel claims
defaulted by absent or ineffective state post-conviction counsel can be revived on
federal habeas. This exception to Coleman v. Thompson, 501 U.S. 722 (1991), was
rooted in the idea that petitioners should have the chance to press the critical
constitutional claim of the right to effective representation at least once through
competent counsel. To demonstrate cause under Martinez, a prisoner must show:
(1) that appointed collateral counsel were ineffective under the standards of
Strickland; and (2) “that the underlying ineffective-assistance-of-trial-counsel claim
is a substantial one, which is to say that the prisoner must demonstrate that the
claim has some merit.” Id. at 15 (citing Miller-El v. Cockrell, 537 U.S. 322, (2003))
[emphasis added].
The Fourth Circuit in Sigmon v. Stirling, 956 F.3d 183 (4th Cir. 2020) held a
detailed mitigation presentation by Martinez counsel that created a much richer
understanding of capital petitioner Brad Keith Sigmon’s childhood abuse, mental
health, remorse, and ability to adapt to prison could not pass this low bar of having
“some merit.” Finding this new evidence cumulative, and as a matter of law
insubstantial, they denied Sigmon an evidentiary hearing. Judge King dissented,
strongly disagreeing with the majority’s characterization of the new evidence as
“insubstantial,” as that could only mean “it does not have any merit or is wholly

- ii without factual support” under this Court’s precedent, and responding to the question
of whether Sigmon was entitled to an evidentiary hearing with an “emphatic yes.” Id.
at 211, 212.
The questions presented are:
1.

Capital defendant Brad Sigmon presented additional mitigation evidence
uncovered during a Martinez investigation that addressed the same general
subject matter presented at the sentencing phase of trial in greater depth and
detail. Did the Fourth Circuit, in a decision that widened an existing circuit
split, violate this Court’s directives on the Sixth Amendment’s right to effective
counsel when it rejected Sigmon’s Martinez evidence as cumulative, and as a
matter of law insubstantial, simply because it covered similar topics as those
presented at trial?

2.

In considering whether to grant an evidentiary hearing on a Martinez claim,
does the requirement that evidence be substantial merely require a showing of
some merit, as suggested by this Court, or must the reviewing court be
convinced of a reasonable probability of a different outcome before allowing
such a hearing?

- iii LIST OF PARTIES TO THE PROCEEDINGS
All parties to this proceeding are listed in the caption.
STATEMENT OF RELATED CASES
Brad Sigmon v. Bryan Stirling, No. 8:13-cv-01399-RBH, United States District of
South Carolina. Amended Order Entered April 15, 2020.
Brad Sigmon v. Bryan Stirling, No. 18-7, United States Court of Appeals for the
Fourth Circuit. Judgment entered October 1, 2018.

- iv TABLE OF CONTENTS
Page
QUESTIONS PRESENTED ........................................................................................... i
LIST OF PARTIES TO THE PROCEEDINGS............................................................ iii
STATEMENT OF RELATED CASES ......................................................................... iii
TABLE OF CONTENTS ............................................................................................... iv
TABLE OF AUTHORITIES ........................................................................................ vii
PETITION FOR A WRIT OF CERTIORARI ................................................................ 1
OPINIONS BELOW ...................................................................................................... 1
STATEMENT OF JURISDICTION .............................................................................. 1
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED ....................... 1
INTRODUCTION .......................................................................................................... 1
STATEMENT OF THE CASE ....................................................................................... 4
A.

TRIAL COUNSEL FAILED TO PRESENT MEANINGFUL
MITIGATION EVIDENCE. ..................................................................... 5

B.

APPOINTED POST-CONVICTION COUNSEL FAILED TO
RAISE
THE
ISSUE
OF
TRIAL
COUNSEL’S
INEFFECTIVENESS ............................................................................... 8

C.

FEDERAL COURTS REFUSED TO GRANT AN EVIDENTIARY
HEARING ON SIGMON’S INEFFECTIVE ASSISTANCE OF
COUNSEL CLAIM, HOLDING THE MOUNTAIN OF NEW
MITIGATION EVIDENCE WAS SIMPLY “CUMULATIVE” AND
THE CLAIM HAD “NO MERIT” ............................................................. 8
a.

The District Court Ignored Sigmon’s New Mitigation
Evidence ......................................................................................... 9
1.

Evidence of positive adjustment to prison ......................... 9

-v-

b.

2.

Positive character evidence .............................................. 11

3.

Evidence of cruel and repeated physical abuse in
Sigmon’s childhood............................................................ 12

4.

History and treatment for major mental illness:
Depression ......................................................................... 13

5.

Evidence of remorse .......................................................... 14

The Court of Appeals Affirmed the District Court ..................... 15

REASONS FOR GRANTING THE PETITION .......................................................... 16
I.

II.

THE PREVAILING STANDARD IN THE LOWER COURTS ON
WHAT MITIGATION EVIDENCE IS CUMULATIVE AND
WHEN IT IS CONSIDERED SUBSTANTIAL FOR MARTINEZ
PURPOSES HAS RESULTED IN DEATH-SENTENCED
PETITIONERS’ INABILITY TO PRESENT ADDITIONAL
MITIGATION EVIDENCE NEVER PRESENTED BY TRIAL
COUNSEL OR POST-CONVICTION COUNSEL ................................ 16
A.

This case presents the opportunity for the Court to speak
clearly on this issue of “cumulative” evidence. ........................... 17

B.

The district court and Fourth Circuit in this case, along
with many other Circuit Courts, imposed a restrictive view
of cumulative evidence that was not envisioned by this
Court in Belmontes and Van Hook .............................................. 18

C.

Lower courts should not find new evidence insubstantial as
a matter of law for merely covering similar ground as
previously presented evidence. ................................................... 24

THE LOWER COURTS’ IMPROPERLY RESTRICTIVE
VERSION
OF
THE
MARTINEZ
‘SUBSTANTIALITY
STANDARD’ IN HABEAS CLAIMS HAS CREATED AN
ARTIFICIALLY HIGH BAR FOR “SUBSTANTIAL CLAIMS”
UNDER MARTINEZ.............................................................................. 25
A.

Sigmon’s case presents the opportunity for this Court to
reaffirm Martinez and make sure it is followed in the lower
courts ............................................................................................ 26

- vi B.

Lower courts are misapplying the “substantial”
requirement. ................................................................................ 26

C.

The Court should reaffirm the rule from Martinez –
‘substantial’ merely requires some factual support and
some merit, and a substantial claim warrants an
evidentiary hearing in federal habeas proceedings. .................. 28

CONCLUSION............................................................................................................. 30
APPENDIX:
Published Opinion of
The United States Court of Appeals
For the Fourth Circuit
Re: Affirming the District Courts Denial of Habeas Relief
entered April 15, 2020 .............................................................................. 1
Judgment of
The United States Court of Appeals
For the Fourth Circuit
entered April 14, 2020 ............................................................................ 49
Order of
The United States Court of Appeals
For the Fourth Circuit
Re: Denying Petition for Rehearing En Banc
entered May 27, 2020 ............................................................................. 50
Judgment in a Criminal Case of
The United States District Court for
The District of South Carolina
entered October 1, 2018 ......................................................................... 51
Order of
The Honorable R. Bryan Harwell
Re: Overrules the Petitioner’s Objections and Adopts the Magistrate
Judge’s Report and Recommendation. Accordingly the Court Grants the
Respondent’s Motion for Summary Judgment and Denies and Dismisses
Petitioner’s § 2254 Petition in its Entirety with Prejudice.
entered September 30, 2018 .................................................................. 52

- vii TABLE OF AUTHORITIES
Page(s)
CASES
Andrus v. Texas,
140 S. Ct. 1875 (2020) ............................................................................... 2, 3, 21
Bobby v. Van Hook,
558 U.S. 4 (2009) ......................................................................................... 18, 19
Brown v. Brown,
847 F.3d 502 (7th Cir. 2017) ............................................................................. 27
Concrete Pipe and Products of California, Inc. v.
Construction Laborers Pension Trust for Southern California,
508 U.S. 602 (1993) ........................................................................................... 27
Consolidated Edison Co. v. NLRB,
305 U.S. 197 (1938) ........................................................................................... 27
Cullen v. Pinholster,
563 U.S. 170 (2011) ........................................................................................... 22
Dallas v. Warden,
964 F.3d 1285 (11th Cir. 2020) ............................................................. 21, 22, 23
Davila v. Davis,
137 S. Ct. 2057 (2017) ....................................................................................... 25
Detrich v. Ryan,
740 F.3d 1237 (9th Cir. 2013) ..................................................................... 26, 27
Foust v. Hook,
655 F.3d 524 (6th Cir. 2011) ............................................................................. 23
Holsey v. Warden, Ga. Diagnostic Prison,
694 F.3d 1230 (11th Cir. 2012) ......................................................................... 22
Laws v. Celebrezze,
368 F.2d 640 (4th Cir. 1966) ............................................................................. 27

- viii Lockett v. Ohio,
438 U.S. 586 (1978) ........................................................................................... 16
Maples v. Comm’r, Ala. Dep’t of Corr.,
729 Fed. Appx. 817 (11th Cir. 2018)................................................................. 23
Martinez v. Ryan,
566 U.S. 1 (2012) ........................................................................................passim
Mathis v. United States,
136 S. Ct. 2243 (2016) ......................................................................................... 4
Miller-El v. Cockrell,
537 U.S. 322 (2003) ..................................................................................... 26, 27
Porter v. McCollum,
130 S. Ct. 447 (2009),
558 U.S. 30 (2009) ....................................................................................... 16, 25
Ramirez v. Ryan,
937 F.3d 1230 (9th Cir. 2019) ..................................................................... 22, 25
Sears v. Upton,
561 U.S. 945 (2010) ........................................................................................... 24
Sigmon v. State,
403 S.C. 120 (2013) ............................................................................................. 8
Sigmon v. Stirling,
956 F.3d 183 (4th Cir. 2020) ......................................................................passim
Sigmon v Stirling,
2018 U.S. Dist. LEXIS 168699 (D.S.C. Sept. 30, 2018) .......................... 5, 17-18
Sigmon v. Stirling,
2020 U.S. App. LEXIS 16932 (4th Cir. 2020) .................................................... 1
Simpson v. Carpenter,
912 F.3d 542 (10th Cir. 2018). .......................................................................... 20
Skipper v. South Carolina,
476 U.S. 1 (1986) ........................................................................................... 6, 10

- ix State v. Sigmon,
366 S.C. 552 (2005). ............................................................................................ 8
Strickland v. Washington,
466 U.S. 668 (1984) ................................................................................... 3, 5, 24
Thompson v. Keohane,
516 U.S. 99 (1995) ............................................................................................... 3
Wiggins v. Smith,
539 U.S. 510 (2003) ........................................................................... 3, 15, 16, 17
Williams v. Taylor,
529 U.S. 362 (2000) ............................................................................... 15, 17, 25
Wong v. Belmontes,
558 U.S. 15 (2009) ....................................................................................... 18, 19
Workman v. Superintendent Albion SCI,
915 F.3d. 928 (3d Cir. 2019) ............................................................................. 27
CONSTITUTIONAL PROVISION
U.S. CONST. amend. VI .................................................................................................. 1
STATUTE
28 U.S.C. § 1254(1) ........................................................................................................ 1
OTHER AUTHORITIES
ABA Guidelines for the Appointment and
Performance of Counsel in Death Penalty Cases 10.7 (A) (2003) ......................... 16-17
Michelle E. Barnett, When Mitigation Evidence Makes a Difference:
Effects of Psychological Mitigating Evidence on Sentencing Decisions in
Capital Trials, 22 BEHAV. SCIS. & L. 751 (2004) ........................................................... 8
Scott Sundby, The Jury and Absolution: Trial Tactics, Remorse and the
Death Penalty, 83 CORNELL L. REV. 1557 (1998). ....................................................... 14
Stephen P. Garvey, The Emotional Economy of Capital Sentencing,
75 N.Y.U. L. REV. 26 (2000) ........................................................................................ 14

-xTheodore Eisenberg, Stephen P. Garvey & Martin T. Wells, Mitigation
Means Having to Say You’re Sorry: The Role of Remorse in Capital Sentencing,
83 CORNELL L. REV. 1599 (1998) .................................................................................. 14

1
PETITION FOR A WRIT OF CERTIORARI
Brad Sigmon respectfully petitions for a writ of certiorari to review the
judgment of the United States Court of Appeals for the Fourth Circuit.
OPINIONS BELOW
The decision of the Fourth Circuit is reported at 956 F.3d 183. (App. 1a). The
district court opinion is unreported but available at 2018 U.S. Dist. LEXIS 168699.
(App. 52).
STATEMENT OF JURISDICTION
The Fourth Circuit issued an opinion on April 14, 2020. Sigmon v. Stirling, 956
F.3d 183 (4th Cir. 2020). A timely petition for rehearing was filed and denied by the
Fourth Circuit on May 27, 2020. Sigmon v. Stirling, 2020 U.S. App. LEXIS 16932
(4th Cir. 2020)(App. 50a). 28 U.S.C. § 1254(1) authorizes jurisdiction in this Court.
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The Sixth Amendment to the United States Constitution provides in relevant
part: “In all criminal prosecutions, the accused shall enjoy the right . . . to have the
assistance of counsel for his defense.”
INTRODUCTION
Brad Sigmon is asking for a hearing on claims that have never been heard and
evidence that has never been duly considered in court. Significant, compelling, and
detailed mitigation evidence was overlooked by his trial counsel and again by his
state post-conviction counsel. That oversight is preventing him from presenting the

2
very evidence that could save his life, despite authority from this Court that should
allow the presentation of that evidence.
This Court’s opinion in Martinez v. Ryan allows the presentation of mitigation
evidence, despite his prior lawyers’ failure to present such evidence. Martinez v.
Ryan, 566 U.S. 1 (2012). Available mitigation could have added context to Sigmon’s
crime, added detail to Sigmon’s life, and countered the State’s evidence in support of
the death penalty.
Sigmon has not had a fair opportunity to present this evidence because of the
body of law that is quickly developing in the lower courts regarding the grant of an
evidentiary hearing on defaulted claims brought under Martinez. Two specific areas
need to be addressed by this Court.
First, capital trials often turn on mitigation evidence. Like many death penalty
cases, Sigmon’s case involved no real dispute over his guilt. When guilt is conceded
and a trial focuses on mitigation, it is critical that counsel thoroughly investigate all
sources of potential mitigation evidence. Andrus v. Texas, 140 S. Ct. 1875, 1883
(2020). When that investigation fails at both trial and in state post-conviction
proceedings, it is left to federal habeas counsel to uncover the missing pieces.
Despite the importance of habeas counsel’s duty in discovering additional
mitigation evidence, there is no guarantee of a hearing in the federal proceedings. As
in this case, counsel is required to find evidence, convert it to documentary form, and
present it to a district court during the pleading stage of a case, or in response to a
summary judgment argument. Sigmon’s case is typical of many capital cases – there

3
was mitigation evidence presented at trial, but a closer look reveals far more
compelling evidence that paints a fuller picture of Sigmon’s life.
Because this evidence in federal habeas proceedings is presented in pleadings
or declarations, reviewing courts are quick to find it “cumulative” and insubstantial
as a matter of law. As a result, district courts are weighing the credibility of evidence
they have not fully heard, and appellate courts are engaging in the type of credibility
weighing they have long declined to do. Thompson v. Keohane, 516 U.S. 99, 111
(1995).
This Court has a wealth of authority on mitigation evidence. It has never held
merely similar evidence should be considered cumulative and rejected as a matter of
law. Instead, it has held that all of the newly-discovered mitigation evidence must be
considered in combination with what was presented at trial and weighed against
aggravating evidence to determine if even one juror could potentially strike a
different balance on moral culpability and vote for life instead of death. Strickland v.
Washington, 466 U.S. 668 (1984); Wiggins v. Smith, 539 U.S. 510, 537 (2003); Andrus,
140 S. Ct. at 1886. This cannot be done on pleadings – it requires a hearing.
A second, related problem is the standard used by the Court to grant an
evidentiary hearing on a Martinez claim. The claim must only have some merit. It is
irrelevant whether a court believes the claim will ultimately prevail – it only needs
to be worthy of further discussion. Because courts have set the bar for an evidentiary
hearing on a Martinez claim too high, Martinez’s protection of the right to effective
assistance of counsel, especially in capital cases, has become no protection at all.

4
Both claims involve lower courts looking at authority from this Court and
electing to add restrictions this Court has not. Martinez simply requires some merit,
as the opinion spells out in no uncertain terms. A good rule of thumb for reading
decisions of this Court is “that what they say and what they mean are one and the
same.” Mathis v. United States, 136 S. Ct. 2243, 2254 (2016).
STATEMENT OF THE CASE
This capital case arises from an ill-fated plan to win back a girlfriend that
ended in the tragic and unplanned deaths of David and Gladys Larke, two people
Brad Sigmon considered family.
During his July 2002 trial in Greenville County, South Carolina, Sigmon
admitted guilt; he was, from the beginning, repentant, confessing to members of law
enforcement and others multiple times. DE 32-8, p.104; DE 32-9, p.104-108, 143-145.1
Trial counsel admitted Sigmon’s guilt in the opening argument of the guilt phase, DE
32-8, p.105, and while it was their constitutional duty to present a mitigation case
robust enough to convince the jury that Sigmon was worthy of mercy and a sentence
of less than death, they put on a self-described “simple” mitigation case with only a
“few witnesses.” J.A. 82.2
This abbreviated mitigation case merely scratched the surface of Sigmon’s life.
In the federal habeas proceeding, Martinez counsel uncovered a wealth of mitigation
evidence that provided a much more robust and compelling look into Sigmon’s

These citations refer to the South Carolina state court trial transcript, filed in the district court in
initial federal habeas proceedings.
1

2

These citations refer to the Joint Appendix filed in the Fourth Circuit Court of Appeals.

5
childhood, religious beliefs, positive relationship with the victim’s family, and
remorse. This mitigation evidence that the jury did not hear, and what Fourth Circuit
Judge Robert King would later find so “compelling,” painted a much deeper and richer
picture of who Brad Sigmon was. Sigmon v. Stirling, 956 F.3d 183, 211 (4th Cir.
2020).
Sigmon’s request for a hearing on the claim that his trial counsel’s failure to
discover and present this compelling evidence amounted to constitutionally
ineffective assistance under Strickland v. Washington was denied by the district court
without an evidentiary hearing. Sigmon v Stirling, 2018 U.S. Dist. LEXIS 168699
(unreported) (App. 52a). This decision was affirmed by the Fourth Circuit, but Judge
King entered a strong dissent urging for an evidentiary hearing, calling this new
evidence “markedly more compelling, detailed, and favorable to Sigmon than what
was presented at trial.” Sigmon, 956 F.3d at 211.
A.

TRIAL
COUNSEL
FAILED
MITIGATION EVIDENCE.

TO

PRESENT

MEANINGFUL

Sigmon’s trial attorneys attempted to advance as mitigating factors Sigmon’s
lack of significant criminal history; that he murdered the Larkes under the influence
of mental or emotional disturbance; that his capacity to conform his conduct to the
requirements of the law was impaired (due to his drug and alcohol use the night
prior); and that he was adaptable to prison. They also brought up his childhood issues,
historic drug use, and mental illness.
Three expert witnesses were presented at the mitigation stage. The experts
introduced limited information regarding Sigmon’s life history and parental neglect,

6
his drug abuse and its effect on his mental state and the crime, and his ability to
adapt to prison if given a life sentence.
None of the expert evidence was particularly compelling or helpful. The
addiction and psychopharmacology expert testified to Sigmon’s history of depression
and alcohol and drug addiction, and how Sigmon’s drug use the night prior could have
affected his behavior during the murder. J.A. 354-346. However, no court to review
this case has ever found Sigmon was under the influence of drugs at the time of the
murder. Sigmon, 956 F.3d at 195-196.
The social worker’s testimony, summarizing Sigmon’s entire 43-year life
history, including family and romantic relationships, mental health, and work
history, was brief and added little to the mitigation case. Her assessment focused
primarily on the way Sigmon stepped in to be a “surrogate parent” for his younger
siblings in the wake of his parents’ divorce and how the family’s frequent moves made
him anxious and “overly involved or attached to relationships.” J.A. 218, 227. The
prison adaptability expert, who did testify that Sigmon could be incarcerated safely
for a life without parole term, also opened the door to prejudicial and otherwise
inadmissible evidence. J.A. 362-364; Skipper v. South Carolina, 476 U.S. 1, 7 n.2
(1986).
The defense’s mitigation case involved five family members: aunt Brenda
Clark, who testified he was a loving and caring person; stepfather Donnie Wooten,
who testified that he was a “normal kid;” son Robbie Sigmon, who testified that his
dad was a loving father; father Ronnie Sigmon, who testified to his son’s peaceful

7
nature and his fondness for sports and the outdoors; and finally mother Virginia
Wooten, who testified about Sigmon’s confession and immediate remorse. J.A. 156,
157, 161, 381, 382, 389. Testimony from Sigmon’s family, which could have
humanized him in the eyes of the jury, covered just a fraction of the sentencing phase.
Trial counsel called six final witnesses who had interacted with Sigmon during
his pretrial detention. Nurse Rosa Jones, who had spoken to him once upon his arrival
at the jail, said “he was sad, and acted sort of remorseful.” J.A. 187. A counselor in
the jail testified that she held three ten-minute meetings with Sigmon which led her
to conclude that Sigmon was not dangerous. J.A. 180. C.O. Valerie Putnam testified
that Sigmon was not a threat, but had limited interactions with him. J.A. 264-65.
C.O. Matt Talley stated that Sigmon was “just like any other inmate,” but then
testified on direct that Sigmon had become aggressive with another officer and Talley
had to intervene. J.A. 175. Captain Melton described Sigmon’s move from maximum
security housing to medium security based on his good behavior, but then his return
to the maximum security unit due to a jail visitation pass that Sigmon had squirreled
away (contraband, even though he was not going to use it for any nefarious purpose).
J.A. 290. Afterwards, there were no significant behavior problems with Sigmon. J.A.
300, 304. Finally, a volunteer who led a Bible class in jail testified that Sigmon
regularly attended those classes. J.A. 268. None of these witnesses knew Sigmon
outside the prison context, nor did they know Sigmon for any significant period of
time.

8
In the face of this sparse showing from trial counsel, it took the jury less than
three hours of deliberation to sentence Sigmon to death.3
B.

APPOINTED POST-CONVICTION COUNSEL FAILED TO RAISE THE
ISSUE OF TRIAL COUNSEL’S INEFFECTIVENESS.
Sigmon’s death sentence was upheld on direct appeal. State v. Sigmon, 366

S.C. 552 (2005). Sigmon was appointed post-conviction relief counsel who began
investigating his claims for state collateral proceedings. Those attorneys only
conducted a few interviews themselves, leaving almost all the witness interviews to
their mitigation investigator. The investigator failed to interview Pastor Don
McKellar, the family pastor, and the victims’ grandson, who Sigmon had raised like
his own son. PCR counsel then filed for post-conviction relief. Notably absent from
the list of claims was a claim of ineffective assistance of counsel for failure to present
mitigating evidence. Sigmon, 956 F.3d at 190.
The South Carolina Supreme Court reviewed three of Sigmon’s PCR claims but
affirmed his death sentence. Sigmon v. State, 403 S.C. 120 (2013).
C.

FEDERAL COURTS REFUSED TO GRANT AN EVIDENTIARY
HEARING ON SIGMON’S INEFFECTIVE ASSISTANCE OF COUNSEL
CLAIM, HOLDING THE MOUNTAIN OF NEW MITIGATION
EVIDENCE WAS SIMPLY “CUMULATIVE” AND THE CLAIM HAD “NO
MERIT.”
Sigmon next filed for habeas relief in the federal district court. He was initially

represented by his state post-conviction counsel who raised six preserved claims.

Empirical studies examining juror behavior in capital sentencing have found that “It is quite possible
that weak mitigating evidence in the context of a capital murder is worse than no mitigation evidence
at all.” Michelle E. Barnett, When Mitigation Evidence Makes a Difference: Effects of Psychological
Mitigating Evidence on Sentencing Decisions in Capital Trials, 22 BEHAV. SCIS. & L. 751 (2004).
3

9
Sigmon was appointed an additional lawyer to comply with this Court’s directive in
Martinez and evaluate whether there were any defaulted claims based on the
ineffectiveness of his state post-conviction counsel, who were also representing him
in the federal habeas proceedings.
With new appointed counsel, Sigmon filed an amended habeas corpus petition
for writ of habeas corpus that raised four defaulted claims under Martinez, including
a claim that trial counsel was ineffective for failing to present mitigation evidence.
Unlike state post-conviction counsel, who never even attempted to raise this issue in
state court, federal habeas counsel supported this theory of ineffectiveness by
interviewing and collecting affidavits from family members, childhood friends,
religious figures, prison officials, and even the victim’s own grandson. Sigmon
requested an evidentiary hearing to further develop the mitigation case that should
have been presented on his behalf in order to establish a reasonable probability that,
but for trial counsel’s deficient performance, the outcome at trial would have been
different.
a.

The District Court Ignored Sigmon’s New Mitigation Evidence

Federal habeas counsel uncovered critical mitigation evidence that was never
presented to the jury.
1.

Evidence of positive adjustment to prison

Trial counsel ignored compelling evidence of adjustment to prison from two
witnesses who had direct experience with the South Carolina Department of

10
Corrections (“SCDC”). That experience would have given them instant credibility
with the jury on the issue of adjustment to prison.4
Ronnie Sigmon, Brad’s5 own father, was a prior employee of SCDC. Trial
counsel was surprised to learn this during direct examination. J.A. 381. Ronnie had
worked at a maximum-security prison and supervised thousands of inmates, both
problem inmates and well-adjusted inmates. J.A. 859. He could have testified Brad
would have adjusted well to prison life. J.A. 859-860. Ronnie was never interviewed
by trial counsel until a brief interview in the courthouse immediately before he
testified. J.A. 860.
Don McKellar was the pastor at Brad Sigmon’s parents’ church. J.A. 845. He
was willing to testify for Brad if he had been asked. J.A. 845. In addition to seeing
Brad’s sincere remorse, McKellar had extensive experience with inmates. J.A. 846.
He had dealt with thousands of inmates and had significant insight into the type of
character that would lead to positive adjustment in prison. J.A. 846. McKellar
attended most of Brad’s trial and was even introduced to one or both trial counsel but
was never interviewed or asked to testify. J.A. 846-847.
Brad’s brother, Mike Sigmon, was also available and willing to testify at his
trial. J.A. 854. Brad was a peaceful child. He worked third shift at a young age to help
support his mother and siblings. J.A. 854. Mike knew about Brad’s drug and alcohol
abuse, which was powerful mitigating evidence. J.A. 855. Brad was very remorseful,

4

This is important mitigation evidence. See generally, Skipper v. South Carolina, 476 U.S. 1 (1986).

When discussing family members with the last name of Sigmon, Brad Sigmon will be referred to as
“Brad” instead of “Sigmon” to avoid confusion.
5

11
and his actions were an anomaly based on his brother’s knowledge of his life. Id. Mike
observed his brother getting along and acting in a respectful manner at the jail. Mike
told trial counsel he wanted to testify, but he was neither asked what he had to say
nor asked to testify. Id.
2.

Positive character evidence

Trial counsel never presented the jury with testimony from people that had
known Sigmon all his life. They would testify that Sigmon had never behaved
violently and this crime was shockingly out of character for him. J.A. 855. Federal
habeas counsel was able to gather this valuable information from Sigmon’s father,
who was a former correctional officer with SCDC, and their family pastor, who had
experience working with “thousands of inmates,” about Sigmon’s ability to adapt to
prison. His father felt that Sigmon would “adjust positively to prison” and “would
obey correctional offices and staff,” while Pastor Don McKellar believed “Sigmon
would have been one of the good and well-behaved inmates and… would try to help
others in prison.” J.A. 846; 859-60.
Troy Barbare, Jr. was Becky’s son and the grandson of the victims in this case.
J.A. 826. Despite his young age at the time of the trial, he would have testified Brad
was more of a father than his own father and always treated him very well. J.A. 826.
Troy observed Brad and his mother’s relationship and though they argued, he never
saw Brad do anything violent towards her. J.A. 826-827. Considering his relationship
to the victims and knowledge of the defendant, this would have been powerful
mitigation testimony.

12
Pastor McKellar, in addition to testifying about Brad’s potential adaptability
to prison, could have testified to Brad’s positive character traits, his strong work
ethic, and his good nature. J.A. 845.
As additional support for his good character, there were other witnesses to
testify Brad went to work full time at the age of 15 to support his family. Virginia
Wooten, Mike Sigmon, and Louis Burrell were all available to testify to this
information. J.A. 861; 854; 828.
3.

Evidence of cruel and repeated physical abuse in Sigmon’s
childhood

No witness at trial testified to any physical abuse or domestic violence during
Sigmon’s childhood. Brad’s mother, Virginia Wooten, could have testified about
Ronnie Sigmon, Brad’s father, getting drunk and physically assaulting her. J.A. 862.
As early as age 6, Brad would get in the middle of the abuse and try to stop his mother
from hurting his father. J.A. 862. Sigmon would yell things like “Don’t hit my mama.”
J.A. 862.
When he was older, around 10 or 12 years old, he would physically get between
his parents, and his father would “knock him out of the way or shove him or slap
him… [t]his happened a lot.” Id. At age 15, Sigmon intervened in yet another domestic
violence situation and was punched so hard he was knocked to the ground.
Trial counsel never discovered any of these “many incidents” where his father
would hit or punch Sigmon while he was trying to protect his mother. Id. Nor did they
discover that Sigmon’s response to his father’s abuse and abandonment was to go out
and get a full-time job at the age of 16 to support the family. J.A. 828, 854, 861.

13
Virginia Wooten was not asked about these events when she was on the stand.
She did not remember either trial counsel spending much time with her preparing
for her testimony. J.A. 862.
4.

History and treatment for major mental illness: Depression

Dr. Ernest Martin is a licensed physician practicing forensic psychiatry. J.A.
840. He is in private practice in addition to serving as a forensic psychiatrist at the
Greenville jail and he is on staff at two Upstate hospitals. He had experience in
evaluating defendants in a variety of settings. Id.
In his role as the forensic psychiatrist at the jail where Sigmon was held before
and during trial, Dr. Martin saw Brad and was in a position to offer an opinion on his
mental state. Dr. Martin could have testified to Brad’s major depression, which is a
major mental illness. J.A. 841-842. He believed Brad’s problems were sincere and did
not see any signs of malingering. J.A. 842.
Dr. Martin was not contacted about Brad’s case. Id. He was willing to testify
at the trial, even stating that if he was on vacation he was still in South Carolina and
could have come to court. Id. Trial counsel testified he did not think to ask for a
deposition prior to trial, did not take any steps to compel Dr. Martin’s appearance at
trial, and otherwise made no effort to ensure his appearance. J.A. 821. While he was
later subpoenaed for the state post-conviction hearing, Dr. Martin was never called
as a witness and was not paid for his time working on the case. J.A. 843.

14
5.

Evidence of remorse

Perhaps most importantly, trial counsel failed to present testimony about
remorse from people that knew both Sigmon and the Larke family. Evidence of
remorse is incredibly powerful mitigation evidence. Many empirical studies have
shown that jurors’ perceptions of the defendant’s remorse are critical when making
their sentencing determination, and their judgment of the defendant’s sincerity is
affected by whether the defendant admits to the crime.6 Sigmon had confessed
multiple times, and federal habeas counsel presented two affidavits from critical
witnesses never interviewed by the post-conviction team that could have illuminated
Sigmon’s deep remorse for his actions.
Both Pastor McKellar and Dr. Martin could have offered compelling testimony
of Sigmon’s remorse. The substance of McKellar’s testimony was discussed earlier; he
spent significant time with Sigmon and was aware he was very remorseful for what
happened. Dr. Martin directly observed Sigmon in a detention and medical setting
and was able to observe his feelings about the crime.
Both witnesses could have offered mitigating evidence related to Sigmon’s
remorse. They were not properly investigated by trial or state post-conviction counsel
and this opportunity for mitigation was lost to Brad.
Despite being faced with this extensive new mitigation evidence, the district
court granted the state’s motion for summary judgment on all claims. Sigmon, 956

Stephen P. Garvey, The Emotional Economy of Capital Sentencing, 75 N.Y.U. L. REV. 26 (2000);
Theodore Eisenberg, Stephen P. Garvey & Martin T. Wells, Mitigation Means Having to Say You’re
Sorry: The Role of Remorse in Capital Sentencing, 83 CORNELL L. REV. 1599 (1998); Scott Sundby, The
Jury and Absolution: Trial Tactics, Remorse and the Death Penalty, 83 CORNELL L. REV. 1557 (1998).
6

15
F.3d at 190; (App. 52a). The Fourth Circuit granted a certificate of appealability on
all but one claim.
b.

The Court of Appeals Affirmed the District Court

The Fourth Circuit found that Sigmon had not presented a substantial claim
of ineffective assistance of counsel claim as required under Martinez. It held that
much of the evidence federal habeas counsel discovered (detailed above) was simply
cumulative of evidence presented to the jury, and stated, without further explanation,
that the evidence of physical abuse and domestic violence never heard by any decision
maker was “not on par with the substantial mitigation evidence missed by counsel in
Williams, Gray, and Wiggins.” Sigmon, 956 F.3d at 200. It also based its opinion on
Sigmon’s failure to specifically argue the ineffective assistance of post-conviction
relief counsel. Id. at 200-201.
Judge King dissented from the opinion because the mitigation evidence found
in the Martinez investigation did in fact warrant a hearing; specifically, he found that
it was “markedly more compelling, detailed, and favorable to Sigmon than what was
presented at trial.” Id. at 211. The overall content of the mitigation testimony at trial
was “generic,” only including a “bare mention” of Sigmon’s choice to provide for his
family as a young teen and stripped of the “plethora of evidence” available regarding
Sigmon’s battle with major depressive disorder. Id.

Judge King answered the

question of whether Sigmon was entitled to an evidentiary hearing with “an emphatic
yes.” Id at 212.

16
Sigmon filed a petition for rehearing, arguing the Fourth Circuit misapplied
the Martinez standard and erroneously held that Sigmon had to specifically argue
that post-conviction counsel was ineffective in failing to present evidence of trial
counsel’s ineffectiveness. This petition was denied.
REASONS FOR GRANTING THE PETITION
I.

THE PREVAILING STANDARD IN THE LOWER COURTS ON WHAT
MITIGATION EVIDENCE IS CUMULATIVE AND WHEN IT IS
CONSIDERED SUBSTANTIAL FOR MARTINEZ PURPOSES HAS
RESULTED IN DEATH-SENTENCED PETITIONERS’ INABILITY TO
PRESENT
ADDITIONAL
MITIGATION
EVIDENCE
NEVER
PRESENTED BY TRIAL COUNSEL OR POST-CONVICTION
COUNSEL.
Mitigation evidence is of the “utmost importance” in a capital trial. ABA

Guidelines for the Appointment and Performance of Counsel in Death Penalty
Cases, Introduction. If a jury is presented with proper mitigation evidence and can
appropriately weigh it against the death penalty, a petitioner merely needs to show
a “reasonable probability” just one juror would favor life. Wiggins v. Smith, 539 U.S.
510, 537 (2003). This evidence should encompass the full range of a capital
defendant’s life, and investigations into mitigating evidence should involve efforts to
discover evidence related to topics including, but not limited to, the defendant’s
medical and mental health history, educational history, employment and training
history, family and social history, prior adult and juvenile correctional experience,
and religious and cultural influences. Lockett v. Ohio, 438 U.S. 586, 608 (1978); Porter
v. McCollum, 130 S. Ct. 447, 453 (2009); ABA Guidelines for the Appointment and
Performance of Counsel in Death Penalty Cases 10.7 (A), cmt. at p. 83, 10.11 (A), p.

17
108 (2003). Both Wiggins and Williams v. Taylor emphasize the importance of a
reasonable investigation into mitigation evidence. Id.; 529 U.S. 362 (2000).
Unfortunately, most new evidence uncovered during later stages of a capital
proceeding is labeled “cumulative,” regardless of its strength or substance. This Court
has agreed cumulative evidence does not warrant habeas relief but has never said
evidence involving the same subject matter or theme is automatically cumulative as
a matter of law and cannot meet the Martinez requirement of substantial.
A.

This case presents the opportunity for the Court to speak clearly
on this issue of “cumulative” evidence.

Sigmon’s case is the right procedural vehicle to address this problem. He
presented the classic Martinez claim in the district court. Powerful mitigation
evidence in his case was missed by his trial counsel. However, they did present some
mitigation evidence. During the Martinez review, habeas counsel located witnesses
who either testified at the sentencing phase or were readily available and had
additional information that could have transformed the mitigation case from a scant
collection of disjointed witnesses to a comprehensive and persuasive case for life.
Affidavits describing this evidence were presented in the district court.
Following the common pattern of habeas cases, the State moved for summary
judgment and the focus of the argument became less about granting relief and more
about just allowing a hearing so the new evidence could be properly considered. The
district court found the mitigation evidence was, “for the most part, cumulative,”
because it covered some of the same ground as the evidence presented at the
sentencing phase. Sigmon v. Stirling, 2018 U.S. Dist. LEXIS 168699 *57-58 (D.S.C.

18
Sept. 30, 2018); (App. 90a). The Fourth Circuit reached the same conclusion. Notably,
neither court actually heard the evidence. They only knew the general substance of
the evidence.
Because this case involves a common problem in capital cases, the Court can
address a broad problem and a number of cases with its opinion. By speaking clearly
on this issue, the Court can create a rule to guide the lower courts in determining
when newly discovered mitigation evidence warrants a hearing and when it is truly
cumulative and can add no further value to the case for life.
B.

The district court and Fourth Circuit in this case, along with
many other Circuit Courts, imposed a restrictive view of
cumulative evidence that was not envisioned by this Court in
Belmontes and Van Hook.

In Belmontes, this Court discussed a case where substantial mitigation
evidence was presented at trial. Wong v. Belmontes, 558 U.S. 15, 23 (2009). Each
“humanizing” factor was presented at trial and the jury was already “wellacquainted” with the defendant’s background. Id. That knowledge meant any
additional evidence was of insignificant benefit.
The Belmontes opinion used “cumulative” in its truest sense – the evidence was
no different than what was presented at trial. However, relying on Belmontes for a
bright-line rule on the introduction of cumulative mitigation evidence is a mistake.
The unique and overarching limitation on the introduction of mitigation evidence in
the Belmontes case was the existence of a second murder. Id. at 25. Any additional
mitigation evidence risked admission of that additional murder and the devastating
weight it would have added to the State’s case in aggravation. Id. at 17-18.

19
Around the same time Belmontes was decided, this Court addressed a similar
issue in its per curiam opinion in Bobby v. Van Hook, 558 U.S. 4 (2009). In discussing
the effectiveness of defense counsel, this Court recognized “[n]o particular set of
detailed rules for counsel's conduct can satisfactorily take account of the variety of
circumstances faced by defense counsel or the range of legitimate decisions regarding
how best to represent a criminal defendant.” Id. at 7. Nowhere is this ideal more
apparent than a capital case, where defense counsel must effectively handle both a
guilt phase and a sentencing phase.
Van Hook noted one general requirement from the United States Constitution
on the representation of criminal defendants: counsel must make objectively
reasonable choices. Id at. 9. This Court found Van Hook’s lawyers’ mitigation
investigation was effective in timing, scope, and quality. Lay witnesses were
contacted “early and often.” Id. There was extensive information from family
members related to Van Hook’s childhood negligence, abuse, and trauma. Id. at 10.
Detailed expert testimony about mental conditions was introduced. Id. at 10-11. Most
importantly, the opinion suggests the evidence was introduced in a logical way,
allowing for an explanation of a violent crime and a full picture of the man on trial.
Circuit courts attempting to apply a rule from Belmontes and Van Hook have
struggled. Most courts, like the Fourth Circuit in this case, seem to believe any
evidence covering subject matter similar to what was introduced at trial is cumulative
as a matter of law. Compounding the problem is that much of the Circuit precedent
involves deference to state court rulings that have already analyzed the evidence. No

20
such deference is afforded in a Martinez claim because there is no prior analysis.
Courts are making rulings without the benefit of any prior analysis, but at the same
time, neglecting to conduct their own detailed and fact-specific analysis.
For example, the Fourth Circuit in its opinion below recognized some of the
evidence presented in Sigmon’s Martinez claim was unknown to trial counsel.
Sigmon, 956 F.3d at 200. Though that reflects trial counsel’s decisions were not
“reasonable, informed decisions about the scope of the investigation” the Fourth
Circuit held the evidence was merely cumulative to that which was presented. Id.
Despite its holding, the Fourth Circuit offered no substantive analysis of
whether the evidence was truly cumulative. It simply listed witnesses who had
testified to the same general subject matter, as opposed to carefully analyzing
whether the new evidence could have potentially changed the mind of one juror. Id.
at 199-200. This is a common mistake Circuits are making when considering claims
involving newly-discovered mitigation evidence.
The Tenth Circuit, for example, considered evidence it found cumulative on
the ground that “one of the thrusts of the evidence [the petitioner] offers in support
of this ineffective assistance of counsel claim was, to some degree, already before the
jury such that its theoretical mitigating value is minimized.” Simpson v. Carpenter,
912 F.3d 542, 595 (10th Cir. 2018). The recent precedent from the Tenth Circuit,
which governs capital mitigation claims, has the power to eviscerate nearly all
mitigation claims. By creating such a tenuous link between evidence, calling it
similar “to some degree,” the Tenth Circuit risks no mitigation claims having merit

21
in its Circuit.7 Its approach is in clear violation of this Court’s decisions, as it fails to
add all of the new evidence to the existing evidence and reweigh the resulting total
to determine if there could be a different outcome.
The Eleventh Circuit took a similarly troubling approach to mitigation
evidence in Dallas v. Warden, 964 F.3d 1285 (11th Cir. 2020). The Court held
affidavits in habeas proceedings that did nothing more than “simply add some details,
substantiate, or explain some aspects of Dallas’s life that had already been
graphically presented…” were cumulative of previously presented themes. Id. at
1308-09. But the evidence analyzed did far more. For example, at trial the defendant’s
sister testified living with their mother was “hell” and police had taken their mother
“to an insane asylum a couple of times.” Id. at 1308. The affidavits presented in the
habeas proceedings offered far more detail, describing the harrowing details of
growing up with a severely mentally-ill mother.
The Eleventh Circuit found the jury was aware of the mother’s mental illness,
so the new evidence merely served to “amplify the theme.” Id. Amplifying a particular
theme, by adding detail and strength, would certainly change the equation when all
evidence was considered together. The Eleventh Circuit opines this Court has only
found prejudice when faced with failure to present mitigating evidence if the
difference between the new evidence and the existing evidence is “vast.” Id. at 1312.
The existing rule is quite different; this Court’s precedent simply requires an
undermining of the sentence. There is no requirement of “vastly” different evidence,

7

This Court clearly recognizes there are mitigation claims that will warrant relief. See Andrus, supra.

22
just that the evidence calls the outcome into question. That could be accomplished
with minimally different evidence, depending on the expected effect of the evidence.8
In contrast, the Ninth Circuit followed the Martinez ruling in properly
remanding a case for an evidentiary hearing to consider additional mitigation
evidence. In Ramirez v. Ryan, the Ninth Circuit applied the correct test to new
evidence and found the additional mitigation evidence was not too speculative, weak,
or irrelevant to disregard. Ramirez v. Ryan, 937 F.3d 1230, 1247 (9th Cir. 2019). The
Ninth Circuit recognized the mitigation presented at the trial was “relatively
innocuous” compared to details later learned about the defendant’s life. Id. at 1246.
In addition to properly determining what type of evidence was presented, the
Ninth Circuit used the proper procedure to determine whether a hearing was
warranted. After adding all the evidence together and considering it as a whole, the
Court found it was possible the sentencer “would have struck a different balance.” Id.
at 1246-47. It then held that without allowing further evidentiary development, the
Court could not conclude the ineffective assistance of counsel claim was
“insubstantial, i.e., it does not have any merit or [ ] it is wholly without factual
support.” Id. at 1247 (citing Martinez, 566 U.S. at 16).

The Eleventh Circuit misinterprets this Court’s opinion in Cullen v. Pinholster, citing it for the claim
that evidence that substantiates, supports, or explains trial testimony is cumulative. Dallas, 964 F.3d
at 1308 (quoting Cullen v. Pinholster, 563 U.S. 170, 200-01 (2011)). That is not at all what Pinholster
stands for. The opinion simply held that type of evidence added nothing to the mitigation case because
it was duplicative and sparse. Pinholster, 563 U.S. at 201.
8

The Eleventh Circuit’s idea that evidence that details or amplifies previously presented themes is
cumulative comes from its own faulty precedent, not any holding from this Court. Dallas, 964 F.3d at
1308 (citing Holsey v. Warden, Ga. Diagnostic Prison, 694 F.3d 1230, 1260-61 (11th Cir. 2012)).

23
In Foust v. Hook, 655 F.3d 524, 539 (6th Cir. 2011), the Sixth Circuit considered
affidavits introduced in habeas proceedings that covered the same ground as
mitigation evidence presented at the sentencing phase of a capital trial. The Court
recognized evidence covering similar themes was not cumulative as a matter of law.
“Because the facts adduced at the mitigation hearing on this point were neither
numerous nor detailed, [the Sixth Circuit] conclude[d] that new evidence is
substantially different and not cumulative. Id. at 540.
Notably, Foust was decided under AEDPA, which required deference to a prior
state court decision. The Sixth Circuit granted relief, vacating the petitioner’s death
sentence. Sigmon’s case involves no deference and a request for a hearing, which has
a much lower standard than the request for relief at issue in Foust.
In an unpublished opinion the Eleventh Circuit appropriately granted an
evidentiary hearing on additional mitigation evidence. Maples v. Comm’r, Ala. Dep’t
of Corr., 729 Fed. Appx. 817 (11th Cir. 2018). Accepting the allegations from petition
as true, the Eleventh Circuit recognized there was additional mitigation evidence
that “accurately depicted” some of the prior mitigation themes. Id. at 826. While the
Court granted an evidentiary hearing for a proper consideration of the new mitigation
evidence, the later opinion from the same Circuit in Dallas, supra, suggests not just
a Circuit split, but disagreement on the proper standard even within the Circuits.
The lack of appropriate analysis in many lower courts demonstrates the need
for this Court to impose a high bar for denying a hearing as a matter of law. Without
evaluating the evidence in a courtroom, the judicial system risks credibility when it

24
makes a determination on evidence that has been described but not actually
presented. The Circuits are effectively holding any similar evidence, regardless of
how broad the category is, cumulative.
C.

Lower courts should not find new evidence insubstantial as a
matter of law for merely covering similar ground as previously
presented evidence.

Courts are quick to find any similar evidence presented in habeas proceedings
“cumulative” and insubstantial. The default position is to find evidence previously
presented that is close enough to the new evidence to label it cumulative. The proper
rule should be that new evidence that could objectively meet the low standard of
convincing just one juror to favor life should be the subject of an evidentiary hearing
so it can be properly evaluated.
“Strategic choices made after less than complete investigation are reasonable
precisely to the extent that reasonable professional judgments support the limitations
on investigation.” Strickland v. Washington, 466 U.S. 668, 690-91 (1984). A court’s
proper inquiry into additional mitigation evidence, even when trial counsel
introduced mitigation evidence, should be probing and fact-specific. Sears v. Upton,
561 U.S. 945, 955 (2010). This Court has never limited its prejudice inquiry under
Strickland to cases where “little or no mitigation evidence” was presented, but has
also found deficient performance in cases where counsel presented “a superficially
reasonable mitigation theory.” Sears v. Upton, 561 U.S. 945, 954 (2010).
Deeming new mitigation evidence cumulative, and insubstantial, because it
covers the same subject matter as trial evidence is not authorized by this Court’s

25
precedent. Determining deficient performance related to mitigation requires the
reviewing court to consider “the totality of the available mitigation evidence—both
that adduced at trial, and the evidence adduced in the habeas proceeding [and]
reweigh it against the evidence in aggravation.” Porter v. McCollum, 558 U.S. 30, 41
(2009) (quoting Williams v. Taylor, 529 U.S. 362, 397-98 (2000)).
The “cumulative” designation often comes from the lower courts putting as
much evidence as they can in similar categories. The default position is to deny
hearings, which makes the denial of habeas relief a virtual certainty. The correct
process is found in Ramirez, where the Ninth Circuit followed this Court’s instruction
to weigh the evidence in total and grant a hearing unless the claim is completely
meritless and completely unsupported by facts.
II.

THE LOWER COURTS’ IMPROPERLY RESTRICTIVE VERSION OF
THE MARTINEZ ‘SUBSTANTIALITY STANDARD’ IN HABEAS
CLAIMS HAS CREATED AN ARTIFICIALLY HIGH BAR FOR
“SUBSTANTIAL CLAIMS” UNDER MARTINEZ.
Martinez v. Ryan created a narrow exception to the traditional default rule in

federal habeas proceedings. Martinez v. Ryan, 566 U.S. 1. (2012). Some states, like
South Carolina, require a prisoner to raise claims of ineffective assistance of counsel
in an “initial-review collateral proceeding,” as opposed to direct appeal. In those
cases, failure to raise a substantial claim of ineffective assistance of counsel will not
bar a federal habeas court from hearing that claim if the default was caused by
ineffective assistance of counsel in the collateral proceeding. Davila v. Davis, 137 S.
Ct. 2057, 2065 (2017).

26
A.

Sigmon’s case presents the opportunity for this Court to
reaffirm Martinez and make sure it is followed in the lower
courts.

Martinez is in danger of becoming a dead letter. Detrich v. Ryan, 740 F.3d 1237,
1247 (9th Cir. 2013). Courts are insistent on finding the vast majority of defaulted
habeas claims “insubstantial,” negating the need for a hearing and leaving appellate
courts to rule on an incomplete record.
Sigmon presents a typical Martinez claim, which will likely be repeated in
future cases. He has a valid claim that was not raised in his state post-conviction
relief proceedings. New counsel found a wealth of new mitigation evidence and
developed as well as possible within the confines of only being able to collect
interviews and affidavits. This new evidence was provided to the district court to
obtain a hearing – not win relief on pleadings.
Sigmon’s case serves as the right vehicle for this Court to clarify its Martinez
holding and ensure its directive is honored in the lower courts.
B.

Lower courts are misapplying the “substantial” requirement.

Martinez spent little time discussing what constituted “substantial.” It simply
pointed to Miller-El v. Cockrell in defining when a claim has “some merit.” Martinez,
566 U.S. at 15. While most of the Circuits have recognized the “some merit”
requirement, it is inconsistently applied. The Third, Seventh, and Ninth Circuits
have

properly

applied

the

standard,

recognizing

the

cause

to

excuse

procedural default is separate from whether a petitioner would prevail on the merits.

27
Workman v. Superintendent Albion SCI, 915 F.3d. 928, 940-41 (3d Cir. 2019); Brown
v. Brown, 847 F.3d 502 (7th Cir. 2017); Detrich v. Ryan, 740 F.3d 1237 (9th Cir. 2013).
A “substantial” claim does not have to automatically warrant prima facie relief.
It is merely a claim that has some merit. Martinez, 566 U.S. at 14. The standard is
the same as that required to grant a certificate of appealability; jurists of reasonable
mind could disagree about the resolution of the matter or the issues presented are
adequate to encourage further proceedings. Miller-El v. Cockrell, 537 U.S. 322, 327
(2003).
This standard is critical. If the bar is too low, judicial efficiency is lost. If it is
too high, the relief offered by Martinez is meaningless. “Substantial” offers a
meaningful point between the two. Discussing “substantial” in terms of evidence, the
Fourth Circuit has held that substantial evidence is more than a mere scintilla but
less than a preponderance. Laws v. Celebrezze, 368 F.2d 640, 642 (4th Cir. 1966). A
preponderance is not much. It would only require a court to believe a fact is more
probable than not. Concrete Pipe and Products of California, Inc. v. Construction
Laborers Pension Trust for Southern California, 508 U.S. 602, 622 (1993).
Substantial evidence does not even require a likelihood. An unlikely or
improbable conclusion could be supported by substantial evidence. This Court has
repeatedly held that substantial evidence is merely more than a scintilla and
acceptable to a reasonable mind as adequate to support a conclusion. Consolidated
Edison Co. v. NLRB, 305 U.S. 197, 229 (1938). There is no requirement the court

28
believe the conclusion or accept the conclusion. It must simply be more than a
meritless, unsupported argument.
In other words, substantial means measurable. This is the same as not being
meritless. Each of the grounds raised by Sigmon has merit. Each ground could have
made a difference in the ultimate penalty imposed by the jury. While the district court
required a prima facie case for relief on affidavits attached to the amended petition,
case law only requires those affidavits result in some substance. Once that substance
is produced, a district court must grant an evidentiary hearing to further determine
whether relief should be granted.
C.

The Court should reaffirm the rule from Martinez – ‘substantial’
merely requires some factual support and some merit, and a
substantial claim warrants an evidentiary hearing in federal
habeas proceedings.

For a Martinez claim, this Court should review each claim for substance based
on the argument above. Each substantial claim should be remanded to the district
court with instructions that the district court conduct an evidentiary hearing so these
claims can be developed further. To get to that point, the Martinez rule is clear: a
claim must have some merit and some factual support. Yet lower courts are not
following this Court’s directive.
A claim wholly without merit means there is little for the court to do – the
petitioner could never prevail regardless of the strength of the claims. The rule is
simple: if the claim is one the petitioner could conceivably prevail on, the first element
is satisfied.

29
A similar analysis dictates the factual portion of the Martinez test. If any facts
support the claim, a hearing should be granted. This is not an unfamiliar standard.
Regardless of counter-narratives raised by the State in a criminal case, if the
petitioner can advance facts in support of a claim, there is a dispute to resolve. It is
well-settled that factual disputes are best resolved in evidentiary hearings, where a
factfinder can assess evidence, evaluate credibility, and question both witnesses and
facts.
The lower courts are not granting hearings on cases with substantial claims.
Rather, they are insisting the claim must be a winner at the start to warrant a
hearing. In addition to violating Martinez, this rule makes little sense. Evidentiary
development is nearly always required to convince a court to grant habeas relief.9
Requiring that high bar prior to a hearing, and at the same time preventing a
petitioner from meeting the bar by preventing a hearing, means few habeas claims
will be successful.
This Court can avoid Martinez continuing to be a hollow promise by reaffirming
its holding and clarifying the standard for a hearing contained in the opinion.

Martinez claims and claims subject to AEDPA are very different. Principles of comity dictate a federal
court will override a state court only when faced with unreasonable action by a State, so federal courts
are hesitant to reevaluate claims already developed in state court. Martinez claims, on the other hand,
have never been developed.
9

30
CONCLUSION
Petitioner Brad Sigmon requests this Court grant the petition for a writ of
certiorari, vacate the opinion of the Fourth Circuit Court of Appeals and remand this
matter for an evidentiary hearing as required by Martinez v. Ryan.
Respectfully submitted,
/s/ Joshua Snow Kendrick
JOSHUA SNOW KENDRICK
Counsel of Record
KENDRICK & LEONARD, P.C.
1522 Lady Street
Columbia, SC 29201
(803) 667-3186
josh@kendrickleonard.com
MEGAN E. BARNES
JUSTICE 360
900 Elmwood Ave., Suite 200
Columbia, SC 29201
(803) 765-1044
megan@justice360sc.org

APPENDIX

-iaTABLE OF CONTENTS
Appendix Page
Published Opinion of
The United States Court of Appeals
For the Fourth Circuit
Re: Affirming the District Courts Denial of Habeas Relief
entered April 15, 2020 ........................................................................................ 1
Judgment of
The United States Court of Appeals
For the Fourth Circuit
entered April 14, 2020 ...................................................................................... 49
Order of
The United States Court of Appeals
For the Fourth Circuit
Re: Denying Petition for Rehearing En Banc
entered May 27, 2020 ........................................................................................ 50
Judgment in a Criminal Case of
The United States District Court for
The District of South Carolina
entered October 1, 2018 .................................................................................... 51
Order of
The Honorable R. Bryan Harwell
Re: Overrules the Petitioner’s Objections and Adopts the Magistrate Judge’s
Report and Recommendation. Accordingly the Court Grants the Respondent’s
Motion for Summary Judgment and Denies and Dismisses Petitioner’s § 2254
Petition in its Entirety with Prejudice.
entered September 30, 2018 ............................................................................. 52

Total Pages:(1 of 48)

1a

PUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 18-7

BRAD KEITH SIGMON,
Petitioner - Appellant,
v.
BRYAN P. STIRLING, Commissioner, South Carolina Department of Corrections
and WILLIE DAVIS, Warden of Kirkland Correctional Institution,
Respondents - Appellees.

Appeal from the United States District Court for the District of South Carolina, at
Anderson. R. Bryan Harwell, Chief U.S. District Court Judge. (8:13-cv-01399-RBH)

Argued: October 30, 2019

Decided: April 14, 2020
Amended: April 15, 2020

Before NIEMEYER, KING, and WYNN, Circuit Judges.

Affirmed by published opinion. Judge Wynn wrote the majority opinion, in which Judge
Niemeyer joined. Judge King wrote a dissenting opinion.

ARGUED: Joshua Snow Kendrick, KENDRICK & LEONARD, P.C., Greenville, South
Carolina, for Appellant. Melody Jane Brown, OFFICE OF THE ATTORNEY GENERAL
OF SOUTH CAROLINA, Columbia, South Carolina, for Appellees. ON BRIEF: Jeffrey
Phillip Bloom, Columbia, South Carolina, for Appellant. Alan Wilson, Attorney General,
Donald J. Zelenka, Deputy Attorney General, OFFICE OF THE ATTORNEY GENERAL
OF SOUTH CAROLINA, Columbia, South Carolina, for Appellees.

2a

Total Pages:(2 of 48)

WYNN, Circuit Judge:
Petitioner Brad Keith Sigmon seeks habeas relief from his death sentence for the
murders of David and Gladys Larke. Sigmon argues that he received ineffective assistance
of counsel and that the Supreme Court of South Carolina violated his due process and equal
protection rights by granting relief to other similarly situated inmates.
Following a state court’s denial of relief, the United States District Court for the
District of South Carolina determined that the state court’s denial did not constitute an
unreasonable application of clearly established federal law or an unreasonable
determination of the facts. As to Sigmon’s procedurally defaulted claims of ineffective
assistance of counsel, the district court concluded Sigmon has not demonstrated cause for
the default or actual prejudice.
We affirm.
I.
In 2001, Sigmon and Rebecca Barbare had been in a romantic relationship for
approximately three years and lived together in a trailer near the trailer of Barbare’s
parents, David and Gladys Larke. Sigmon v. State, 742 S.E.2d 394, 396 (S.C. 2013). But
early in that year, after Barbare ended their relationship and moved in with her parents,
Sigmon became increasingly obsessed with Barbare. Id.
On April 26, 2001, Sigmon and an acquaintance, Eugene Strube, spent the evening
drinking alcohol and smoking crack cocaine. Id. Early in the morning of April 27, Sigmon
told Strube that when Barbare left to take her children to school the next morning, Sigmon

2

3a

Total Pages:(3 of 48)

would go to the Larkes’ home, “tie her parents up,” and “get ahold of” Barbare. J.A. 40–
41.
Later that morning, after Barbare left to take her children to school, Sigmon took a
baseball bat from beneath his trailer and entered David and Gladys Larke’s home. Sigmon,
742 S.E.2d at 396. When David Larke, upon seeing Sigmon, called to Gladys Larke to
bring him his gun, Sigmon struck David Larke in the back of his head with the bat several
times. Id. Thereafter, Sigmon chased Gladys Larke into the living room and struck her
several times in the head. Id. at 397. Sigmon then went to the kitchen, saw David Larke
was still moving, and struck him again. Id. And after seeing that Gladys Larke was also
still moving, Sigmon struck her several more times. Id. David and Gladys Larke died within
minutes.
Sigmon retrieved David Larke’s gun and waited for Barbare to return. Id. When she
arrived, Sigmon forced her into her car and drove her away. Id. But during the ride, Barbare
jumped from the car, causing Sigmon to pull over, chase after her, and shoot her. Id.
Barbare survived the shooting. Id.
Meanwhile, Sigmon fled but was captured in Tennessee ten days later after his
mother helped authorities locate him. Id. Upon his capture, Sigmon confessed to the
murders. Id.
A South Carolina grand jury indicted Sigmon, charging him with two counts of
murder, first degree burglary, and other offenses, including kidnapping. The state filed
notice of its intent to seek the death penalty. Shortly before trial, the state dismissed all
charges other than the two counts of murder and the single count of burglary.
3

4a

Total Pages:(4 of 48)

Attorneys John Abdalla and Frank Eppes represented Sigmon at his July 2002 trial.
During the guilt phase, Sigmon admitted his guilt to the jury. Id. The state presented
evidence that David and Gladys Larke had likely lived for three to five minutes after
Sigmon’s assault, hemorrhaging and breathing blood, before dying as a result of blunt force
trauma to the head. Id. The jury found Sigmon guilty of all charges. Id.
During sentencing, Sigmon’s mitigation case focused on childhood abandonment
and the development of his social mores and judgment, as well as evidence of drug use and
mental illness. Sigmon also presented evidence he was adapting to prison life and was not
a difficult prisoner. Mitigation witnesses included three experts—a clinical social work
expert, a pharmacology expert, and an expert on prison adaptability. Sigmon also called
five jail employees, five family members, and a volunteer who led a Bible class at the jail.
Other witnesses testified about Barbare’s previous relationships. After presenting
sentencing evidence, the prosecutor and Attorney Eppes each made a closing argument. As
permitted by South Carolina law, Sigmon also made a statement to the jury. S.C. Code
Ann. § 16-3-28.
The jury recommended a sentence of death after finding three aggravating factors:
two or more persons were murdered in one course of conduct; the murder was committed
in the commission of a burglary; and the murder was committed in the commission of
physical torture. The trial court sentenced Sigmon to thirty years for the burglary charge
and to death for the two murder charges. The Supreme Court of South Carolina upheld the
sentence on direct appeal. State v. Sigmon, 623 S.E.2d 648, 649–50 (S.C. 2005).

4

5a

Total Pages:(5 of 48)

Sigmon then pursued relief through an application for post-conviction relief
(“PCR”) filed in state court. The PCR court appointed Attorneys William Ehlies and Teresa
Norris to represent Sigmon.
Sigmon alleged in his PCR application that his trial counsel were ineffective in,
among other things, failing to object to improper prison conditions evidence, failing to
object to improper closing arguments, and making various errors related to the court’s
instructions on mitigation. An evidentiary hearing was held in August 2008, and in July
2009, the PCR court denied and dismissed Sigmon’s PCR application. Sigmon sought
review by the Supreme Court of South Carolina, which considered three of Sigmon’s
claims but ultimately affirmed the PCR court’s dismissal. See Sigmon, 742 S.E.2d 394.
Thereafter, Sigmon sought relief in federal district court, asserting six grounds for
relief, all of which had been presented to the South Carolina courts. After this Circuit’s
decision in Juniper v. Davis, 737 F.3d 288 (4th Cir. 2013), the district court appointed a
new attorney—one who had not represented Sigmon before the PCR court—to review the
case for claims available under Martinez v. Ryan, 566 U.S. 1 (2012). The attorney identified
five additional grounds for relief. Sigmon amended his petition to include all eleven
grounds. Federal proceedings were stayed while Sigmon pursued a second PCR action in
state court, where the state court determined Sigmon’s five new claims were procedurally
defaulted under South Carolina law. When federal proceedings resumed, the state moved
for summary judgment on Sigmon’s eleven claims. Sigmon withdrew one defaulted claim
before the magistrate judge issued a report and recommendation, leaving four procedurally
defaulted Martinez claims.
5

6a

Total Pages:(6 of 48)

Applying the deferential standard of review found in 28 U.S.C. § 2254(d), the
magistrate judge recommended denying relief on all six of Sigmon’s preserved claims. As
for the four Martinez claims, the magistrate judge considered affidavits offered by Sigmon
in support of these claims and nonetheless concluded none were substantial. Sigmon
objected to the magistrate judge’s report and recommendation. The district court overruled
the objections, finding no preserved claim satisfied the standard articulated in § 2254(d)
and no Martinez claim was substantial. The district court therefore granted the state’s
motion for summary judgment.
Thereafter, this Court granted a certificate of appealability on all of Sigmon’s
preserved claims and all but one of Sigmon’s Martinez claims. On appeal, Sigmon argues
that the district court erred on each asserted ground for relief and seeks to have his sentence
vacated or, alternatively, seeks remand for an evidentiary hearing.
II.
We review the district court’s denial of habeas relief on summary judgment de novo.
Bostick v. Stevenson, 589 F.3d 160, 163 (4th Cir. 2009). However, we view this appeal
generally through the highly deferential lens mandated by the Antiterrorism and Effective
Death Penalty Act, 28 U.S.C. § 2254(d). Our deference under § 2254 ensures “state
proceedings are the central process, not just a preliminary step for a later federal habeas
proceeding.” Harrington v. Richter, 562 U.S. 86, 103 (2011). Accordingly, we may grant
habeas relief on claims adjudicated on their merits in state court only if the adjudication
“resulted in a decision that was contrary to, or involved an unreasonable application of,
clearly established Federal law, as determined by the Supreme Court of the United States”
6

7a

Total Pages:(7 of 48)

or “resulted in a decision that was based on an unreasonable determination of the facts in
light of the evidence presented in the State court proceeding.” 28 U.S.C. § 2254(d); see
also Cummings v. Polk, 475 F.3d 230, 237 (4th Cir. 2007).
On the other hand, this highly deferential standard does not apply to Sigmon’s
Martinez claims, which were not adjudicated on their merits in state court. Generally, a
federal court will not review the merits of habeas claims “that a state court declined to hear
because the prisoner failed to abide by a state procedural rule.” Martinez, 566 U.S. at 9.
However, under certain circumstances, including raising a claim under Martinez, a
petitioner may excuse a state court procedural default. Id. at 17. In such cases, a federal
court considers those claims de novo. Gray v. Zook, 806 F.3d 783, 789 (4th Cir. 2015).
III.
We start with Sigmon’s preserved claims. Deference under § 2254 permits habeas
relief only if the state court adjudication was contrary to, or involved an unreasonable
application of, clearly established federal law or if the decision was based on an
unreasonable determination of the facts. A state court adjudication is contrary to clearly
established federal law when, on a question of law, the state court “arrives at a conclusion
opposite” to a conclusion by the Supreme Court, or when, on “materially indistinguishable
facts,” a state court decides a case differently than the Supreme Court. Cummings, 475 F.3d
at 237 (quoting Williams v. Taylor, 529 U.S. 362, 413 (2000)). And a state court
unreasonably applies federal law when it “applies Supreme Court precedent in a different
factual context from the one in which the precedent was decided and one to which
extension of the legal principle of the precedent is not reasonable [or] fails to apply the
7

8a

Total Pages:(8 of 48)

principle of a precedent in a context where such failure is unreasonable.” Id. (alteration in
original) (internal quotation marks omitted). In essence, to obtain federal habeas relief, “a
state prisoner must show that the state court’s ruling on the claim being presented in federal
court was so lacking in justification that there was an error well understood and
comprehended in existing law beyond any possibility for fairminded disagreement.”
Harrington, 562 U.S. at 103.
Most of Sigmon’s arguments allege his trial counsel—Attorneys Eppes and
Abdalla—were ineffective. To demonstrate ineffective assistance of counsel, “[a]
petitioner must show that counsel’s performance was deficient, and that the deficiency
prejudiced the defense.” Wiggins v. Smith, 539 U.S. 510, 521 (2003); see also Strickland v.
Washington, 466 U.S. 668, 687 (1984).
A deficient performance is one that falls “below an objective standard of
reasonableness.” Strickland, 466 U.S. at 688. A petitioner must show “that counsel made
errors so serious that counsel was not functioning as the ‘counsel’ guaranteed . . . by the
Sixth Amendment.” Id. at 687. In this analysis, we must resist the temptation to “secondguess counsel’s assistance after conviction or adverse sentence” and instead must make
“every effort . . . to eliminate the distorting effects of hindsight.” Id. at 689.
The question of whether counsel’s deficiency prejudiced the defense “centers on
‘whether there is a reasonable probability that, absent [counsel’s] errors, the sentencer . . .
would have concluded that the balance of aggravating and mitigating circumstances did
not warrant death.’” Williams v. Ozmint, 494 F.3d 478, 484 (4th Cir. 2007) (alterations in
original) (quoting Strickland, 466 U.S. at 695). Such a showing “requires a ‘substantial,’
8

Total Pages:(9 of 48)

9a

not just ‘conceivable,’ likelihood of a different result.” Cullen v. Pinholster, 563 U.S. 170,
189 (2011) (quoting Harrington, 562 U.S. at 112). In making this determination, we review
the “totality of the evidence before the judge or jury.” Strickland, 466 U.S. at 695. And
where, as here, a claim of ineffective assistance of counsel is advanced on habeas review,
the petitioner’s bar is even higher: “The standards created by Strickland and § 2254(d) are
both ‘highly deferential,’ and when the two apply in tandem, review is ‘doubly’ so.”
Harrington, 562 U.S. at 105 (citations omitted).
A.
First, Sigmon claims trial counsel rendered ineffective assistance by failing to object
to prison conditions evidence elicited by the state during cross-examination of a defense
expert and by failing to object to the state’s closing arguments reiterating that evidence.
The PCR court concluded that Sigmon failed to satisfy either Strickland prong, noting that
trial counsel opened the door to the evidence and concluding Sigmon could not show
prejudice “given the overwhelming evidence of aggravating circumstances, and the limited
mitigation.” J.A. 756–57. The Supreme Court of South Carolina declined to review this
claim. Because the PCR court’s conclusion that Sigmon could not show prejudice is not
contrary to clearly established federal law or an unreasonable determination of the facts,
we agree that Sigmon is not entitled to relief on this claim.
At trial, Sigmon called James Aiken as an expert witness on prison adaptability and
prison conditions. During direct examination, trial counsel asked Aiken, “Tell me a little
bit about the way the day is structured in a maximum security facility?” J.A. 359–60. Aiken
testified about the constant monitoring, the risk of violence, and the limited rights prisoners
9

10a

Total Pages:(10 of 48)

are entitled to while incarcerated. On cross-examination, the state asked Aiken about
visitation, television, recreation, library access, and showers for prisoners. Trial counsel
did not object. During closing arguments, the state argued, “[W]e may think life
imprisonment is serious business, but you still have your visitation with your family. You
still have your mail. You still have your TV. You still eat three meals a day. Somebody
washes and takes care of your clothes. You get all the benefits of health care, and
recreation.” J.A. 412. Again, trial counsel did not object. Before the PCR court, Sigmon
argued trial counsel’s failure to object constituted deficient performance because this
evidence was inadmissible—and the closing argument improper—under State v. Plath,
313 S.E.2d 619 (S.C. 1984).
The PCR court concluded that, at the time of the trial, admission of prison condition
evidence was not recognized as reversible error, particularly if the allegedly improper
evidence was first elicited by defense counsel. Because trial counsel opened the door to the
evidence by calling Aiken and asking him about prison conditions in the first place, “[t]here
could be no proper basis for objection,” and any failure to object was therefore not deficient
performance. J.A. 752. Additionally, the PCR court noted trial counsel’s statements in the
PCR record demonstrated it was counsel’s strategy to offer evidence of prison conditions
and show “prison life in harsh reality.” Id. Finally, the PCR court concluded Sigmon had
not shown a reasonable probability that the sentencer would have imposed a different
sentence had counsel successfully objected to this evidence.
The record is ambiguous as to whether trial counsel failed to object due to strategy
or due to ignorance of the law. In South Carolina capital cases, evidence of prison
10

11a

Total Pages:(11 of 48)

conditions is inadmissible. See Bowman v. State, 809 S.E.2d 232, 241 (S.C. 2018). And
even at the time of Sigmon’s trial, this rule was clear. See Plath, 313 S.E.2d at 627–28.
Nonetheless, evidence before the PCR court suggests trial counsel’s actions were part of a
strategy “to elicit testimony about the harshness of prison life.” J.A. 752. However, the
record also suggests trial counsel did not know that prison conditions evidence was
inadmissible. “[A]cts or omissions made by counsel under a mistaken belief or an
ignorance of law are rarely—if ever—‘reasonable’ in light of prevailing professional
norms.” Thompson v. Gansler, 734 F. App’x 846, 855 (4th Cir. 2018) (unpublished)
(collecting cases); see also Strickland, 466 U.S. at 690 (“[S]trategic choices made after
thorough investigation of law and facts relevant to plausible options are virtually
unchallengeable . . . .”). Therefore, if trial counsel did not know the evidence was
inadmissible, counsel’s failure to object cannot be excused as trial strategy.
Nonetheless, even if trial counsel performed deficiently, the PCR court’s conclusion
that Sigmon cannot show prejudice was neither an unreasonable application of clearly
established federal law nor an unreasonable factual determination. There was
overwhelming and uncontested evidence of aggravating circumstances, and exclusion of
prison conditions evidence would have also excluded parts of Sigmon’s mitigation case.
And the PCR court was not unreasonable in concluding there was not a reasonable
probability that, had counsel objected to this evidence, the sentencer would not have
imposed a death sentence. Therefore, Sigmon is not entitled to relief on this claim.

11

12a

Total Pages:(12 of 48)

B.
Second, Sigmon argues the Supreme Court of South Carolina violated his due
process and equal protection rights by denying him certiorari and relief on the issue of
prison conditions evidence when “other death-sentenced inmates were granted relief.”
Appellant’s Br. at 27.
In this Circuit, “claims of error occurring in a state post-conviction proceeding
cannot serve as a basis for federal habeas corpus relief.” Bryant v. Maryland, 848 F.2d 492,
493 (4th Cir. 1988). Sigmon’s claim that the Supreme Court of South Carolina violated his
due process and equal protection rights in his post-conviction proceedings is not a
cognizable claim, and Sigmon cannot obtain relief. See, e.g., Lawrence v. Branker,
517 F.3d 700, 717 (4th Cir. 2008) (concluding petitioner’s due process claims arising from
state post-conviction proceedings “are not cognizable on federal habeas review”).
C.
Third, Sigmon argues trial counsel were ineffective for failing to object to two
portions of the prosecutor’s closing argument: comments that suggested the prosecutor had
already made a reasoned decision that the death penalty was appropriate; and the
prosecutor’s argument that the jury should send a message to the community. The Supreme
Court of South Carolina concluded that trial counsel’s failure to object did not constitute
deficient performance because the prosecutor’s comments were not objectionable. Sigmon,
742 S.E.2d at 399–400. On federal habeas review, the district court concluded these
comments were “borderline, but not necessarily improper.” J.A. 1116. As explained below,
under current Fourth Circuit law, the prosecutor’s comments about sending a message
12

13a

Total Pages:(13 of 48)

would be impermissible. However, at the time of Sigmon’s trial, these comments were not
clearly improper, and trial counsel had a strategic reason for declining to object. Therefore,
Sigmon is not entitled to relief on this claim.
During the state’s closing arguments, the prosecutor, Robert Ariail, made the
following statement: “Now, when we asked for the death penalty, it’s a fair and appropriate
question for you to say back to me, Solicitor Ariail, why do you think that the death penalty
is an appropriate punishment in this case?” J.A. 408–09. He then articulated a justification
for the death penalty. Later, he argued that the jury’s “decision will ring like a bell in this
community as [to] what is the standard for appropriate conduct . . . . [,] and that is what we
are asking, is to deter Brad Sigmon and send the message that this type of conduct will not
be tolerated in Greenville County, or anywhere in this State.” J.A. 415.
On review of the PCR court’s decision, the Supreme Court of South Carolina
observed, “[T]he solicitor has some leeway in referencing the State’s decision to request
death, provided he does not go so far as to equate his initial determination with the jury’s
ultimate task of sentencing the defendant.” Sigmon, 742 S.E.2d at 400. The court then
found the prosecutor “did not equate his role with that of the jury,” noting, in the context
of the entire closing argument, “the solicitor often emphasized the important role the jury
played.” Id. Because the closing argument was not objectionable, the court concluded trial
counsel’s failure to object was not deficient performance. Id.
The Supreme Court of South Carolina correctly observed that the prosecutor
emphasized the role of the jury in his closing argument. And in the context of the
prosecutor’s closing argument, the comments Sigmon argues suggested the prosecutor had
13

14a

Total Pages:(14 of 48)

already made a reasoned decision about the death penalty did not misstate the role of the
jury. The Supreme Court of South Carolina was not unreasonable in concluding these
statements were not objectionable.
As to the prosecutor’s comments about sending a message, at the time of Sigmon’s
trial, South Carolina law suggested the comments were permissible. See State v. Cain, 377
S.E.2d 556, 562 (S.C. 1988) (“The ‘send a message’ argument here certainly did not rise
to the level of arousing juror passion or prejudice.”). But Sigmon points to United States v.
Runyon, in which this Court concluded a prosecutor’s argument to the jury to “send a
message to the community, send a message with your verdict,” was improper. 707 F.3d
475, 514–15 (4th Cir. 2013). Under current Fourth Circuit law, the prosecutor’s comments
about sending a message would be improper. However, Runyon was decided more than a
decade after Sigmon’s trial, so trial counsel’s failure to object to a similar argument was
not deficient performance under then-applicable precedent.
Moreover, during PCR, trial counsel indicated his strategy was to avoid objecting
to the state’s closing argument. Specifically, Attorney Eppes testified the prosecutor is “an
elected official and jur[ies] tend to think a lot of them. So, unless I caught Solicitor [Ariail]
in what I would consider to be a whopper, I can’t imagine that I would have objected.” J.A.
683. These types of strategic choices are “virtually unchallengeable.” Strickland, 466 U.S.
at 690. Accordingly, the Supreme Court of South Carolina’s conclusion that it was not
deficient performance to refrain from objecting to these arguments is not contrary to clearly
established federal law or an unreasonable determination of facts. Sigmon is therefore not
entitled to relief on this claim.
14

15a

Total Pages:(15 of 48)

D.
Fourth, Sigmon argues trial counsel were ineffective for failing to request a
mitigating charge related to intoxication. The PCR court concluded the evidence at trial
did not establish Sigmon was intoxicated at the time of the murders. The Supreme Court
of South Carolina found the PCR court’s conclusion to be sufficiently supported by the
record. That conclusion is not an unreasonable determination of the facts in light of the
evidence presented, and Sigmon is not entitled to relief on this claim.
During trial, Sigmon offered evidence he consumed alcohol and drugs the night
before the crimes. Specifically, Strube, Sigmon’s companion that night, testified that
Sigmon “drank a six-pack” and that Strube and Sigmon smoked “a couple hundred dollars
worth” of crack cocaine. J.A. 52–53. And Charles Hall, who worked for Sigmon, testified
that when he saw Sigmon around 8:00 or 8:30 p.m. that night, he “could tell [Sigmon] had
been drinking.” J.A. 58. Finally, a defense expert testified Sigmon reported in a clinical
interview that he had used “about $50 worth” of crack cocaine and had consumed “between
two mixed drinks as well as . . . half a bottle of peppermint [Schnapps].” J.A. 326.
However, Strube testified that by the time he and Sigmon left Sigmon’s trailer, around 8:00
a.m. on the morning of the murders, neither Sigmon nor Strube was under the influence of
crack cocaine.
Under South Carolina law at the time of Sigmon’s trial, where there is evidence a
defendant was intoxicated at the time of a murder, the trial judge must submit to the jury
for consideration three mitigating circumstances provided for by state statute. See State v.
Stone, 567 S.E.2d 244, 248 (S.C. 2002); see also State v. Evans, 637 S.E.2d 313, 314–15
15

16a

Total Pages:(16 of 48)

(S.C. 2006). Specifically, the trial judge must instruct the jury to consider: whether the
“murder was committed while the defendant was under the influence of mental or
emotional disturbance”; whether the defendant’s capacity “to appreciate the criminality of
his conduct or to conform his conduct to the requirements of law was substantially
impaired”; and “[t]he age or mentality of the defendant at the time of the crime.” S.C. Code
Ann. § 16-3-20(C)(b)(2), (6)–(7). Here, the trial court instructed the jury on the first two
of these statutory mitigating factors—influence of a mental or emotional disturbance and
capacity to appreciate the criminality or conform his conduct—but did not instruct the jury
to consider the statutory mitigating factor of Sigmon’s “age or mentality.” The PCR court
concluded that this failure was irrelevant because it found that the record did not support
an allegation that Sigmon was intoxicated at the time of the murder.
The Supreme Court of South Carolina affirmed the PCR court’s dismissal,
concluding that “there is evidence of probative value supporting the PCR court’s finding
that Sigmon was not intoxicated at the time of the murders.” Sigmon, 742 S.E.2d at 400.
Because Strube, who was with Sigmon the night preceding and the morning of the murders,
testified Sigmon was not under the influence of crack cocaine just before the murders, the
Supreme Court of South Carolina’s conclusion is not “an unreasonable determination of
the facts in light of the evidence presented.” 28 U.S.C. § 2254(d)(2). And the resulting
conclusion—that trial counsel did not perform deficiently by failing to request a mitigating
circumstance unsupported by the record—similarly survives review under § 2254.
Accordingly, Sigmon is not entitled to relief on this claim.

16

17a

Total Pages:(17 of 48)

E.
Sigmon next argues trial counsel were ineffective for failing to object to the trial
court’s characterization of non-statutory mitigating circumstances in the jury instructions.
Viewing the challenged remarks in the context of the jury instructions as a whole, the
Supreme Court of South Carolina concluded the instructions were unobjectionable, and
therefore trial counsel were not deficient in failing to object. We agree.
During the jury charge, the trial court instructed the jury to consider mitigating
circumstances. Sigmon objects to the trial court’s explanation of mitigating circumstances:
[A] mitigating circumstance is neither a justification or an excuse for the
murder. It[ ] simply lessens the degree of one’s guilt. That is it makes the
defendant less blameworthy, or less culpable. . . . A non-statutory mitigating
circumstance is one that is not provided for by statute, but it is one which the
defendant claims serves the same purpose.
J.A. 453. Sigmon argues these portions of the trial court’s instructions limited the
mitigating circumstances the jury was instructed to consider and improperly diminished
the role of non-statutory factors.
After the PCR court’s dismissal, the Supreme Court of South Carolina reviewed this
claim and concluded that in the context of the overall charge, “the court clearly indicated
the jury’s power to consider any circumstance in mitigation.” Sigmon, 742 S.E.2d at 402.
Moreover, the description of a non-statutory circumstance as “not provided for by statute”
“seems to have been added for clarity, not to inject a hierarchy into mitigating
circumstances.” Id. Because the trial court’s instructions did not improperly describe nonstatutory mitigating circumstances, the Supreme Court of South Carolina concluded trial
counsel were not deficient in failing to object. Id.
17

18a

Total Pages:(18 of 48)

It is “well established . . . that a single instruction to a jury may not be judged in
artificial isolation, but must be viewed in the context of the overall charge.” Cupp v.
Naughten, 414 U.S. 141, 146–47 (1973). Here, the trial court explained to the jury that it
could choose a sentence of life imprisonment if it found a statutory mitigating
circumstance, if it found a non-statutory mitigating circumstance, or as an act of mercy.
And the trial court further explained each of those in turn. Therefore, the Supreme Court
of South Carolina’s conclusion that the instructions, when read in context, were not
objectionable is not an unreasonable application of clearly established federal law or an
unreasonable determination of the facts. The trial court’s instructions correctly explained
the jury should consider both statutory and non-statutory mitigating circumstances.
Accordingly, Sigmon is not entitled to relief on this claim.
F.
In the last of his preserved claims, Sigmon argues trial counsel rendered ineffective
assistance by pursuing an instruction for a mitigating circumstance of provocation by the
victim. The PCR court concluded Sigmon had failed to demonstrate deficient performance
or prejudice. On habeas review, the district court noted trial counsel’s “somewhat
confusing deposition testimony” but concluded the PCR court’s conclusion that Sigmon
had failed to demonstrate prejudice was not an unreasonable application of clearly
established federal law or an unreasonable determination of facts. J.A. 1127. We agree.
Trial counsel sought an instruction on the statutory mitigating circumstance of
provocation by the victim, which the trial court found supported by “the action of Mr.
Larke saying he was going to get his gun.” J.A. 399. Sigmon argues “[d]uring closing
18

19a

Total Pages:(19 of 48)

arguments, however, counsel focused on Sigmon’s relationship with Rebecca Barbare as
the provocation.” Appellant’s Br. at 41. Sigmon argues counsel’s closing argument sought
to blame Barbare—Sigmon describes this as blaming the victim—and risked offending the
jury.
On this claim, the PCR court observed the argument “confuses several positions”
because it essentially “argues that because counsel failed to specify the supporting facts for
the mitigating charge within his closing argument, that the jurors would interpret that as
‘blaming the victim,’ Ms. Barbare.” J.A. 771. Based on its review of trial counsel’s
description of their strategy, the PCR court concluded the charge and argument were
consistent with counsel’s strategy and with Sigmon’s confessions and statement to the jury.
Moreover, the PCR court concluded Sigmon failed to demonstrate prejudice from any error
related to this claim “for three reasons: 1) there is a factually distinguishable basis for the
charge [in David Larke’s action] that is not challenged; 2) the fact of [Sigmon]’s obsessive
infatuation with Ms. Barbare was part and parcel of the case . . . ; and 3) the tremendous
amount of evidence in aggravation in this brutal double murder.” J.A. 773.
As the district court noted, in PCR, trial counsel gave inconsistent testimony on this
issue “that could be read to indicate that trial counsel believed the basis for the provocation
by victim charge was related to Ms. Barbare’s actions with regard to her relationship with”
Sigmon. J.A. 1127. However, even if trial counsel misunderstood the basis for the
mitigation charge—believing Barbare’s actions, rather than David Larke’s, provided the
basis—Sigmon has not undermined the PCR court’s conclusion that he has not
demonstrated prejudice.
19

20a

Total Pages:(20 of 48)

Sigmon’s argument focuses on how testimony about Barbare and her previous
relationships may have offended the jury. But, as trial counsel testified during PCR,
Sigmon and Barbare’s relationship was central to counsel’s theory of the case. Sigmon
does not challenge that strategic choice. Further, Sigmon does not explain how the
mitigating charge of provocation by a victim—a charge the trial court concluded was
supported by the action of David Larke—caused any alleged offense to the jury. And we
will not assume the jury misunderstood the instruction to refer not to provocation by the
victim of the charges at trial, but to provocation by the victim’s daughter. See Penry v.
Johnson, 532 U.S. 782, 799 (2001) (“We generally presume that jurors follow their
instructions.”). The PCR court’s conclusion that any deficiency regarding this mitigating
charge did not prejudice Sigmon survives review under § 2254. Therefore, Sigmon is not
entitled to relief on this claim.
IV.
We now turn to Sigmon’s procedurally defaulted claims, three of which are before
us. Generally, if a claim is procedurally defaulted in state court, federal habeas review is
barred “unless the prisoner can demonstrate cause for the default and actual prejudice.”
Coleman v. Thompson, 501 U.S. 722, 750 (1991). And ineffective assistance of state postconviction counsel generally cannot establish cause for the default because “[t]here is no
constitutional right to an attorney in state post-conviction proceedings.” Id. at 752.
However, when state law requires “claims of ineffective assistance of trial counsel [to] be
raised in an initial-review collateral proceeding” and not on direct review—which South
Carolina law does—procedural default does not bar federal habeas review of “a substantial
20

21a

Total Pages:(21 of 48)

claim of ineffective assistance at trial if, in the initial-review collateral proceeding, there
was no counsel or counsel in that proceeding was ineffective.” Martinez, 566 U.S. at 17.
Accordingly, to invoke Martinez and obtain federal habeas review of a claim defaulted in
state court, Sigmon “must demonstrate that state habeas counsel was ineffective or absent,
and that the underlying [ineffective assistance of counsel] claim is substantial.” Porter v.
Zook, 898 F.3d 408, 438 (4th Cir. 2018), cert. denied, 139 S. Ct. 2012 (2019). To
demonstrate that “the underlying ineffective-assistance-of-trial-counsel claim is a
substantial one,” Sigmon must show “that the claim has some merit.” Martinez, 566 U.S.
at 14.
Sigmon seeks an evidentiary hearing on his Martinez claims. We review a district
court’s decision to deny a habeas petitioner an evidentiary hearing for abuse of discretion.
Conaway v. Polk, 453 F.3d 567, 582 (4th Cir. 2006). “In deciding whether to grant an
evidentiary hearing, a federal court must consider whether such a hearing could enable an
applicant to prove the petition’s factual allegations, which, if true, would entitle the
applicant to federal habeas relief.” Schriro v. Landrigan, 550 U.S. 465, 474 (2007). And
as the Supreme Court recognized in Martinez, claims of ineffective assistance of counsel
“often depend on evidence outside the trial record.” Martinez, 566 U.S. at 13; see also
Detrich v. Ryan, 740 F.3d 1237, 1246 (9th Cir. 2013) (en banc) (plurality opinion).
“Martinez would be a dead letter if a prisoner’s only opportunity to develop the factual
record of his state PCR counsel’s ineffectiveness had been in state PCR proceedings, where
the same ineffective counsel represented him.” Detrich, 740 F.3d at 1247 (citing
Strickland, 466 U.S. at 694). Nonetheless, “[w]here documentary evidence provides a
21

22a

Total Pages:(22 of 48)

sufficient basis to decide a petition, the court is within its discretion to deny a full hearing.”
Runningeagle v. Ryan, 825 F.3d 970, 990 (9th Cir. 2016).
A.
Sigmon argues trial counsel failed to find and present significant mitigating
evidence at the sentencing phase. Sigmon did not present this claim to the PCR court in his
first PCR application, so to overcome this procedural default, Sigmon must show PCR
counsel were ineffective or absent, and that his underlying claim of ineffective assistance
for failure to present additional mitigation evidence is substantial. The district court
concluded Sigmon’s claim was not substantial and therefore habeas review was barred. We
agree.
Trial counsel presented mitigation evidence through three experts, five jail
employees, five family members, and a volunteer who led a Bible class at the jail. However,
Sigmon alleges trial counsel failed to elicit sufficient mitigating evidence from these
witnesses and failed to call additional mitigation witnesses. Specifically, Sigmon argues
the following evidence should have also been offered: Sigmon’s father, his brother, and
Pastor Don McKellar—the pastor at Sigmon’s mother and stepfather’s church—could have
testified about Sigmon’s positive adjustment to prison. Barbare’s son, who was 12 years
old at the time of the trial, could have testified that Sigmon treated him like a son. Sigmon’s
mother could have testified that Sigmon’s father pushed or hit Sigmon during his
childhood. She and other family members could have testified that Sigmon began working
at age 15 to support his family. Greenville County Detention Center staff psychiatrist Dr.

22

23a

Total Pages:(23 of 48)

Ernest Martin could have testified about Sigmon’s history of depression. And Dr. Martin
and Pastor McKellar could have testified to Sigmon’s remorse.
Sigmon did not present this claim in his first PCR action, and the state court
concluded it was procedurally defaulted. To invoke Martinez, Sigmon must demonstrate
that this underlying ineffective assistance of counsel claim is substantial with reference to
Strickland’s two familiar prongs.
Sigmon has not made out a substantial claim that trial counsel performed deficiently.
Generally, trial counsel are not required to “investigate every conceivable line of mitigating
evidence no matter how unlikely the effort would be to assist the defendant at sentencing.”
Wiggins, 539 U.S. at 533. Rather, trial counsel must “make reasonable investigations or
. . . make a reasonable decision that makes particular investigations unnecessary.”
Strickland, 466 U.S. at 691.
This case is distinguishable from the cases Sigmon cites. For example, in
Williams v. Taylor, the Supreme Court held trial counsel were deficient when they failed
to seek mitigating prison records and prison-official testimony and when they “failed even
to return the phone call of a certified public accountant who had offered to testify”
regarding his visits to the defendant “as part of a prison ministry program.” 529 U.S. 362,
396 (2000). And in Gray v. Branker, despite repeated and serious indications of the
defendant’s mental impairment, defense counsel never investigated the defendant’s mental
health after the defendant instructed counsel not to do so on one occasion at the preindictment stage. 529 F.3d 220, 229–31 (4th Cir. 2008). This Court held that a “reasonable
lawyer” would not rely on such a “self-assessment” by the defendant, and the mental health
23

24a

Total Pages:(24 of 48)

evidence would have provided the jury a “medical explanation for Gray’s compulsive
behavior and his inability to control his reactions.” Id. at 231, 236; see also Williams v.
Stirling, 914 F.3d 302, 313–15 (4th Cir. 2019) (concluding trial counsel were deficient
when they failed to follow up on indications of the defendant’s potentially mitigating fetal
alcohol syndrome). Similarly, in Wiggins, the only significant mitigating factor the
defendant’s capital jury heard was that the defendant had no prior convictions. 539 U.S. at
537. While defense counsel had indications that the defendant’s childhood had been
traumatic, defense counsel conducted only a minimal investigation and failed to discover
that the defendant experienced severe, long-term physical and sexual abuse, including
repeated rape while in foster care. Id. at 523–24, 535. The Supreme Court held that such
compelling mitigating evidence might have produced a different outcome and that
counsel’s efforts were prejudicially deficient. Id. at 536.
No comparable deficiency occurred here. Much of the evidence Sigmon argues
should have been discovered and presented was cumulative of evidence presented to the
jury. See Morva v. Zook, 821 F.3d 517, 530 (4th Cir. 2016) (“That the mitigating evidence
[the defendant] insists should have been presented at trial is merely cumulative to the
evidence actually heard by the jury further undercuts [the defendant’s] claim for deficient
performance.”). Several jail employees and an expert testified to Sigmon’s adaptability to
prison. Positive character evidence came in through a jail volunteer and several family
members, including Sigmon’s parents and son. A social work expert testified about
Sigmon’s difficult childhood, including the fact that Sigmon worked as a teenager to
support his family. Dr. Martin’s diagnosis of major depressive disorder came in through
24

25a

Total Pages:(25 of 48)

another defense expert. Trial counsel introduced evidence of Sigmon’s remorse through
Sigmon’s mother, through a jail employee, and through their closing argument, which
referred to Sigmon’s call to his mother before his capture. Sigmon argues no witnesses
testified to any physical abuse or domestic violence during his childhood. However, this
potentially mitigating fact—in light of the testimony from the social work expert and
Sigmon’s family about his difficult childhood more generally—is not on a par with the
substantial mitigation evidence missed by counsel in Williams, Gray, and Wiggins.
Moreover, Sigmon has not demonstrated how trial counsel’s investigation was
deficient. Counsel used a mitigation expert, as suggested by the ABA guidelines for death
penalty cases. See American Bar Association Guidelines for the Appointment and
Performance of Counsel in Death Penalty Cases 11.4.1(D)(7) (1989). And the mitigation
team interviewed several of the people Sigmon now argues should have been asked to
testify. See Rompilla v. Beard, 545 U.S. 374, 389 (2005) (“Questioning a few more family
members and searching for old records can promise less than looking for a needle in a
haystack, when a lawyer truly has reason to doubt there is any needle there.”).
Affidavits of trial counsel suggest they were not aware of some of the mitigating
evidence Sigmon argues should have been presented. However, even if trial counsel did
not make reasonable, informed decisions about the scope of the investigation, because the
evidence Sigmon identifies is cumulative of evidence presented to the jury, trial counsel’s
failure to present that evidence did not prejudice Sigmon. See Morva, 821 F.3d at 530; see
also Huffington v. Nuth, 140 F.3d 572, 580 (4th Cir. 1998) (“The Sixth Amendment . . .

25

26a

Total Pages:(26 of 48)

does not always compel counsel to undertake interviews and meetings with potential
witnesses where counsel is familiar with the substance of their testimony.”).
Moreover, even assuming Sigmon presents a substantial claim of ineffective
assistance of trial counsel, to invoke Martinez, he must also demonstrate PCR counsel were
ineffective in failing to raise this issue. Sigmon suggests the additional information was
“easily located during the Martinez review.” Appellant’s Br. at 52. But PCR counsel’s
affidavits indicate that although they did not independently interview Sigmon’s proposed
additional witnesses (other than Dr. Martin) prior to the PCR proceedings, PCR counsel
“retained a mitigation investigator who conducted a number of interviews” with family and
community witnesses. J.A. 848. Attorney Norris stated that “to [her] knowledge[,] [the]
investigator did not interview [Barbare’s son] or [Pastor] McKellar.” J.A. 849.
Nonetheless, Sigmon’s allegations of deficient performance are simply that PCR counsel
failed to conduct interviews themselves and that their investigator failed to interview
Barbare’s son and the pastor at Sigmon’s parents’ church. This is insufficient to show
ineffective assistance by PCR counsel, and no other facts alleged in the petition support
such a finding.
Sigmon’s underlying claim of ineffective assistance of counsel is not substantial and
Sigmon fails to show ineffective assistance of PCR counsel, as required under Martinez.
And the district court did not abuse its discretion by considering the affidavits submitted
by Sigmon but not granting him an evidentiary hearing. The facts, as Sigmon alleges them,
do not entitle Sigmon to relief.

26

27a

Total Pages:(27 of 48)

B.
Sigmon next argues trial counsel were ineffective for failing to object to the stun
belt he wore during trial. Like the claim relating to mitigation evidence, this claim was
procedurally defaulted in state court. The district court concluded Sigmon failed to
demonstrate prejudice sufficient to establish a substantial claim under Martinez. In light of
the limited allegations regarding whether any juror saw the stun belt, we agree that Sigmon
has not demonstrated that this claim is substantial.
Once again, to overcome the procedural bar facing claims not adjudicated on the
merits by the state court, Sigmon must demonstrate this underlying ineffective assistance
of counsel claim is substantial, considering the deficient performance and prejudice
requirements of Strickland. Here, Sigmon offers affidavits from both trial counsel, each
stating that Sigmon
was required to wear a stun belt in court. This started with the very first
hearing in the case. There was never a hearing in court for the judge to decide
whether or not Mr. Sigmon would be required to wear a stun belt. We did not
consider filing a motion or objecting to Mr. Sigmon wearing a stun belt. I
specifically recall that he was wearing a stun belt during jury selection and
the voir dire process of jurors. In retrospect, I am concerned that jurors
probably saw him with the stun belt. This, coupled with Sigmon’s own
terrible closing argument, would have been enough to frighten jurors or cause
them concern so that it likely influenced their verdict for death.
J.A. 823–24. Attorney Eppes adds, “It never occurred to me to object to Mr. Sigmon being
required to wear a stun belt.” J.A. 834.
At the time of Sigmon’s trial in 2002, it was established that “[w]henever unusual
visible security measures in jury cases are to be employed, [courts] require the district judge
to state for the record, out of the presence of the jury, the reasons therefor and give counsel
27

28a

Total Pages:(28 of 48)

an opportunity to comment thereon.” United States v. Samuel, 431 F.2d 610, 615 (4th Cir.
1970). Three years after Sigmon’s trial, in Deck v. Missouri, the United States Supreme
Court reiterated the “basic principle” that visible restraints like shackling “‘should be
permitted only where justified by an essential state interest specific to each trial’” and
applied the principle to capital sentencing trials. 544 U.S. 622, 628–29 (2005) (quoting
Holbrook v. Flynn, 475 U.S. 560, 568–69 (1986)). This principle similarly applies to stun
belts. See United States v. Moore, 651 F.3d 30, 45–48 (D.C. Cir. 2011); Wrinkles v. Buss,
537 F.3d 804, 814–15 (7th Cir. 2008); United States v. Miller, 531 F.3d 340, 344–45 (6th
Cir. 2008); Gonzalez v. Pliler, 341 F.3d 897, 899–901 (9th Cir. 2003); United States v.
Durham, 287 F.3d 1297, 1305–07 (11th Cir. 2002).
The record offers little information about whether the stun belt was visible to the
jury. If it was, the longstanding requirement for the trial court to articulate a reason for
visible restraints on the record would have applied. See, e.g., Samuel, 431 F.2d at 615.
There is no such record here, and trial counsel “did not consider filing a motion or
objecting” to Sigmon wearing a stun belt for the entirety of the proceedings before the jury.
J.A. 823. So, if the stun belt were visible, this would constitute deficient performance. If,
on the other hand, the stun belt were not visible, whether trial counsel were deficient for
failing to object to a non-visible restraint finds less support in cases decided before
Sigmon’s trial. See, e.g., Durham, 287 F.3d at 1304 (“We have never addressed whether
the use of stun belts to restrain criminal defendants raises the same set of constitutional
concerns as do other physical restraints.”). Although now a trial court must articulate on
the record a reason for requiring a defendant to wear a stun belt, it is less clear that counsel’s
28

29a

Total Pages:(29 of 48)

failure to object to a stun belt that was not visible to the jury would have fallen below an
objective standard of reasonableness at the time of Sigmon’s trial. But even assuming
counsel’s failure to object was deficient performance, to make out a substantial claim under
Martinez, Sigmon must also show counsel’s error prejudiced him.
Sigmon argues the Supreme Court’s decision in Deck requires this Court to presume
prejudice. See 544 U.S. at 635. However, Deck was a direct appeal. Id. at 625. Here,
Sigmon raises a claim of ineffective assistance of counsel. Accordingly, Sigmon must show
a “reasonable probability that, but for counsel’s unprofessional errors, the result of the
proceeding would have been different.” Strickland, 466 U.S. at 694.
To establish prejudice, Sigmon alleges “[t]he likelihood that jurors saw the stun belt
means that jurors . . . were fearful of him.” J.A. 814. But Sigmon has offered minimal
allegations about the stun belt he wore and whether jurors actually saw it. For example,
Sigmon does not allege he wore the stun belt over his clothes or that it was visible under
his clothing, and he alleges no information about its size other than that it was “large.” J.A.
812. As to whether any juror actually saw the stun belt, Sigmon does not allege any juror
saw it, and the only evidence offered by Sigmon is trial counsel’s affidavits, which state
that they are “concerned that jurors probably saw him with the stun belt.” J.A. 824, 834.
Where a petitioner presents no evidence a juror saw the stun belt, courts have been
reluctant to assume prejudice. See Miller, 531 F.3d at 347–48 (collecting cases). At least
some courts have considered stun belts to present a lower risk of prejudice than shackles
and other methods of restraint because stun belts are worn under clothes and are less
obvious to jurors. See, e.g., Nance v. Warden, Ga. Diagnostic Prison, 922 F.3d 1298, 1305–
29

30a

Total Pages:(30 of 48)

06 (11th Cir. 2019) (holding that a state court’s conclusion that the petitioner’s stun belt
was not visible to the jury because it was worn under the petitioner’s clothes was not an
unreasonable determination of the facts); Bland v. Hardy, 672 F.3d 445, 450 (7th Cir. 2012)
(“A stun belt may be less prejudicial to a defendant than a courtroom full of armed
guards.”). But here, Sigmon does not even allege a juror saw the stun belt, and we will not
assume Sigmon was prejudiced by the stun belt without, at a minimum, an allegation that
at least one juror actually saw the stun belt. *
Even if Sigmon’s ineffective assistance of trial counsel claim were substantial, he
must also show PCR counsel were ineffective for failing to raise it. Sigmon offers the
affidavit of one PCR counsel, stating she was not aware that Sigmon wore a stun belt at
trial, but that if she had been aware of evidence supporting that allegation and the allegation
“that jurors who were actually seated likely saw the stun belt,” she would have asserted the
issue. J.A. 850. This does not demonstrate deficient performance. And although Sigmon
alleges that PCR counsel were “unaware of the underlying facts,” Sigmon has not argued,
except by implication, that PCR counsel performed deficiently in failing to raise this issue.
J.A. 814. Because Sigmon’s allegations, even if true, do not entitle him to relief, the district
court did not abuse its discretion in declining to hold an evidentiary hearing and Sigmon is
not entitled to relief on this claim.

*

Courts have considered other ways stun belts may cause prejudice. E.g., Gonzalez,
341 F.3d at 900 (considering the “psychological consequences” to a defendant of wearing
a stun belt during trial); Durham, 287 F.3d at 1306 (“[A] stun belt imposes a substantial
burden on the ability of a defendant to participate in his own defense and confer with his
attorney during a trial.”). But Sigmon has not alleged those other sources of prejudice here.
30

31a

Total Pages:(31 of 48)

C.
Finally, Sigmon argues that trial counsel were ineffective for not knowing that each
defense attorney could present a closing argument at sentencing, allowing one to argue
after Sigmon’s statement to the jury. The district court observed the record was unclear as
to whether trial counsel knew of this option, but nonetheless concluded Sigmon could not
show the outcome of the proceeding would have been different had trial counsel addressed
the jury one more time. We agree that Sigmon cannot demonstrate prejudice on this
underlying claim of ineffective assistance of trial counsel and therefore has not shown this
claim is substantial under Martinez.
First, it is not clear that trial counsel were unaware of their options regarding the
closing argument. During the guilt phase, Attorney Eppes’s discussion with the trial court
demonstrated he knew counsel’s argument could follow Sigmon’s and that “the statute did
not specify whether the defendant spoke first or second.” D. Ct. Dkt. No. 33-1 at 18–19.
And the statute Sigmon now cites addresses argument in both the guilt and sentencing
phases. S.C. Code Ann. § 16-3-28. However, an affidavit from Attorney Eppes states, “At
the time, I believed the law required Mr. Sigmon to be the very last speaker at closing
argument at sentencing.” J.A. 833. Acts by counsel made “under a mistaken belief or an
ignorance of law are rarely” reasonable. Thompson, 734 F. App’x at 855.
But second, even assuming that counsel’s ignorance of the law regarding the order
for closing arguments constitutes deficient performance, Sigmon has not shown “a
reasonable probability that, but for counsel’s” failure to offer an additional closing
argument, “the result of the proceeding would have been different.” See Strickland, 466
31

32a

Total Pages:(32 of 48)

U.S. at 694. Attorney Eppes states in an affidavit that if he had known his co-counsel could
give a closing argument after Sigmon, he “certainly would have had Mr. Abdalla give a
closing argument after Mr. Sigmon.” J.A. 833. But even if a second closing argument by
counsel had “defused the situation and gotten the jury to re-focus,” the jury would have
considered the same aggravating and mitigating evidence. Id. Here, evidence of
aggravating circumstances was uncontested, and Sigmon has not shown a reasonable
probability that a second argument by counsel would have resulted in a different outcome.
Moreover, even if Sigmon’s ineffective assistance of counsel claim were
substantial, he must also show PCR counsel were ineffective for failing to raise it. Sigmon
has not argued PCR counsel were ineffective in failing to raise this issue, other than that
PCR counsel “would have asserted this issue . . . if counsel had been aware that trial
counsel was unfamiliar with the law.” J.A. 816. Sigmon is therefore not entitled to relief
on this claim.
V.
Sigmon has failed to show that the state court that denied him post-conviction relief
unreasonably applied clearly established federal law or unreasonably determined the facts.
He has also failed to demonstrate post-conviction counsel were ineffective in failing to
raise any substantial claims. Accordingly, we affirm the district court’s denial of habeas
relief.
AFFIRMED

32

33a

Total Pages:(33 of 48)

KING, Circuit Judge, dissenting:
Brad Keith Sigmon committed horrific murders. He repeatedly confessed that to
police, and he admitted it throughout his trial in the South Carolina state court. Indeed, the
only real question for the jury was whether Sigmon deserved the death penalty or a life
sentence. In the circumstances, the defense’s paramount responsibility was to convince
the jury that Sigmon was worthy of some mercy. Yet Sigmon’s trial counsel presented a
feeble mitigation case, resulting in a significant imbalance between the evidence in
aggravation and the evidence in mitigation that has since been repeatedly invoked by the
state and federal courts to deny Sigmon relief from his death sentence. Now that the
lawyers appointed to represent Sigmon in these federal habeas proceedings have gathered
evidence supporting a stronger mitigation case, Sigmon merely asks for a hearing on his
claim that his trial counsel’s failure to discover and present such evidence amounted to
constitutionally ineffective assistance (Ground VII of Sigmon’s 28 U.S.C. § 2254 petition).
But the district court and my esteemed colleagues in the panel majority have ruled that no
hearing is warranted, deeming much of Sigmon’s new evidence to be cumulative and his
ineffective assistance claim to be facially meritless. Because I disagree and would accord
Sigmon a hearing, I respectfully dissent. 1

1

To be clear, I focus on the ineffective assistance claim raised in Sigmon’s § 2254
petition as Ground VII because it is his strongest claim and plainly merits a hearing. I
would vacate the judgment and remand for further proceedings that could also include
further consideration of Sigmon’s other claims, as appropriate.
33

34a

Total Pages:(34 of 48)

I.
A.
In the sentencing phase of Sigmon’s July 2002 trial, the prosecution argued that
Sigmon deserved no mercy because he showed no mercy to his victims, Gladys and David
Larke, “living and breathing human beings who underwent what had to be the most horrific
death that [one] could ever imagine, of seeing someone coming at you with a baseball bat.”
See J.A. 413. 2 The prosecution relied on three aggravating factors to obtain a death
sentence, needing to prove only one and having already proved the first two in the trial’s
guilt phase: that Sigmon murdered two or more victims; that he committed the murders in
the commission of a burglary; and that he committed the murders in the commission of
physical torture.
The defense countered that Sigmon, distraught over his breakup with the Larkes’
daughter, Rebecca Barbare, was “a love-sick idiot that snapped” — but he was “not a very
bad individual” or “a very bad prisoner.” See J.A. 416, 427. Among the mitigating factors
advanced by the defense were that Sigmon did not have a significant criminal history, that
he murdered the Larkes while under the influence of a mental or emotional disturbance,
that his capacity to conform his conduct to the requirements of the law was impaired, and
that he was adaptable to prison.

2

Citations herein to “J.A. __” refer to the contents of the Joint Appendix filed by
the parties in this appeal.
34

35a

Total Pages:(35 of 48)

1.
The defense presented three expert witnesses in the sentencing phase. Alex Morton,
an expert in addictions and psychopharmacology, concluded based on an examination of
Sigmon and a review of medical and psychiatric records that Sigmon (1) suffers from “a
medical disorder of the brain called recurrent major depressive disorder” (a diagnosis made
by a psychiatrist, and not by Morton); (2) has “chemical dependency disorders, specifically
regarding cocaine, alcohol and marijuana, and some past use of other substances”; and
(3) “was using a number of substances to treat his depression and temporarily was probably
helping . . . but overall made that depression worse.” See J.A. 320-21. Morton also
testified that Sigmon’s use of alcohol and crack cocaine prior to the murders could have
caused him to be violent, agitated, and impulsive. Regarding the evidence that Sigmon
repeatedly struck the Larkes with a baseball bat, Morton explained that “repetitive
behaviors” are consistent with cocaine use, and that “it’s almost like once [Sigmon] started,
he did not stop, and that is something you see with animals that are being studied with
cocaine.” Id. at 345-46.
Shirley Furtick, a licensed clinical social worker employed by the South Carolina
Department of Mental Health, conducted a biopsychosocial assessment that included
interviews with Sigmon, his parents, and other family members, along with a review of
Sigmon’s available medical and law enforcement records. See J.A. 199-200 (Furtick’s
testimony that a biopsychosocial assessment is used to “explore histories of persons” and
“explain how they came to be who they are”). Recounting significant aspects of Sigmon’s
childhood, Furtick noted that Sigmon was the oldest of five children, born in quick
35

36a

Total Pages:(36 of 48)

succession when their mother was between the ages of just seventeen and twenty-two; that
Sigmon’s father was in the military, causing the family to relocate frequently, including to
the Philippines soon after the fifth child was born; that Sigmon’s mother had difficulty
coping with being a young mother and adjusting to military life; that Sigmon’s father
abused alcohol and spent a lot of time away from the family; that Sigmon’s parents
intermittently separated, eventually divorced, and both remarried, with Sigmon being
moved back and forth between the parents and various stepparents; that Sigmon lived in
ten different states by the time he was sixteen years old; and that he dropped out of high
school at nineteen to get married, nine weeks before graduation. Furtick also mentioned
that Sigmon “was not only what we call a surrogate parent or caretaker for his younger
siblings, but he was also a provider for the family in helping the mother to financially
provide for the children. He went to work at age 16 while also trying to attend school.”
Id. at 218.
According to Furtick, although Sigmon’s “basic human needs” for food, shelter,
clothing, and education were met as a child, his family’s frequent moves were “very
disruptive” and “a problem area for [Sigmon].” See J.A. 227. Additionally, Sigmon was
a victim of “emotional neglect,” in that his mother, as a result “of her responsibilities for
all of these kids, could not have been consistently emotionally available to all of these kids
at the same time.” Id. Furtick explained that children like Sigmon often “end up feeling
depression” and “develop anxious habits,” causing them to be unable to “establish and
maintain healthy relationships” and to “tend to be over reactive and overly involved or
attached to relationships.” Id. Furtick also related that, as an adult, Sigmon “saw his role
36

37a

Total Pages:(37 of 48)

as provider and caretaker”; when he was in a relationship and his partner “would start to
reject him, he couldn’t understand that, and he would get depressed and he would selfmedicate his depression with his alcohol [and drugs].” Id. at 239. In Furtick’s view,
Sigmon’s mental state and substance abuse impaired “his ability to use good judgment and
insight,” with “[v]ery poor” results. Id. at 242.
James Aiken, an expert in prison adaptability, assessed Sigmon and determined
“that he can be incarcerated in a prison setting for the remainder of his life without causing
an undue risk of harm to staff, inmates, as well as to the general community.” See J.A.
362. Aiken based his assessment on, inter alia, evidence that Sigmon “adjusted very well
to his confinement” during his pretrial detention and that he was not a member of a gang
or other security threat group. Id. at 363-64.
2.
The defense called five of Sigmon’s family members to testify on his behalf.
Sigmon’s aunt, Brenda Clark, testified that Sigmon had been “a happy little baby” and “just
seemed like a normal child that did normal childhood things.” See J.A. 279. As an adult,
Sigmon “loved to be around the family” at Christmas get-togethers, where he would “hug
[Clark] and say, I love you, Aunt Brenda.” Id. at 280. Clark said she could feel that Sigmon
was sincere and knew him to be a loving and caring person.
Sigmon’s stepfather, Donnie Wooten, testified that Sigmon “was just like a normal
kid” who did “[n]ot really” need discipline, answered “yes, sir,” and did what he was told.
See J.A. 156. Wooten said that Sigmon “seemed fine” as an adult; treated his mother “nice,
good”; treated Wooten “[f]ine, good, real good”; treated the remainder of the family
37

38a

Total Pages:(38 of 48)

“[n]ice”; and generally “treats everybody fine, you know, decent.” Id. at 157. Wooten
also testified that he knew the Larke family and they were “[r]eal nice people.” Id.
Sigmon’s adult son, Robbie Sigmon, testified that Sigmon never abused him and
was “a loving father.” See J.A. 161. Robbie recalled “the happiest birthday [he] ever had,”
when his father “bought [him] a dirt bike” rather than “getting insurance.” Id. Robbie also
recalled frequently playing outside with his father and helping him at work.
Sigmon’s father, Ronnie Sigmon, testified that he “was very proud of [Sigmon], still
am,” though Sigmon had “made a mistake of course.” See J.A. 381. Ronnie said that
“what’s so shocking about [the murders]” was that Sigmon “was always the peace maker”
and “the one that stopped the fights.” Id. (elaborating that he “used to think [Sigmon]
might be a coward, but he just didn’t want the trouble”). Ronnie praised his son as a
talented hunter, fisherman, and athlete who was “tremendously good in soccer” but whose
potential sports career was hindered by the family’s frequent moves. Id. Turning back to
the murders, Ronnie said that he felt “as bad for the Larke family as [Sigmon did],” that
such conduct had “never been in our family on either side,” and that “[s]omething pushed
[Sigmon’s] buttons.” Id. at 382.
The final family member to testify was Sigmon’s mother, Virginia Wooten, who
described learning about the murders and then urging Sigmon to surrender to the police.
Virginia recounted that Sigmon immediately expressed remorse, saying “he didn’t want to
live” and had “done an awful thing.” See J.A. 389. According to Virginia, both she and
Sigmon would have given their lives in order to “bring [Gladys and David Larke] back.”
Id. at 391-92.
38

39a

Total Pages:(39 of 48)

3.
The defense’s mitigation case also involved six witnesses who had interacted with
Sigmon during his pretrial detention at the Greenville County Detention Center. Rosa
Jones, a licensed practical nurse on staff, recalled that she spoke with Sigmon upon his
arrival at the jail in May 2001. Jones said Sigmon “was sad, and he acted sort of
remorseful.” See J.A. 187.
Julia Moore, a licensed professional counselor who worked with jail inmates,
testified that she spoke with Sigmon three times — first when he arrived at the jail in May
2001 and then in September 2001 and February 2002 to check medication prescribed by
the jail psychiatrist. Each meeting lasted for approximately five to ten minutes and led
Moore to conclude that Sigmon was not exhibiting any suicidal or homicidal ideations.
See, e.g., J.A. 180 (Moore’s testimony regarding the jail intake meeting that “[a]t that point
he seemed not to be any danger to himself or anyone else”).
Correctional officer Valerie Putnam testified that she had interacted with Sigmon at
the jail “[e]very now and then” and he had never posed a threat to her or anyone. See J.A.
264-65. Their conversations had been “short and brief,” and he was always “pleasant” to
be around. Id.
Officer Matt Talley testified that Sigmon was “just like any other inmate, as far as
[Talley had] never had any problems with him personally.” See J.A. 175. When asked by
defense counsel to comment on Sigmon’s “aggressive or violent nature,” however, Talley
recalled that Sigmon once became aggressive “with another younger officer,” prompting

39

40a

Total Pages:(40 of 48)

Talley to “step[] in at that time and calm[] the situation down.” Id. Otherwise, Talley had
“never heard [Sigmon] threaten anybody.” Id.
Captain Michelle Melton, who oversaw the jail, testified that Sigmon was initially
housed in a maximum-security unit because of the severity of the charges against him, but
was soon moved to a medium-security unit because of his good behavior. Thereafter,
officers found a jail visitation pass — a contraband item that could be used to facilitate an
escape — hidden in Sigmon’s cell. When Melton confronted Sigmon about the pass, he
admitted that he had been “trying to find a way to get out of here,” but opted not to use the
pass to escape and concealed it in his cell for lack of a way to dispose of it. See J.A. 29091. As punishment, Sigmon was temporarily returned to the maximum-security unit, where
he staged a brief hunger strike in protest. Since then, Melton testified, there had been “no
significant behavioral problems from [Sigmon].” Id. at 300. Melton described Sigmon as
“well mannered, respectful, well presented in his communication skills and his appearance,
actively involved in religious activities. He goes about business . . . in an institution as
expected.” Id. at 304.
Finally, Terry Bradley, who led a weekly Bible class at the jail, testified that Sigmon
was “very faithful in coming [to the class]” and “showed enthusiasm to simply learn more
about God.” See J.A. 268. Bradley recounted that Sigmon once brought to class a Muslim
fellow inmate who subsequently converted to Christianity. Bradley said Sigmon “seemed
to be a normal average person” and did “not really” “seem any different than the other guys
who had lesser crimes.” Id. at 276.

40

41a

Total Pages:(41 of 48)

B.
Reflective of the weakness of the mitigation evidence presented by Sigmon’s trial
counsel, it took the jury less than three hours to return its unanimous recommendation that
Sigmon be sentenced to death. Since then, courts have repeatedly cited the defense’s
meager mitigation case in concluding that Sigmon was not and could not have been
prejudiced by other errors in his trial. For example, in rejecting the ineffective assistance
claim raised in Sigmon’s application for post-conviction relief (“PCR”) on the ground that
his trial counsel should have objected to prison conditions evidence elicited by the
prosecution, the state PCR court ruled that Sigmon suffered no prejudice “given the
overwhelming evidence of aggravating circumstances[] and the limited mitigation.” See
Sigmon v. State, No. 2006-CP-23-6547, at 30-31 (S.C. Ct. Com. Pl. July 20, 2009). Today,
our panel majority defers to the PCR court’s prejudice ruling to reject the same claim
(Ground I of Sigmon’s 28 U.S.C. § 2254 petition).
C.
As the lawyers appointed to represent Sigmon in these federal habeas proceedings
have shown by way of affidavits, however, there was a stronger mitigation case to be made.
These affidavits reflect that, because of an inadequate investigation by Sigmon’s trial
counsel, there were witnesses who took the stand without imparting important information,
as well as other potentially helpful witnesses who were never called. Based on the
affidavits, Sigmon simply requests “an evidentiary hearing to further develop the
mitigation case that should have been presented on [his] behalf,” in an endeavor to prove

41

42a

Total Pages:(42 of 48)

the ineffective assistance claim raised in his § 2254 petition as Ground VII. See Br. of
Appellant 59.
Perhaps most importantly, the affidavit of Sigmon’s mother, Virginia Wooten,
reveals she and Sigmon were both victims of repeated physical abuse by Sigmon’s father,
Ronnie Sigmon. In Virginia’s account, during her marriage to Ronnie, he would “often
get physical and violent with [her],” while Ronnie was both intoxicated and sober. See
J.A. 862. Although “Ronnie did not normally beat [his] children,” he abused Sigmon
because Sigmon, as the eldest child, made efforts to protect Virginia. Id. Sigmon’s efforts
began around age six, when he “would say things like, ‘Don’t hit my mama.’” Id. At about
ten or twelve years old, Sigmon “would physically get between [Virginia and Ronnie] and
try to grab Ronnie’s hands. Ronnie would knock him out of the way or shove him or slap
him. This happened a lot.” Id. During an argument between Virginia and Ronnie that
occurred when Sigmon was approximately fifteen years old, “Ronnie hit [Virginia]
multiple times in the face,” causing Virginia’s glasses to scratch her face and leave marks.
Id. In response, Sigmon “tried to intervene to protect [Virginia,] and Ronnie punched
[Sigmon] and knocked him down.” Id. According to Virginia, there were “many other
incidents . . . where Ronnie hit or punched [Sigmon] when [Sigmon] was trying to protect
[Virginia] from Ronnie during a physical and violent fight.” Id.
The various affidavits also provide the following additional information relevant to
Sigmon’s mitigation case:
●

Dr. Ernest Martin, the staff psychiatrist at the Greenville County
Detention Center, would have provided a “general summary” of his
ongoing treatment of Sigmon, including that Martin diagnosed
42

43a

Total Pages:(43 of 48)

Sigmon with “Major Depression” (“a major mental illness”),
prescribed him various medications, and “found no evidence that
[Sigmon] was malingering in any way whatsoever.” Martin also
would have given more detailed testimony as to relevant “opinions,
impressions, diagnoses, notes, [and] reports,” see J.A. 840-44;
●

Sigmon’s brother, Mike Sigmon, would have testified that, “[d]uring
the time just before the [murders, Sigmon and Rebecca Barbare] were
having problems,” and Sigmon “was very upset and was abusing
alcohol and illegal drugs.” Nevertheless, Mike “was shocked when
[he] learned of the [murders],” as “[i]t was completely out of character
for [his] brother . . . to have done [those] horrible crime[s]” and
Sigmon “had never borne any ill will or bad feelings toward the
Larkes,” id. at 855;

●

Mike Sigmon, Virginia Wooten, and Virginia’s brother Louis Burrell
each would have explained that, when Sigmon was about fifteen years
old and his father was withholding money from the family while
stationed overseas, Sigmon chose to both attend school and work the
night shift (approximately forty hours per week) at a local mill to
support mother Virginia and his siblings, id. at 828, 854, 861;

●

Rebecca Barbare’s son and the Larkes’ grandson, Troy Barbare, Jr.,
would have testified that, when his mother and Sigmon were dating,
Sigmon treated Troy “like a son” and “was more of a father to [Troy]
than [Troy’s] own biological father,” id. at 826;

●

Don McKellar, the pastor of the church attended by Sigmon’s mother
and stepfather, would have testified — despite his friendship with the
Larkes’ son, Pastor Darrell Larke — that he visited Sigmon at the jail
and Sigmon expressed genuine remorse about the murders, id. at 846
(recounting that Sigmon “was very remorseful. He was very sorry for
the harm that he had caused to the Larke family, and to his own family.
[Sigmon] was very sincere in his remorse”);

●

Pastor McKellar also would have testified that he had experience
working with “thousands of inmates,” that he possessed “good insight
into the type of character that makes inmates act positively during
their incarceration,” and that he expected “Sigmon would have been
one of the good and well-behaved inmates and . . . would try to help
others in prison,” id.; and

43

44a
●

Total Pages:(44 of 48)

Sigmon’s father, Ronnie Sigmon, similarly would have testified that,
based on his more than five years of experience as a correctional
officer with the South Carolina Department of Corrections (from 1995
through 2000), he was confident that Sigmon would “adjust[]
positively to prison,” “would obey correctional officers and staff,” and
“would not be a future danger or threat,” id. at 859-60.

II.
Again, with respect to Sigmon’s claim that his trial counsel’s failure to discover and
present stronger mitigation evidence amounted to constitutionally ineffective assistance,
the sole question before us is whether that claim merely warrants a hearing. Under the
applicable standard of Martinez v. Ryan, 566 U.S. 1 (2012), the panel majority agrees with
the district court that the answer is “no.” See Martinez, 566 U.S. at 14 (concluding that
where, as here, a state post-conviction proceeding was the first and a missed opportunity
to raise a claim of ineffective assistance of trial counsel, a prisoner may establish cause for
the default by showing that counsel in the state post-conviction proceeding was
constitutionally ineffective and “that the underlying ineffective-assistance-of-trial-counsel
claim is a substantial one”). The majority specifies that the documentary evidence provides
a sufficient basis to decide that Sigmon cannot satisfy the Martinez standard and, thus, “the
district court did not abuse its discretion by considering the affidavits submitted by Sigmon
but not granting him an evidentiary hearing.” See ante 26.
As the majority sees it, Sigmon’s claim of ineffective assistance of trial counsel is
“not substantial.” See ante 22. That is, the majority concludes that the claim does not
qualify as “substantial” under Martinez, which defines a substantial claim as one that “has
some merit.” See Martinez, 566 U.S. at 14. Rather, the majority rates Sigmon’s claim
44

45a

Total Pages:(45 of 48)

“insubstantial,” meaning that “it does not have any merit or that it is wholly without factual
support.” See id. at 16.
The majority reasons that, because “[m]uch of the evidence Sigmon argues should
have been discovered and presented was cumulative of evidence presented to the jury,”
Sigmon cannot prove either deficient performance or prejudice under the familiar standard
of Strickland v. Washington, 466 U.S. 668 (1984). See ante 24-26. In deeming the new
evidence to be “cumulative,” the majority describes the trial evidence thusly:
Several jail employees and an expert testified to Sigmon’s adaptability to
prison. Positive character evidence came in through a jail volunteer and
several family members, including Sigmon’s parents and son. A social work
expert testified about Sigmon’s difficult childhood, including the fact that
Sigmon worked as a teenager to support his family. Dr. Martin’s diagnosis
of major depressive disorder came in through another defense expert. Trial
counsel introduced evidence of Sigmon’s remorse through Sigmon’s mother,
through a jail employee, and through their closing argument, which referred
to Sigmon’s call to his mother before his capture.
Id. at 24-25. As for the revelation that Sigmon and his mother were subjected to repeated
physical abuse by Sigmon’s father, the majority summarily dismisses that evidence as “not
on a par with the substantial mitigation evidence missed by counsel” in cases in which
ineffective assistance has been found, including Williams v. Taylor, 529 U.S. 368 (2000),
and Wiggins v. Smith, 539 U.S. 510 (2003). See ante 25.
I cannot agree with the majority that the evidence proffered by Sigmon in these
federal habeas proceedings is largely cumulative of the trial evidence. Simply put, the new
evidence is markedly more compelling, detailed, and favorable to Sigmon than that
presented at trial.

45

46a

Total Pages:(46 of 48)

For example, Sigmon’s family pastor and father — both with ample personal
knowledge of Sigmon and extensive experience with inmates — have now attested that
Sigmon would remain a “good and well-behaved inmate[]” and “would not be a future
danger or threat.” See J.A. 846, 859-60. That evidence is not cumulative of the trial
testimony of a few jail employees, based on limited interactions with Sigmon during his
pretrial detention, that they had “never heard [Sigmon] threaten anybody” and that he was
generally “pleasant” and “respectful.” See id. at 175, 264, 304. Nor is it cumulative of the
prison adaptability expert’s opinion, based on Sigmon’s stint in pretrial detention and his
lack of membership in a gang, that Sigmon “can be incarcerated in a prison setting for the
remainder of his life without causing an undue risk of harm.” See id. at 362.
The positive character evidence offered by the murder victims’ grandson that
Sigmon “was more of a father to [him] than [his] own biological father,” is not cumulative
of the generic testimony of Sigmon’s family members and the jail volunteer that, inter alia,
Sigmon “loved to be around the family,” “treat[ed] everybody fine,” bought his son a dirt
bike and played with him outside, “was always the peace maker,” and was “very faithful
in coming [to the jail Bible class].” See J.A. 157, 161, 268, 280, 381, 826. Furthermore,
the full description of Sigmon choosing, as a teenager, to both attend school and work a
forty-hour-per-week night shift at a local mill to financially support his mother and
siblings, is not cumulative of the bare mention at trial by the clinical social worker that
Sigmon “help[ed] [his] mother to financially provide for the children” by going “to work
at age 16 while also trying to attend school.” See id. at 218, 828, 854, 861. Similarly, the
plethora of evidence available through Sigmon’s treating psychiatrist as to Sigmon’s
46

47a

Total Pages:(47 of 48)

ongoing battle with major depression, is not cumulative of the addiction expert’s testimony
that a psychiatrist had made that diagnosis. See id. at 320, 840-44. And finally, the account
of Sigmon’s remorse from his family pastor, shared by the pastor despite his friendship
with the murder victims’ son, is not cumulative of testimony from Sigmon’s own mother
that Sigmon was sorry for his crimes. See id. at 389, 846. Nor is the pastor’s account of
Sigmon’s profound remorse cumulative of the testimony of the jail nurse that, upon
arriving at the jail, Sigmon “acted sort of remorseful.” See id. at 187.
I also cannot agree with the majority that the new evidence that Sigmon and his
mother were physically abused by Sigmon’s father is too insignificant to possibly merit
habeas relief. Such abuse constitutes “the kind of troubled history [the Supreme Court has]
declared relevant to assessing a defendant’s moral culpability.” See Wiggins, 539 U.S. at
535. Moreover, the Court has instructed that an ineffective assistance claim like Sigmon’s
requires an individualized assessment, in which we must “evaluate the totality of the
available mitigation evidence . . . in reweighing it against the evidence in aggravation.”
See Williams, 529 U.S. at 397-98. Here, there is likely more to be divulged about the extent
and the effect of the physical abuse that Sigmon witnessed and endured before a proper
individualized assessment can occur.
In these circumstances, the answer to the question of whether a hearing on Sigmon’s
ineffective assistance claim is warranted should be an emphatic “yes.” Contrary to the
panel majority, Sigmon’s new evidence is not cumulative of the trial evidence and
otherwise insufficient to potentially entitle him to habeas relief, and thus the ineffective

47

48a

Total Pages:(48 of 48)

assistance claim is not facially insubstantial nor is it otherwise deficient under Martinez. 3
Accordingly, I dissent.

3

Notably, the majority ventures beyond the district court’s decision and concludes
that, in addition to being facially insubstantial, Sigmon’s claim of ineffective assistance of
trial counsel is deficient under Martinez because Sigmon has failed to “demonstrate PCR
counsel were [constitutionally] ineffective in failing to raise this [claim].” See ante 26.
The issue of PCR counsel’s ineffectiveness, however, is one that should be developed in a
hearing and not decided by this Court in the first instance.
48

49a

FILED: April 14, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
___________________
No. 18-7
(8:13-cv-01399-RBH)
___________________
BRAD KEITH SIGMON
Petitioner - Appellant
v.
BRYAN P. STIRLING, Commissioner, South Carolina Department of
Corrections; WILLIE D. DAVIS, Warden of Kirkland Correctional Institution
Respondents - Appellees
___________________
JUDGMENT
___________________
In accordance with the decision of this court, the judgment of the district
court is affirmed.
This judgment shall take effect upon issuance of this court's mandate in
accordance with Fed. R. App. P. 41.
/s/ PATRICIA S. CONNOR, CLERK

50a
FILED: May 27, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
___________________
No. 18-7
(8:13-cv-01399-RBH)
___________________
BRAD KEITH SIGMON
Petitioner - Appellant
v.
BRYAN P. STIRLING, Commissioner, South Carolina Department of
Corrections; WILLIE D. DAVIS, Warden of Kirkland Correctional Institution
Respondents - Appellees
___________________
ORDER
___________________
The petition for rehearing en banc was circulated to the full court. No judge
requested a poll under Fed. R. App. P. 35. The court denies the petition for
rehearing en banc.
For the Court
/s/ Patricia S. Connor, Clerk

8:13-cv-01399-RBH

Date Filed 10/01/18

Entry Number 235

Page 1 of 1

51a
AO 450 (SCD 04/2010) Judgment in a Civil Action

UNITED STATES DISTRICT COURT
for the
District of South Carolina

Brad Keith Sigmon, SK#6008,
Petitioner,

v.
Willie D. Davis, Warden of Kirkland Correctional
Institution, Bryan P Stirling, Commissioner SCDC,

Civil Action :

8:13-cv-01399-RBH

Defendant(s),

JUDGMENT IN A CIVIL ACTION
The court has ordered that (check one):
’ the plaintiff (name)

recover from the defendant (name)

which includes prejudgment interest at the rate of

the amount of

%, plus postjudgment interest at the rate of

dollars ($

),

%, along with

costs.
’ the plaintiff recover nothing, the action be dismissed on the merits, and the defendant (name)
recover costs from the plaintiff (name)

.

 other: Petitioner's Section 2254 petition dismissed in its entirety with prejudice. The Court DENIES a certificate of
appealability.
This action was (check one):
’ tried by a jury, the Honorable
’ tried by the Honorable

presiding, and the jury has rendered a verdict.
presiding, without a jury and the above decision was reached.

 decided by the Honorable R. Bryan Harwell

Date: October 1, 2018

CLERK OF COURT

s/ G. Prescott, Deputy Clerk
Signature of Clerk or Deputy Clerk

8:13-cv-01399-RBH

Date Filed 09/30/18

Entry Number 234

Page 1 of 51

52a

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF SOUTH CAROLINA
ANDERSON/GREENWOOD DIVISION
Brad Keith Sigmon,

)
)
Petitioner,
)
)
v.
)
)
Bryan P. Stirling, Commissioner, South
)
Carolina Department of Corrections, and )
Willie D. Davis, Warden of Kirkland
)
Correctional Institution,
)
)
Respondents.
)
____________________________________)

Civil Action No.: 8:13-cv-01399-RBH

ORDER

Petitioner Brad Keith Sigmon, a state prisoner sentenced to death and represented by
counsel, has filed a petition for a writ of habeas corpus pursuant to 28 U.S.C. § 2254. The matter is
before the Court for consideration of Petitioner’s objections to the Report and Recommendation (“R
& R”) of United States Magistrate Judge Jacquelyn D. Austin, who recommends granting
Respondents’ motion for summary judgment and denying and dismissing Petitioner’s habeas
petition with prejudice.1 The Court adopts the R & R for the reasons herein.
Background2
On April 27, 2001, Petitioner entered the home of David and Gladys Larke and beat them to
death with a baseball bat. Petitioner had been in a volatile relationship with the Larkes' daughter,
Rebecca Barbare ("Rebecca"). Sometime before the murders, Rebecca had ended her relationship
with Petitioner and was staying at her parents' home.

1

This matter was referred to the Magistrate Judge pursuant to 28 U.S.C. § 636(b)(1)(B) and Local Rule
73.02(B)(2)(c) for the District of South Carolina.

2

The Magistrate Judge’s R & R thoroughly summarizes the factual and procedural history, which the Court
briefly recounts here.

8:13-cv-01399-RBH

Date Filed 09/30/18

Entry Number 234

Page 2 of 51

53a

According to Petitioner's statement to law enforcement, his intentions were to go into the
Larkes' home and tie them up, then kidnap Rebecca so he could talk to her. [App. 1473].3 Instead,
Petitioner beat the Larkes to death with each sustaining up to nine blows to the skull. [App. 1627,
1640]. After killing the Larkes, Petitioner waited in their home for Rebecca to return home from
taking her children to school. [App. 1474].
When Rebecca returned to her parents' home after taking her children to school on the
morning of April 27th, Petitioner took Rebecca in a car and tried to flee. Id. Rebecca eventually
escaped after being shot. Id. Petitioner then fled to Tennessee where he was captured in a
campground approximately 10 days later. Petitioner confessed to both Tennessee and South
Carolina law enforcement officers.
Petitioner was indicted in November 2001 on two counts of first degree murder and one
count of first degree burglary. Petitioner was represented by John Abdalla, Esq. ("Abdalla") and
Frank Eppes, Jr., Esq. ("Eppes") at trial. On July 19, 2002, the jury found Petitioner guilty on all
three charges. [App. 1705].
Following a sentencing proceeding, the jury recommended a sentence of death after finding
three statutory aggravating factors: 1) two or more persons were murdered by the Petitioner by one
act or pursuant to one scheme or course of conduct; 2) the murder was committed while in the
commission of a burglary; and 3) the murder was committed while in the commission of physical
torture. [App. 2384]. On July 21, 2002, the circuit court sentenced Petitioner to thirty years for the
burglary charge and death for the two murder charges. [App. 2385].

3

For reference, [App. ____] refers to the state court appendix and can be found on this Court's docket at
docket entries 32-1 through 33-8.

2

8:13-cv-01399-RBH

Date Filed 09/30/18

Entry Number 234

Page 3 of 51

54a

On December 19, 2005, the Supreme Court of South Carolina affirmed Petitioner's murder
convictions and death sentence. [App. 2429-33]. Remittitur was issued on January 13, 2006. [ECF
No. 34]. Petitioner then filed a petition for writ of certiorari to the United States Supreme Court,
which was denied on June 26, 2006. [ECF No. 34-3].
On October 13, 2006, Petitioner filed a pro se application for post-conviction relief ("PCR")
in state court. The court appointed William H. Ehlies, II, Esq. ("Ehlies") and Teresa L. Norris
("Norris") to represent Petitioner in his post-conviction matter. Petitioner's PCR counsel filed an
amended PCR application on June 4, 2008. [App. 2478-81]. An evidentiary hearing was held on
August 4, 2008, before the Honorable J.C. Nicholson, Jr. [App. 2718-2812]. In an order filed July
20, 2009, Judge Nicholson denied and dismissed Petitioner's PCR application. [App. 2846-93].
Petitioner appealed the denial of his PCR application to the South Carolina Supreme Court
raising six grounds for relief. [ECF No. 34-5 at 2-4]. The South Carolina Supreme Court granted
certiorari as to three issues and requested additional briefing. [ECF No. 34-8]. On March 20, 2013,
the South Carolina Supreme Court affirmed the circuit court's dismissal of Petitioner's PCR
application in a published opinion. [ECF No. 34-12]. Remittitur was issued on May 13, 2013.
Petitioner then filed a petition for writ of certiorari in the United States Supreme Court,
which was denied on November 18, 2013. [ECF No. 59-3].
On May 10, 2013, Petitioner commenced the instant § 2254 action by filing a motion to stay
his execution and a motion to appoint counsel. See [ECF No. 1]. On May 23, 2013, the Court
stayed Petitioner's execution and appointed Norris and Ehlies as Petitioner's counsel. [ECF Nos. 17;
19]. Petitioner filed his petition on August 21, 2013, raising six grounds for relief. [ECF No. 42].
The Court then extended Petitioner's stay of execution during the pendency of this case. [ECF No
3

8:13-cv-01399-RBH

Date Filed 09/30/18

Entry Number 234

Page 4 of 51

55a

43].
On January 17, 2014, in light of the U.S. Supreme Court's decision in Martinez v. Ryan, 566
U.S. 1 (2012), the Court appointed Jeffrey P. Bloom, Esq. to investigate whether Petitioner may
have additional claims not previously presented that may nevertheless be asserted under Martinez.
[ECF No. 81]. On April 17, 2014, Mr. Bloom reported to the Court that he had discovered five
additional potential claims that had not been previously asserted. [ECF No. 106].
On July 23, 2014, the Court granted Petitioner's motion to amend his habeas petition and to
substitute counsel. [ECF No. 123]. Petitioner filed an amended petition on August 8, 2014, raising
the six grounds raised in the original petition and the five new grounds discovered by Mr. Bloom.4
[ECF No. 131]. Petitioner's amended petition for writ of habeas corpus asserts the following
grounds for relief:
I.

Trial counsel rendered ineffective assistance of counsel, in violation of Sigmon’s
rights under the Sixth and Fourteenth Amendments, by failing to object to the
state’s improper cross-examination of a defense sentencing expert on adaptability to
confinement and failing to object to the state’s closing arguments concerning the
day to day details of prison life.

II.

The Supreme Court of South Carolina violated both the due process and equal
protection clauses of the Fifth and Fourteenth Amendments to the Constitution of
the United States by exercising its discretion in an arbitrary and capricious manner
on Ground I by granting relief to other death-sentenced inmates while denying
certiorari and relief to Sigmon when he presented the same issue with nearly
identical facts and is therefore similarly situated.

III.

Trial counsel rendered ineffective assistance of counsel, in derogation of Sigmon's
Sixth and Fourteenth Amendment rights, for failing to object to the solicitor's

4

On August 22, 2014, Petitioner filed a motion to stay informing the Court that the he had filed a second PCR
action in state court raising the five new and unexhausted grounds discovered by Mr. Bloom. [ECF No. 142]. The
Court stayed this action while Petitioner's second PCR application was pending. [ECF No. 161]. Petitioner's second
PCR action was dismissed as successive and barred by the statute of limitation in an order filed March 3, 2017. [ECF
No. 204-16]. This Court lifted the stay after the South Carolina Supreme Court dismissed Petitioner's appeal from
the dismissal of his second PCR action. [ECF No. 195].

4

8:13-cv-01399-RBH

Date Filed 09/30/18

Entry Number 234

Page 5 of 51

56a

improper closing arguments wherein the solicitor gave his personal opinions that
death was the appropriate punishment and made improper “send a message”
arguments.
IV.

Trial counsel rendered ineffective assistance of counsel in violation of the Sixth and
Fourteenth Amendments for failing to request a charge on the statutory mitigating
circumstance of age or mentality, when evidence presented at trial established that
Sigmon was extremely intoxicated at the time of the murders, having consumed
large quantities of beer and crack cocaine beforehand.

V.

Trial counsel rendered ineffective assistance of counsel, in derogation of petitioner's
Sixth and Fourteenth Amendment rights, for failing to object to the trial court's
instructions that a non-statutory mitigating circumstance was one the defendant
"claims" lessens his culpability since this improperly impugned the legitimacy of
non-statutory mitigating evidence under the Eighth and Fourteenth Amendments.

VI.

Trial counsel rendered ineffective assistance of counsel, in derogation of Sigmon's
Sixth and Fourteenth Amendment rights, by requesting and obtaining the statutory
"mitigating" circumstance of "provocation by the victim" based on the testimony of
three defense witnesses who were called to testify about their bad relationships with
Sigmon's ex-girlfriend, and thereby blame her for her parents' murders, since this
patently offensive strategy was very likely to inflame the jury.

VII.

Sigmon was denied his right to effective assistance of counsel per the Sixth
and Fourteenth Amendments by the failure of trial counsel to interview and
call as witnesses additional family members and community witnesses, and
by inadequately interviewing those family members that they did call as
witnesses, and/or by failing to call the county detention center psychiatrist as
a witness, and/or by failing to introduce an available video exhibit, such that
substantial mitigating evidence was not presented and Sigmon was prejudiced
thereby at the capital sentencing phase of his trial.

VIII.

Sigmon was denied his right to effective assistance of counsel per the Sixth
and Fourteenth amendments, and per S.C. Code §16-3-26(b)(1), in that the
“second chair” attorney – who was not qualified under state law to serve as
lead counsel – nonetheless served and acted as “lead counsel,” contrary to the
order of the court appointing counsel, and without objection from actual
lead counsel, such that the trial attorneys rendered ineffective assistance of
counsel, and the petitioner was prejudiced thereby at the capital sentencing
phase of his trial.

IX.

Sigmon was denied his right to effective assistance of counsel per the Sixth
and Fourteenth amendments in that trial counsel failed to object to the
5

8:13-cv-01399-RBH

Date Filed 09/30/18

Entry Number 234

Page 6 of 51

57a

petitioner being made to wear a stun-belt in court which was visible to jurors
during the proceedings, and the petitioner was prejudiced thereby at the
capital sentencing phase of his trial.
X.

Sigmon was denied his right to effective assistance of counsel per the Sixth
and Fourteenth amendments, and per S.C. Code §16-3-28, in that trial
counsel was unaware that the second defense attorney could also have
presented a closing argument at sentencing after the petitioner, and the
petitioner was prejudiced thereby at the capital sentencing phase of his trial.

XI.

Sigmon was denied his right to effective assistance of appellate counsel on
direct appeal per the Sixth and Fourteenth amendments for failure to raise
as issues the objections made by trial counsel at voir dire, and the petitioner
was prejudiced thereby as it relates to the capital sentencing phase of his
trial.5
Legal Standards

I.

Review of the Magistrate Judge’s R & R
The Magistrate Judge makes only a recommendation to the Court. The Magistrate Judge’s

recommendation has no presumptive weight, and the responsibility to make a final determination
remains with the Court. Mathews v. Weber, 423 U.S. 261, 270–71 (1976). The Court must conduct
a de novo review of those portions of the R & R to which specific objections are made, and it may
accept, reject, or modify, in whole or in part, the recommendation of the Magistrate Judge or
recommit the matter with instructions. 28 U.S.C. § 636(b)(1); Fed. R. Civ. P. 72(b).
The Court must engage in a de novo review of every portion of the Magistrate Judge’s report
to which objections have been filed. Id. However, the Court need not conduct a de novo review
when a party makes only “general and conclusory objections that do not direct the [C]ourt to a
specific error in the [M]agistrate [Judge]’s proposed findings and recommendations.” Orpiano v.
Johnson, 687 F.2d 44, 47 (4th Cir. 1982). In the absence of specific objections to the R & R, the

5

Petitioner has withdrawn ground eleven. [ECF No. 213 at 3 n.2].

6

8:13-cv-01399-RBH

Date Filed 09/30/18

Entry Number 234

Page 7 of 51

58a

Court reviews only for clear error, Diamond v. Colonial Life & Acc. Ins. Co., 416 F.3d 310, 315
(4th Cir. 2005), and the Court need not give any explanation for adopting the Magistrate Judge’s
recommendation. Camby v. Davis, 718 F.2d 198, 199–200 (4th Cir. 1983).
II.

Summary Judgment
“The court shall grant summary judgment if the movant shows that there is no genuine

dispute as to any material fact and the movant is entitled to judgment as a matter of law.” Fed. R.
Civ. P. 56(a); see generally Rule 12 of the Rules Governing Section 2254 Cases (“The Federal
Rules of Civil Procedure . . . , to the extent that they are not inconsistent with any statutory
provisions or these rules, may be applied to a proceeding under these rules.”); Brandt v. Gooding,
636 F.3d 124, 132 (4th Cir. 2011) (“Federal Rule of Civil Procedure 56 ‘applies to habeas
proceedings.’” (quoting Maynard v. Dixon, 943 F.2d 407, 412 (4th Cir. 1991))). “A party asserting
that a fact cannot be or is genuinely disputed must support the assertion by: (A) citing to particular
parts of materials in the record . . . ; or (B) showing that the materials cited do not establish the
absence or presence of a genuine dispute, or that an adverse party cannot produce admissible
evidence to support the fact.” Fed. R. Civ. P. 56(c)(1). “The evidence must be viewed in the light
most favorable to the non-moving party, with all reasonable inferences drawn in that party’s favor.
The court therefore cannot weigh the evidence or make credibility determinations.” Reyazuddin v.
Montgomery Cty., 789 F.3d 407, 413 (4th Cir. 2015) (internal citation and quotation marks omitted).
Discussion
As mentioned above, Petitioner presently seeks habeas relief on ten grounds. The Magistrate
Judge recommended granting summary judgment on all ten grounds. Petitioner has filed objections
to the Magistrate Judge's R&R arguing that Respondent's motion for summary judgment should be
7

8:13-cv-01399-RBH

Date Filed 09/30/18

Entry Number 234

Page 8 of 51

59a

denied. Petitioner also argues the Court should hold an evidentiary hearing on the Martinez claims.
I.

Preserved Grounds
A.

Standard of Review

Under the Antiterrorism and Effective Death Penalty Act of 1996 (“AEDPA”), 28 U.S.C.
§ 2254, federal courts may not grant habeas corpus relief unless the underlying state adjudication:
(1)

resulted in a decision that was contrary to, or involved an
unreasonable application of, clearly established Federal
law, as determined by the Supreme Court of the United
States; or

(2)

resulted in a decision that was based on an unreasonable
determination of the facts in light of the evidence presented
in the State court proceeding.

28 U.S.C. § 2254(d). This is a “difficult to meet and highly deferential standard for evaluating
state-court rulings, which demands that state-court decisions be given the benefit of the doubt.”
Cullen v. Pinholster, 563 U.S. 170, 181 (2011) (internal quotation marks and citations omitted).
“Section 2254(d)(1) describes the standard of review to be applied to claims challenging how the
state courts applied federal law, while § 2254(d)(2) describes the standard to be applied to claims
challenging how the state courts determined the facts.” Winston v. Kelly, 592 F.3d 535, 553 (4th
Cir. 2010). “‘[A] determination on a factual issue made by a State court shall be presumed correct,’
and the burden is on the petitioner to rebut this presumption ‘by clear and convincing evidence.’”
Tucker v. Ozmint, 350 F.3d 433, 439 (4th Cir. 2003) (quoting 28 U.S.C. § 2254(e)(1)). “Under §
2254(d), an unreasonable application of federal law differs from an incorrect application of federal
law, and a state court ‘must be granted a deference and latitude that are not in operation when the
case involves review under the Strickland standard itself.’” Jones v. Clarke, 783 F.3d 987, 991 (4th

8

8:13-cv-01399-RBH

Date Filed 09/30/18

Entry Number 234

Page 9 of 51

60a

Cir. 2015) (quoting Harrington v. Richter, 562 U.S. 86, 101 (2011)).
B.

Ground One

In ground one, Petitioner claims trial counsel rendered ineffective assistance of counsel
under Strickland v. Washington, 466 U.S. 668 (1984), by failing to object to the state’s
cross-examination of a defense sentencing expert on prison adaptability. Within ground one,
Petitioner also claims trial counsel was ineffective under Strickland for failing to object to the
state’s closing arguments concerning the details of prison life.
In Strickland v. Washington, the United States Supreme Court established that to challenge
a conviction based on ineffective assistance of counsel, a prisoner must prove two elements: (1) his
counsel was deficient in his representation and (2) he was prejudiced as a result. 466 U.S. 668, 687
(1984). To prove that counsel's performance was deficient, a petitioner must show that “counsel's
representation fell below an objective standard of reasonableness,” Id. at 688, and that the “acts and
omissions” of counsel were, in light of all the circumstances, “outside the range of professionally
competent assistance.” Id. at 690. Such a determination “must be highly deferential,” with a “strong
presumption that counsel's conduct falls within the wide range of reasonable professional
assistance.” Id. at 689; see also, Burket v. Angelone, 208 F.3d 172, 189 (4th Cir. 2000) (reviewing
court “must be highly deferential in scrutinizing [counsel's] performance and must filter the
distorting effects of hindsight from [its] analysis”); Spencer v. Murray, 18 F.3d 229,233 (4th Cir.
1994) (court must “presume that challenged acts are likely the result of sound trial strategy.”).
To satisfy Strickland's prejudice prong, a “defendant must show that there is a reasonable
probability that, but for counsel's unprofessional errors, the result of the proceeding would have
been different.” Strickland, 466 U.S. at 694. “A reasonable probability is a probability sufficient to
9

8:13-cv-01399-RBH

Date Filed 09/30/18

Entry Number 234

Page 10 of 51

61a

undermine confidence in the outcome.” Id. The two prongs of the Strickland test are “separate and
distinct elements of an ineffective assistance claim,” and a successful petition “must show both
deficient performance and prejudice.” Spencer, 18 F.3d at 233. Therefore, a court need not review
the reasonableness of counsel's performance if a petitioner fails to show prejudice. Quesinberry v.
Taylor, 162 F.3d 273, 278 (4th Cir. 1998).
Regarding the prejudice prong, "[w]hen a defendant challenges a death sentence such as the
one at issue in this case, the question is whether there is a reasonable probability that, absent the
errors, the sentencer . . . would have concluded that the balance of aggravating and mitigating
circumstances did not warrant death." Id. at 695. "In making this determination, a court hearing an
ineffectiveness claim must consider the totality of the evidence before the judge or jury." Id. "In
jurisdictions such as South Carolina, where a jury must return a unanimous verdict . . . , the
prejudice prong of Strickland is met where ‘there is a reasonable probability that at least one juror
would have struck a different balance.'" Hope v. Cartledge, 857 F.3d 518, 524 (4th Cir. 2017)
(quoting Wiggins v. Smith, 539 U.S. 510, 537 (2003).
When evaluating a habeas petition based on a claim of ineffective assistance of counsel,
“[t]he pivotal question is whether the state court’s application of the Strickland standard was
unreasonable. This is different from asking whether defense counsel’s performance fell below
Strickland’s standard.” Richter, 562 U.S. at 101. “A state court must be granted a deference and
latitude that are not in operation when the case involves review under the Strickland standard itself.”
Id.; see also Yarborough v. Gentry, 540 U.S. 1, 6 (2003) (stating judicial review of counsel’s
performance is “doubly deferential when it is conducted through the lens of federal habeas”). Even
if a state court decision questionably constitutes an unreasonable application of federal law, the
10

8:13-cv-01399-RBH

Date Filed 09/30/18

Entry Number 234

Page 11 of 51

62a

“state court’s determination that a claim lacks merit precludes federal habeas relief so long as
‘fairminded jurists could disagree’ on the correctness of the state court’s decision.” Richter, 562
U.S. at 101 (quoting Yarborough v. Alvarado, 541 U.S. 652, 664 (2004)). Thus, in such situations,
the habeas court must determine whether it is possible for fairminded jurists to disagree that the
arguments or theories supporting the state court’s decision are inconsistent with Supreme Court
precedent. Id.
(1)

Facts

Petitioner’s trial counsel called James Aiken (“Aiken”) as a defense expert witness on prison
adaptability and the conditions of prison. [App. 2006]. On cross-examination, Aiken testified that
Petitioner could have regularly scheduled visitors, the ability to watch television, recreation, access
to a library, access to a telephone, canteen, showers, the ability take educational classes, send and
receive mail, religious services, and a personal locker. Id. at 2022-2025. Petitioner’s trial counsel
did not object to any portion of the solicitor’s cross-examination of Aiken.
In his penalty phase closing argument, the solicitor argued that with life imprisonment,
Petitioner would still have mail, tv, three meals a day, someone to do his laundry, health care, and
recreation. Petitioner’s trial counsel did not object. [App. 2066-67].
(2)

PCR Order

The PCR court found that trial counsel were not deficient and that Petitioner suffered no
prejudice as there was no basis for an objection for either the cross-examination or resulting
argument by the solicitor. [App. 2869]. The PCR court stated that because general conditions
evidence was intentionally elicited during Aiken’s direct examination by defense counsel, the
solicitor was entitled to cross-examine the witness on the conditions issue. [App. 2874]. The PCR
11

8:13-cv-01399-RBH

Date Filed 09/30/18

Entry Number 234

Page 12 of 51

63a

court stated further that “since the evidence was in the record, and both defense and the State argued
prison conditions based on the evidence, the record based responsive argument cannot support proof
of error, as there could be no reasonable basis for an objection.” Id.
Disposing of ground one, the PCR court found:
In sum, Applicant has failed to show error and prejudice where the
defense essentially received what was requested, that is to
introduce evidence (of their own choosing and through a defense
witness as opposed to a prosecution witness (Mr. Sligh)), and to
argue that the punishment of life imprisonment was an
extraordinarily harsh sentence, and the State merely crossexamined the defense witness on same. Not only was this case
tried without the benefit of Burkhart, it is also specifically
distinguishable from Burkhart in the major respect of who offered
the evidence when, and whether there is fair response. Moreover,
the record demonstrates that the balance of evidence on each side
fails to support a finding of prejudice on this record. Lastly, given
the overwhelming evidence of aggravating circumstances, and the
limited mitigation, there could be no “reasonable probability that,
absent [counsel’s] errors, the sentencer - including an appellate
court, to the extent it independently reweighs the evidence - would
have concluded that the balance of aggravating and mitigating
circumstances did not warrant death.” Jones, 332 S.C. at 340, 504
S.E.2d at 829. There is overwhelmingly strong evidence in
aggravation, including the finding of torture, burglary first degree,
and the murder of not one but two elderly victims in a vicious and
personal beating with a baseball bat, the victims having been
surprised in their own home. Applicant has not established error
on these particular facts, however, if error could be shown, he has
not established prejudice such that would entitle him to a new
proceeding.
[App. 2875-76].
(3)

R&R

The Magistrate Judge recommended dismissing ground one. As to the failure to object to
the cross examination of Aiken on general prison conditions, the Magistrate Judge stated the PCR

12

8:13-cv-01399-RBH

Date Filed 09/30/18

Entry Number 234

Page 13 of 51

64a
court’s finding that counsel were not deficient was not contrary to, or an unreasonable application
of, any clearly established federal law. [R&R, ECF No. 223 at 31]. The Magistrate Judge found that
“[g]iven the state of the law at the time of Petitioner’s trial and trial counsel’s testimony, the PCR
court’s determination that trial counsel made tactical decisions not to object to the solicitor’s crossexamination of Aiken and the solicitor’s closing argument so that they could present their own
prison condition evidence is far from unreasonable.” Id. at 36. In summary, the Magistrate Judge
concluded that the PCR court reasonably applied Strickland and based its decision on a reasonable
determination of the facts.
(4)

Discussion

Petitioner objected to the Magistrate Judge’s recommendation that ground one be dismissed
arguing the PCR court unreasonably applied the law to the facts of Petitioner’s case by failing to
recognize that trial counsel had presented evidence without a full understanding of the ramifications
of that evidence. Petitioner contends that failure to understand the nature of the evidence presented
is an unreasonable decision under the Strickland standards. Petitioner further contends the evidence
allowed the State to make a compelling argument it otherwise would not have been able to make,
which was prejudicial to Petitioner.
Petitioner’s trial counsel may have arguably misunderstood the ramifications of presenting
Aiken as a defense witness on prison adaptability and may have not fully understood the nuances
between prison adaptability evidence and general prison conditions evidence. See Bowman v. State,
809 S.E.2d 232, 241 (S.C. 2018) (recognizing the unique distinction South Carolina jurisprudence
has drawn between evidence of prison adaptability, which S.C. has held is relevant and admissible,
and evidence of general prison conditions, which S.C. has held is not). However, at the time of

13

8:13-cv-01399-RBH

Date Filed 09/30/18

Entry Number 234

Page 14 of 51

65a
trial, the admission of general prison condition evidence was not recognized as a reversible error,
especially where defense counsel opened the door to such evidence. See Bowman, 809 S.E.2d at
243-44 (stating “once the defendant opens the door, the solicitor's invited response is appropriate so
long as it is does not unfairly prejudice the defendant . . .unless the State's response is inappropriate
or unfairly prejudicial, counsel is not deficient for failing to object”).
Since trial counsel opened the door to general prison condition evidence with Aiken’s direct
examination, it is doubtful whether trial counsel even had a valid basis for an objection to the
solicitor’s cross-examination of Aiken. As to the closing argument, it was certainly a reasonable
trial strategy not to object to opposing counsel’s closing argument, especially when the argument
was supported by the evidence at trial. Accordingly, the PCR court’s finding that there was no basis
for an objection and that trial counsel was not deficient was not contrary to, or an unreasonable
application of, clearly established Federal law, nor was it based on an unreasonable determination of
the facts in light of the evidence presented.
Even if there was a valid basis for an objection to either the cross-examination or the closing
argument, Petitioner has failed to demonstrate prejudice. As noted by the PCR court, this case
involved overwhelming evidence of aggravating circumstances, including torture, burglary first
degree, and the murder of two victims during one course of conduct. Given the overwhelming
evidence of aggravating circumstances, and the limited mitigation evidence, the PCR court
concluded there was no reasonable probability that the sentencer would have concluded that the
balance of aggravating and mitigating circumstances did not warrant death. [App. 2876]. The PCR
court’s finding of no prejudice was not contrary to, or an unreasonable application of, clearly
established Federal law, and was not based on an unreasonable determination of the facts.

14

8:13-cv-01399-RBH

Date Filed 09/30/18

Entry Number 234

Page 15 of 51

66a
The Court finds the Magistrate Judge correctly applied the law to the facts of the case and
overrules Petitioner’s objections as to ground one. Ground one is due to be dismissed.
C.

Ground Two

In ground two, Petitioner claims the Supreme Court of South Carolina violated both the due
process and equal protection clauses of the Fifth and Fourteenth Amendments to the Constitution of
the United States by exercising its discretion in an arbitrary and capricious manner on ground one
above by granting relief to other death-sentenced inmates while denying certiorari and relief to
Petitioner when he presented the same issue with nearly identical facts and is therefore similarly
situated.
The Magistrate Judge rejected ground two finding that Petitioner’s challenge to the South
Carolina Supreme Court’s decision not to review a collateral claim of ineffective assistance of
counsel was a procedural error that was not cognizable on federal habeas review. See Bryant v.
Maryland, 848 F.2d 492, 493 (4th Cir. 1988) (“[C]laims of error occurring in a state post-conviction
proceeding cannot serve as a basis for federal habeas corpus relief”); see also Wright v. Angelone,
151 F.3d 151, 159 (4th Cir. 1998) (“[Petitioner] is not currently detained as a result of a decision of
the [state supreme court] in the state habeas action. Accordingly, we agree with the district court
that this claim, a challenge to . . . state habeas proceedings, cannot provide a basis for federal habeas
relief”).
Petitioner does not make a specific objection to the Magistrate Judge’s recommendation as
to ground two. Petitioner merely states: “[t]he South Carolina Supreme Court’s decision not to
grant certiorari on [ground one] resulted in a decision contrary to federal law as determined by the
United States Supreme Court or reached an unreasonable determination of the facts on the evidence

15

8:13-cv-01399-RBH

Date Filed 09/30/18

Entry Number 234

Page 16 of 51

67a
presented, particularly where the South Carolina Supreme Court has declared that each case
involving ‘prison conditions’ should be decided on a case-by-case (and fact-by-fact) basis.”
[Objections to R&R, ECF No. 229 at 4]. Petitioner’s objection does not address the Magistrate
Judge’s recommendation regarding whether ground two is a cognizable claim.
A federal court “shall entertain an application for a writ of habeas corpus in behalf of a
person in custody pursuant to the judgment of a State court only on the ground that he is in custody
in violation of the Constitution or laws or treaties of the United States.” 28 U.S.C.A. § 2254(a).
Here, Petitioner is not in custody as a result of the South Carolina Supreme Court’s decision not to
grant certiorari as to ground one. Petitioner’s claim in ground two is therefore not cognizable. See
Wright, 151 F.3d at 159. Moreover, this Court’s reading of Bowman, 809 S.E.2d 232, indicates that
had the South Carolina Supreme Court granted certiorari on ground one, it would have denied relief
just as it did in Bowman. 809 S.E.2d at 239-246 (rejecting petitioner’s argument that defense
counsel was deficient in failing to object to the Solicitor's questioning of defense prison expert
Aiken regarding general prison conditions).
Petitioner’s objection with respect to ground two is overruled. The Magistrate Judge
correctly applied the law to the facts and correctly concluded that Petitioner’s claim in ground two
was not cognizable on federal habeas review. Ground two is due to be dismissed.
D.

Ground Three

In ground three, Petitioner claims trial counsel rendered ineffective assistance of counsel
under Strickland by failing to object to the portion of the solicitor’s closing argument where the
solicitor gave his personal opinion that death was the appropriate punishment and made improper

16

8:13-cv-01399-RBH

Date Filed 09/30/18

Entry Number 234

Page 17 of 51

68a
“send a message” arguments.6
(1)

Facts

During his closing argument, the solicitor stated:
Now, when we asked for the death penalty, it’s a fair and
appropriate question for you to say back to me, Solicitor Ariail,
why do you think that the death penalty is an appropriate
punishment in this case? And I can best summarize it by a
response that I got from a juror in another case on voir dire, and
that juror said, as to her response in her argument for the death
penalty, that they’re [sic] are mean and evil people who live in this
world, who do not deserve to continue to live with the rest of us,
regardless of how confined they are. And that’s what the basis of
our request for the death penalty is. There are certain mean and
evil people that live in this world that do not deserve to continue to
live with us.
...
And there are people, there are people who will argue that the
death penalty is not a deterrent. But my response as the solicitor of
this circuit is, it is a deterrent to this individual and that is what we
are asking, is to deter Brad Sigmon and send the message that this
type of conduct will not be tolerated in Greenville County, or
anywhere in this State. And let that decision that you reach ring
like a bell from this courthouse, that people will understand that we
will not accept brutal behavior such as this. Thank you.
[App. 2064-64; 2070]. Trial counsel did not object.
(2)

South Carolina Supreme Court Opinion

The South Carolina Supreme Court found that the solicitor’s comments were not improper

6

PCR counsel did not specifically raise an ineffective assistance of counsel claim regarding the solicitor's
"send a message" comments. The precise issue raised in the PCR litigation centered on trial counsel's failure to
object to comments suggesting the solicitor's personal opinion and involvement in the process, not a freestanding
challenge to the "send a message" argument. Thus, the "send a message" argument was not addressed separately in
the PCR court Order of Dismissal or the Supreme Court of South Carolina Opinion. Accordingly, the Court finds
Petitioner's claim that trial counsel were ineffective for failing to object to the solicitor's "send a message" argument
is procedurally defaulted and Petitioner has failed to establish cause and prejudice for the default. Regardless, even
if not procedurally defaulted, the claim fails on the merits as discussed below.

17

8:13-cv-01399-RBH

Date Filed 09/30/18

Entry Number 234

Page 18 of 51

69a
and therefore trial counsel were not deficient for not objecting. Sigmon v. State, 742 S.E.2d 394, 400
(S.C. 2013). The court held the solicitor’s comments did not diminish the role of the jury in
sentencing Petitioner to death and the solicitor did not go so far as to compare his undertaking in
requesting the death penalty to the jury’s decision to ultimately impose a death sentence. Sigmon,
742 S.E.2d at 399.
(3)

R&R

The Magistrate Judge recommended granting summary judgment and dismissing ground
three. As to the solicitor’s argument regarding his reasons for seeking the death penalty, the
Magistrate Judge found that, based on the solicitor’s closing argument as a whole, the state court
could have reasonably determined that the solicitor’s comments did not improperly mislead the jury
about its role in determining Petitioner’s sentence. With respect to the “send a message” argument,
the Magistrate Judge noted that Petitioner’s trial counsel responded to those portions of the
solicitor’s closing argument in his own closing argument. Thus, the Magistrate Judge concluded
that although trial counsel may not have expressed a strategic reason for not objecting to the specific
portions of the solicitor’s closing at issue in ground three, trial counsel’s actions appear to comport
with the stated general strategy of responding, rather than objecting, to opposing counsel’s closing
argument. In concluding that the state court’s decision was neither contrary to nor an unreasonable
application of applicable Supreme Court precedent, nor based on an unreasonable determination of
the facts, the Magistrate Judge found the record supported the state court’s determination that trial
counsel were not ineffective for not objecting to the solicitor’s closing argument during the penalty
phase of Petitioner’s trial.
(4)

Discussion

18

8:13-cv-01399-RBH

Date Filed 09/30/18

Entry Number 234

Page 19 of 51

70a
Petitioner objected to the Magistrate Judge’s recommended dismissal of ground three
arguing that by offering his personal opinions that he had decided the death penalty was the right
sentence, the jury was left with the impression that their decision was far less important than it
should have been. Petitioner also argues the solicitor’s request to “send a message” injected an
arbitrary and capricious factor into the imposition of death, which the Eighth Amendment prohibits.
Petitioner argues that in failing to grant relief on this ground, the state court’s decision was contrary
to clearly established federal law as determined by the Supreme Court.
A prosecutor’s improper remarks violate the Constitution only if they “so infected the trial
with unfairness as to make the resulting conviction a denial of due process.” Darden v. Wainwright,
477 U.S. 168, 181 (1986). Similarly, the South Carolina Supreme Court has held that the relevant
question in determining whether a solicitor’s closing arguments were improper is “whether the
solicitor’s comments so infected the trial with unfairness as to make the resulting conviction a
denial of due process.” Sigmon, 742 S.E.2d at 399 (quoting Simmons v. State, 503 S.E.2d 164, 16667 (S.C. 1998).
In this case, the solicitor’s comments referencing his decision to seek the death penalty and
that the jury should “send a message” with their verdict were borderline, but not necessarily
improper. Fairminded jurists could disagree regarding whether the solicitor’s comments were
objectionable. See Richter, 562 U.S. at 101. Petitioner cites United States v. Runyon, 707 F.3d 475,
(4th Cir. 2013), in support of his position the comments in the closing argument were improper, but
Petitioner fails to distinguish between a direct challenge of the propriety of the comments and a
claim of ineffective assistance of counsel. Affording the state court the required deference under
AEDPA, Petitioner has not established that the state court’s decision was contrary to, or an

19

8:13-cv-01399-RBH

Date Filed 09/30/18

Entry Number 234

Page 20 of 51

71a
unreasonable application of, clearly established federal law, nor has he demonstrated that the state
court’s decision was based on an unreasonable determination of the facts.
Assuming the solicitor’s comments were objectionable and trial counsel was deficient for
failing to object, Petitioner has failed to demonstrate prejudice as a result of trial counsel’s failure to
object. As the PCR court noted, the solicitor’s comments “are so minor in comparison with the
tremendous amount of evidence in aggravation,” that any such error could not reasonably be said to
have affected sentencing. [App. 2878].
The Magistrate Judge correctly applied the law to the facts with respect to ground three.
Petitioner’s objections as to ground three are overruled and ground three is due to be dismissed.
E.

Ground Four

In ground four, Petitioner argues trial counsel was ineffective under Strickland for failing to
request a charge on the mitigating circumstance of age or mentality based on evidence that
Petitioner could have been intoxicated at the time of the crime.
(1)

Facts

Petitioner contends there is “extensive and credible evidence in the record” that Petitioner
was intoxicated at the time of the crime. Charles Hall, one of Petitioner’s employees, testified that
Petitioner came to work two days before the murders and stated he had been drinking since 8:00
a.m. [App. 1616]. Hall also testified that around 8:00 or 8:30 the night before the murders,
Petitioner came to Hall’s house and asked if Hall knew where he could buy a gun. [App. 1613].
Hall testified that he could tell Petitioner had been drinking, but he seemed coherent. [App. 1614].
Around 9:00 p.m. the night before the murders, Petitioner and Eugene Strube bought beer at
a gas station and went to Petitioner’s trailer. [App. 1578-80]. Strube testified that Petitioner drank a

20

8:13-cv-01399-RBH

Date Filed 09/30/18

Entry Number 234

Page 21 of 51

72a
six-pack of beer and smoked “a couple hundred dollars worth” of crack. [App. 1593-94]. Strube
testified that by the time they left the trailer the next morning before the murders, neither of them
was under the influence of crack. [App. 1587].
Additionally, Dr. Alex Morton testified that based on what Petitioner consumed the day and
night before the murders, drugs and alcohol could have impacted Petitioner’s mental and
psychological functioning for up to twenty-eight days after using them. [App. 1981]. According to
Dr. Morton, Petitioner reported using about fifty dollars worth of crack cocaine and drinking two
mixed drinks and half a bottle of peppermint schnapps the day and night before the murders. [App.
1980-81].
(2)

South Carolina Supreme Court Opinion

The South Carolina Supreme Court rejected Petitioner’s claim and found that “[a]lthough
the record supports the conclusion Sigmon ingested alcohol prior to the murders, it does not
establish he was intoxicated when he committed the crimes.” Sigmon, 742 S.E.2d at 401. The court
therefore concluded Petitioner’s trial counsel were not deficient for failing to argue that Petitioner’s
intoxication warranted the mitigating charge of age or mentality. Id.
(3)

R&R

The Magistrate Judge recommended granting summary judgment on ground four.
Importantly, the Magistrate Judge noted that Petitioner had not indicated, and the Court had not
found, any evidence that Petitioner was intoxicated at the time of the crime. [R&R, ECF No. 223 at
54]. The Magistrate Judge concluded that Petitioner failed to show by clear and convincing
evidence that the state court’s determination was incorrect, based on an unreasonable determination
of the facts, or that it was contrary to, or an unreasonable application of, clearly established federal

21

8:13-cv-01399-RBH

Date Filed 09/30/18

Entry Number 234

Page 22 of 51

73a
law.
(4)

Discussion

Petitioner argues in his objections that ample evidence existed to support the assertion of
intoxication. Petitioner contends the state court’s finding on this ground was an unreasonable
application of precedent to the facts, as well as an unreasonable determination of the facts.
Under South Carolina law, where there is evidence that the defendant was intoxicated at the
time he committed the crime, the trial judge is required to submit the following statutory mitigating
circumstances: “(2) [t]he murder was committed while the defendant was under the influence of
mental or emotional disturbance;” “(6) [t]he capacity of the defendant to appreciate the criminality
of his conduct or to conform his conduct to the requirements of law was substantially impaired;”
and “(7) [t]he age or mentality of the defendant at the time of the crime.” S.C. Code Ann. §§ 16-320(C)(b)(2), (6), (7); State v. Vazsquez, 613 S.E.2d 359, 363 (S.C. 2005).
During the penalty phase, trial counsel requested a jury charge pursuant to S.C. Code Ann. §
16-3-20(C)(b)(7) on the “age or mentality of the defendant at the time of the crime” based on the
evidence presented as to Sigmon’s mental state at the time of the murders. The court declined to
charge “age or mentality” concluding any inference from mental state was covered by the court’s
other charges on mental state. Trial counsel did not argue that a charge on “age or mentality” was
warranted based on Petitioner’s alleged intoxication at the time of the murders.
The court did, however, charge the following statutory mitigating circumstances under S.C.
Code Ann. § 16-3-20(C)(b): (1) “[t]he defendant has no significant history of prior criminal
conviction involving the use of violence against another person;” (2) “[t]he murder was committed
while defendant was under the influence of mental or emotional disturbance; (6) “[t]he capacity of

22

8:13-cv-01399-RBH

Date Filed 09/30/18

Entry Number 234

Page 23 of 51

74a
the defendant to appreciate the criminality of his conduct or to conform his conduct to the
requirements of law was substantially impaired;” and (8) “[t]he defendant was provoked by the
victim into committing murder.”
Petitioner argues there is ample evidence of intoxication at the time of the crime. While the
record supports the conclusion that Petitioner abused drugs and alcohol the night before the murders
and possibly into the early morning, the record does not establish that Petitioner was intoxicated
when he left his trailer the morning of the murders before going to the Larkes’ trailer. Strube
testified that he and Petitioner ran out of crack sometime during the night and that neither were
under the influence of crack by the time they left the trailer the morning of the murders. There is
also no indication that Petitioner was still drunk based on the amount of alcohol he reportedly
consumed. Petitioner has failed to meet his burden of rebutting the state court’s factual
determination that Petitioner was not intoxicated at the time of the murders.
Because the record supports the state court’s conclusion that Petitioner was not intoxicated
at the time of the murders, Petitioner’s trial counsel were not deficient in failing to argue that
Petitioner’s alleged intoxication warranted an “age or mentality” jury charge under S.C. Code Ann.
§ 16-3-20(C)(b)(7).
Even if it was somehow error for trial counsel not to press the issue of an “age or mentality”
instruction, Petitioner has failed to demonstrate any prejudice. The trial court’s charges - that (2)
“[t]he murder was committed while defendant was under the influence of mental or emotional
disturbance; (6) “[t]he capacity of the defendant to appreciate the criminality of his conduct or to
conform his conduct to the requirements of law was substantially impaired” - adequately informed
the jury that they could consider Petitioner’s impaired mental state. Petitioner has failed to

23

8:13-cv-01399-RBH

Date Filed 09/30/18

Entry Number 234

Page 24 of 51

75a
demonstrate how an additional charge on “age or mentality” would have changed the results of the
proceeding.
The state court’s rejection of ground four was not contrary to, or an unreasonable application
of, clearly established federal law, nor was it an unreasonable determination of the facts in light of
the evidence presented. The Magistrate Judge correctly applied the law to the facts in
recommending summary judgment on ground four. Petitioner’s objections are overruled and ground
four is due to be dismissed.
F.

Ground Five

In ground five, Petitioner argues his trial counsel were ineffective under Strickland for
failing to object to the trial court’s instructions on non-statutory mitigating circumstances, which
Petitioner contends impugned the legitimacy of non-statutory mitigating factors and suggested that
the jury should consider only mitigating factors directly related to the offense.
(1)

Facts

Petitioner contends the following portions of the trial court’s penalty phase jury instruction
warranted an objection:
Now, a mitigating circumstance is neither a justification or an
excuse for the murder. It’s [sic] simply lessens the degree of one’s
guilt. That is it makes the defendant less blameworthy, or less
culpable.
...
So what is a non-statutory mitigating circumstance? A nonstatutory mitigating circumstance is one that is not provided for by
statute, but it is one which the defendant claims serves the same
purpose. That is to reduce the degree of his guilt in the offense.
[App. 2108-09].
(2)

South Carolina Supreme Court Opinion
24

8:13-cv-01399-RBH

Date Filed 09/30/18

Entry Number 234

Page 25 of 51

76a
The South Carolina Supreme Court rejected Petitioner’s claim that trial counsel was
ineffective for failing to object to the trial court’s jury instruction on non-statutory mitigating
circumstances. The Supreme Court found the trial court’s overall charge to the jury clearly
indicated the jury’s power to consider any circumstance in mitigation, and a reasonable juror would
have known he could consider any reason in deciding whether to sentence Petitioner to death.
Sigmon, 742 S.E.2d at 401-02.
(3)

R&R

In recommending summary judgment, the Magistrate Judge concluded the South Carolina
Supreme Court’s decision was fully supported by the record. The Magistrate Judge closely
examined the trial court’s entire jury charge and found that the trial court’s charge clearly indicated
that non-statutory mitigating circumstances were to be weighted equally with statutory mitigating
circumstances and that the jurors may choose a sentence of life imprisonment for any reason.
(4)

Discussion

In his objections, Petitioner argues the wording of the judge’s jury instructions suggested the
non-statutory mitigating circumstances were things the defendant “claimed” served the same
purpose as statutory mitigating circumstances and that the judge’s instructions clearly drew a bright
line between statutory and non-statutory mitigating circumstances. However, Petitioner’s argument
is incorrectly premised on the notion that the challenged portion of the jury charge can be read in
isolation.
It is well established that a single instruction to a jury may not be judged in artificial
isolation, but must be viewed in the context of the overall charge. Cupp v. Naughten, 414 U.S. 141,
146-47 (1973); State v. Hicks, 499 S.E.2d 209, 215 (S.C. 1998) (stating “[a] jury instruction must be

25

8:13-cv-01399-RBH

Date Filed 09/30/18

Entry Number 234

Page 26 of 51

77a
viewed in the context of the overall charge”). In this case, the trial court’s overall charge weighted
statutory mitigating circumstances and non-statutory mitigating circumstances equally. See [App.
2107-2111]. The trial court’s charge does not impugn or disparage non-statutory mitigating
circumstances. The trial court instructed the jury that it could consider any factor in mitigation of
the offense and it could impose a sentence of life imprisonment for no reason at all. [App. 2111].
When viewed in the context of the overall charge, Petitioner has failed to demonstrate that the trial
court’s non-statutory mitigating circumstance charge was improper or that trial counsel was
deficient for failing to object to it. Even if trial counsel were deficient for failing to object to
challenged portions of the trial court’s charge, Petitioner has not established any resulting prejudice.
For those reasons, the state court’s decision on ground five was not contrary to, or an
unreasonable application of, clearly established federal law, nor an unreasonable determination of
the facts. Respondents are entitled to summary judgment on ground five as recommended by the
Magistrate Judge. Petitioner’s objections are overruled and ground five is due to be dismissed.
G.

Ground Six

In ground six, Petitioner argues trial counsel were ineffective under Strickland for requesting
and obtaining a statutory mitigating circumstance charge related to provocation by the victim.
While the trial court agreed to give the instruction based on Mr. Larke’s statement he was going to
get his gun, Petitioner contends that trial counsel misunderstood the basis for the instruction and
pursued a patently offensive argument that Rebecca provoked Petitioner into murdering her parents.
(1)

Facts

During the penalty phase of Petitioner’s trial, trial counsel pursued a theory that Petitioner’s
actions were provoked by his volatile relationship with the Larkes’ daughter, Rebecca Barbare.

26

8:13-cv-01399-RBH

Date Filed 09/30/18

Entry Number 234

Page 27 of 51

78a
Trial counsel called two of Ms. Barbare’s ex-husbands and her current husband in an attempt to
show that Ms. Barbare had a pattern of beginning a relationship with one man before ending a
relationship with another. [App. 1825-28; 1907-18].
Trial counsel requested a statutory mitigating circumstances charge that the defendant was
provoked by the victim in committing the murder. See S.C. Code Ann. § 16-3-20(C)(b)(8). The trial
court agreed to charge that the defendant was provoked by the victim based on evidence that Mr.
Larke said he was going to get his gun. [App. 2053-54].
Trial counsel also argued for a statutory mitigating charge that the defendant acted under
duress or under domination of another person, specifically Rebecca Barbare. [App. 2052-53]. The
trial court declined to give a “duress” instruction but informed trial counsel they could argue it as a
mitigating circumstance. [App. 2053].
(2)

PCR Order

The PCR court addressed this claim on the merits and found that trial counsel was not
ineffective for developing a “trigger” or “love sick” theory and presenting such evidence as
mitigation. [App. 2889]. The PCR court also found no prejudice from this strategy based on the
“wealth of evidence in aggravation.” Id. The PCR court further concluded that trial counsel were
not ineffective for requesting and obtaining an instruction on the statutory mitigating circumstance
of provocation by the victim. [App. 2890-92]. The PCR court set forth three reasons for finding no
prejudice with respect to trial counsel’s request for the “provocation by the victim” charge: 1) there
is a factually distinguishable basis for the charge that is not challenged; 2) the fact of [Petitioner’s]
obsessive infatuation with Ms. Barbare was part and parcel of the case and would be addressed
within trial, by [Petitioner’s] confession alone if nothing else; and 3) the tremendous amount of

27

8:13-cv-01399-RBH

Date Filed 09/30/18

Entry Number 234

Page 28 of 51

79a
evidence in aggravation in the double murder of Ms. Barbare’s parents in their own home. [App.
2892].
(3)

R&R

The Magistrate Judge recommended granting summary judgment and dismissing ground six.
The Magistrate Judge found there was a reasonable argument that trial counsel satisfied Strickland’s
deferential standard when they pursued the “trigger” or “love sick” theory. See Richter, 562 U.S. at
105. Significantly, the Magistrate Judge noted that Petitioner failed to challenge the PCR court’s
finding that he suffered no prejudice from the jury charge or trial counsel’s pursuit of the “trigger”
or “love sick” theory. Based on Petitioner’s failure to challenge the PCR court’s prejudice findings
on ground six, the Magistrate Judge found no reason to conclude the PCR court’s prejudice analysis
was based on an unreasonable determination of the facts or was an unreasonable application of
Strickland. Accordingly, the Magistrate Judge found that Petitioner was not entitled to habeas relief
on ground six.
(4)

Discussion

In his objections, Petitioner argues trial counsel misunderstood the factual basis for the
provocation by victim charge, which led to an offensive argument to the jury, specifically that Ms.
Barbare caused her parents’ death. Petitioner, however, has failed to establish that the PCR court’s
decision was contrary to, or an unreasonable application of, clearly established federal law, or based
on an unreasonable determination of the facts.
Trial counsel are granted wide latitude in making tactical decisions and reviewing courts
must “indulge a strong presumption that counsel’s conduct falls within the wide range of reasonable
professional assistance.” Strickland, 466 U.S. at 689. In this case, Petitioner has failed to establish

28

8:13-cv-01399-RBH

Date Filed 09/30/18

Entry Number 234

Page 29 of 51

80a
that trial counsel’s pursuit of the “trigger” or “love sick” theory was objectively unreasonable.
While the “trigger” or “love sick” theory was not successful, it was nevertheless consistent with
Petitioner’s Tennessee confession [App. 1507-1528] and statement to the jury (“Was I obsessed
with her? Yes . . . What set me off? Go back three years. The second time Becky left Troy for me.”)
[App. 2085]. It was objectively reasonable for trial counsel to attempt to explain that Petitioner’s
actions were the result of passion or stress from the relationship with Ms. Barbare. Granting trial
counsel wide latitude in making strategic decisions, the Court finds that trial counsel were not
ineffective in pursuing the “trigger” or “love sick” theory. Furthermore, even if trial counsel were
ineffective for pursuing this theory, Petitioner has not indicated how he suffered prejudice in light of
the overwhelming evidence in aggravation.
As to the request for a charge of provocation by the victim and the assertion that trial counsel
misunderstood the factual basis for the charge, Petitioner has failed to establish any error or
resulting prejudice. The trial court indicated the factual basis for the charge on the record and trial
counsel appeared to agree.
The court:

All right. I’m going to scratch number five.
Defendant was provoked by the victim in
committing the murder, I’ll leave. I find there is
sufficient evidence in the record. And the reason is
the action of Mr. Larke saying he was going to get
his gun, that would be a mitigating factor as
opposed to - - you know, that might have been an
impulse to have him do something, so I would leave
that. I assume you want that left in?

Mr. Eppes: Yes, sir, Your Honor.
[App. 2053-54].
There was a factual basis for the charge and it appears that trial counsel understood the basis

29

8:13-cv-01399-RBH

Date Filed 09/30/18

Entry Number 234

Page 30 of 51

81a
for the charge. However, the Court does acknowledge that trial counsel gave somewhat confusing
deposition testimony in the PCR case that could be read to indicate that trial counsel believed the
basis for the provocation by victim charge was related to Ms. Barbare’s actions with regard to her
relationship with Petitioner. [App. 2700-01]. To the extent trial counsel misunderstood the basis for
the charge and to the extent that resulted in arguing that Ms. Barbare’s actions “triggered” or
provoked Petitioner, the pursuit of that theory was neither objectively unreasonable or patently
offensive. Again, even if there was error, Petitioner has failed to establish, or even address in his
objections, any prejudice resulting from the provocation by victim jury charge or trial counsel’s
theory that Petitioner was triggered or provoked to commit the murders by his relationship with Ms.
Barbare.
The PCR court’s rejection of Petitioner’s claims in ground six was not contrary to, or an
unreasonable application of, clearly established federal law, or based on an unreasonable
determination of the facts in light of the evidence presented. The Magistrate Judge correctly
recommended granting summary judgment in favor of the Respondents on ground six. Petitioner’s
objections are overruled and ground six is due to be dismissed.
II.

Procedurally Barred/Non-exhausted Martinez Claims
A.

Standard of Review

Petitioner did not raise grounds seven through ten in state court. Respondents argue that, as
a result of Petitioner's failure to raise grounds seven through ten in state court, Petitioner has
procedurally defaulted those claims. It is Petitioner's burden to raise cause and prejudice or actual
innocence in order to excuse the procedural default of claims seven through ten. Kornahrens v.
Evatt, 66 F.3d 1350, 1362–63 (4th Cir.1995). Here, Petitioner argues the cause for the procedural

30

8:13-cv-01399-RBH

Date Filed 09/30/18

Entry Number 234

Page 31 of 51

82a
default is ineffective assistance of PCR counsel under Martinez.
“Martinez provides a narrow exception to the general rule, stated in Coleman v. Thompson,
501 U.S. 722, 752–53 (1991), that errors committed by state habeas counsel do not provide cause to
excuse a procedural default.” Gray v. Zook, 806 F.3d 783, 788 (4th Cir. 2015). The Martinez Court
held:
Where, under state law, claims of ineffective assistance of
trial counsel must be raised in an initial-review collateral
proceeding, a procedural default will not bar a federal
habeas court from hearing a substantial claim of ineffective
assistance at trial if, in the initial-review collateral
proceeding, there was no counsel or counsel in that
proceeding was ineffective.
566 U.S. at 17 (emphasis added).7 Thus, “when a State requires a prisoner to raise an
ineffective-assistance-of-trial-counsel claim in a collateral proceeding, a prisoner may establish
cause for a default of an ineffective-assistance claim” if “appointed counsel in the initial-review
collateral proceeding[—]where the claim should have been raised[—]was ineffective under the
standards of Strickland[.]” Id. at 14; see also Gray v. Zook, 806 F.3d 783, 789 (4th Cir. 2015) (“[A]
Martinez claim requires a showing that state habeas counsel was ineffective.”). “To overcome the
default, a prisoner must also demonstrate that the underlying ineffective-assistance-of-trial-counsel

7

“Martinez did not purport to displace Coleman as the general rule governing procedural default. Rather,
it ‘qualifie[d] Coleman by recognizing a narrow exception’ that applies only to claims of ‘ineffective assistance of
counsel at trial’ and only when, ‘under state law,’ those claims ‘must be raised in an initial-review collateral
proceeding.’” Davila v. Davis, 137 S. Ct. 2058, 2065–66 (2017) (quoting Martinez, 566 U.S. at 9, 17). “This limited
qualification of the Coleman rule was based on the fact that when an ‘initial-review collateral proceeding is the first
designated proceeding for a prisoner to raise a claim of ineffective assistance at trial, the collateral proceeding is in
many ways the equivalent of a prisoner’s direct appeal as to the ineffective-assistance claim.’” Fowler v. Joyner, 753
F.3d 446, 460 (4th Cir. 2014) (quoting Martinez, 566 U.S. at 11). “[F]or states like [South Carolina]— where a
petitioner can only raise an ineffective assistance claim on collateral review— Martinez announced that federal
habeas counsel can investigate and pursue the ineffectiveness of state habeas counsel in an effort to overcome the
default of procedurally barred ineffective-assistance-of-trial-counsel claims.” Juniper v. Davis, 737 F.3d 288, 289
(4th Cir. 2013).

31

8:13-cv-01399-RBH

Date Filed 09/30/18

Entry Number 234

Page 32 of 51

83a
claim is a substantial one, which is to say that the prisoner must demonstrate that the claim has some
merit.” Martinez, 566 U.S. at 14.
To summarize, then, Martinez held that a federal habeas
petitioner who seeks to raise an otherwise procedurally
defaulted claim of ineffective-assistance-of-trial-counsel
before the federal court may do so only if: (1) the
ineffective-assistance-of-trial-counsel claim is a substantial
one; (2) the “cause” for default “consist[s] of there being no
counsel or only ineffective counsel during the state
collateral review proceeding”; (3) “the state collateral
review proceeding was the initial review proceeding in
respect to the ineffective-assistance-of-trial-counsel claim”;
and (4) state law “requires that an ineffective-assistance-oftrial-counsel claim be raised in an initial-review collateral
proceeding.”
Fowler v. Joyner, 753 F.3d 446, 461 (4th Cir. 2014) (internal quotation marks and alteration in
original) (quoting Trevino v. Thaler, 569 U.S. 413, 423 (2013)).
In short, “[t]o invoke Martinez, [a petitioner] must demonstrate that state habeas counsel
was ineffective or absent, and that the underlying [ineffective-assistance-of-trial counsel] claim is
substantial.” Porter v. Zook, __ F.3d __, __, 2018 WL 3679610, at *21 (4th Cir. Aug. 3, 2018).
Significantly, “because a petitioner raising a Martinez claim never presented the claim in state court,
a federal court considers it de novo, rather than under AEDPA’s deferential standard of review.”
Gray, 806 F.3d at 789.
B.

Ground Seven

In ground seven, Petitioner asserts that trial counsel were ineffective for failing to investigate
and present available mitigating evidence. Specifically, Petitioner argues counsel should have
presented evidence of Petitioner’s 1) positive adjustment to prison; 2) good character; 3) cruel and
repeated physical abuse during childhood; 4) history of and treatment for depression; and 5)

32

8:13-cv-01399-RBH

Date Filed 09/30/18

Entry Number 234

Page 33 of 51

84a
remorse. Ground seven was not raised in state court. Petitioner, nevertheless, argues ground seven
is not procedurally defaulted pursuant to Martinez because the underlying claim is substantial and
PCR counsel was ineffective for failing to raise it in the state collateral review proceeding.
(1)

Facts

Trial counsel retained a mitigation investigator to look into potential mitigating evidence.
Trial counsel also consulted with three mental health professionals - Dr. Alex Morton, Dr. Ernest C.
Martin, and Dr. Donna Schwartz-Watts. Additionally, trial counsel consulted with a prison
adaptability expert and a clinical social worker. The social worker interviewed Petitioner three
times and interviewed several of his family members including Petitioner’s mother, father, sisters,
brother, two step-siblings, and aunt.
The mitigation evidence at trial was fairly substantial consisting of 14 witnesses. Trial
counsel presented three experts, five Greenville County Detention Center employees, five family
members, and one religious volunteer.
Dr. Morton testified about Petitioner’s mental health and addictions and testified that
Petitioner: 1) suffered from recurrent major depressive disorder; 2) suffered from chemical
dependency disorders, specifically regarding cocaine, alcohol, and marijuana; and 3) was using a
number of substances to treat his depression. [App. 1975-76].
The clinical social worker, Shirley Furtick, testified regarding Petitioner’s family history and
background. Ms. Furtick testified that Petitioner’s father abused alcohol and that Petitioner suffered
emotional neglect during his childhood. [App. 1871-82]. Ms. Furtick testified that the emotional
neglect Petitioner suffered in his childhood resulted in developmental losses and led to his
depression, anxiety, and inability to establish and maintain healthy relationships. [App. 1882]. Ms.

33

8:13-cv-01399-RBH

Date Filed 09/30/18

Entry Number 234

Page 34 of 51

85a
Furtick testified that children who experience neglect generally tend to be over-reactive and overly
involved or attached to relationships. [App. 1882].
James Aiken testified regarding Petitioner’s prison adaptability and stated that Petitioner
could be incarcerated in a prison setting for the remainder of his life without causing an undue risk
of harm to staff, inmates, or the general community. [App. 2017-21]. Trial counsel presented the
testimony of five Greenville County Detention Center employees, which supported Aiken’s
conclusion on Petitioner’s prison adaptability.
Trial counsel also presented testimony of Terry Bradley, a religious volunteer at the
detention center who led a weekly Bible class. [App. 1921-32]. The rest of the mitigation witnesses
were members of Petitioner’s family.
Petitioner contends trial counsel should have introduced additional mitigation evidence in
the categories of: 1) positive adjustment to prison; 2) good character; 3) cruel and repeated physical
abuse during childhood; 4) Petitioner’s history of depression; and 5) remorse. Petitioner submitted
affidavits to support his additional mitigation evidence. [ECF Nos. 117-3 - 117-16].
Petitioner states that his father, brother, and Pastor Don McKellar could have testified about
his positive adjustment to prison. Petitioner contends that Ms. Barbare’s son, Troy Barbare, Jr.,
could have presented additional positive character evidence that Petitioner treated Troy like a son.
Petitioner contends that his mother could have presented testimony that Petitioner’s father would
push or hit Petitioner during Petitioner’s childhood. Petitioner also contends that trial counsel
should have called the Greenville County Detention Center staff psychiatrist, Dr. Martin, to testify
about Petitioner’s history of depression, as well as his anxiety. Finally, Petitioner argues that trial
counsel should have presented or introduced additional evidence of Petitioner’s remorse.

34

8:13-cv-01399-RBH

Date Filed 09/30/18

Entry Number 234

Page 35 of 51

86a
(2)

R&R

The Magistrate Judge found that ground seven was not a substantial claim under Martinez.
The Magistrate Judge noted that the information offered in support of the additional mitigation
evidence was cumulative of the information presented at trial, with the exception of Petitioner’s
mother’s report of physical abuse in Petitioner’s childhood. Finding that trial counsel were not
ineffective, the Magistrate Judge stated “this is not a case in which the defendant’s attorneys failed
to act while potentially powerful mitigating evidence stared them in the face or would have been
apparent from documents any reasonable attorney would have obtained. It is instead a case in which
defense counsel’s decision not to seek more mitigating evidence from the defendant’s background
than was already in hand fell well within the range of professionally reasonable judgments.” [ECF
No. 223 at 85]. The Magistrate Judge also found that Petitioner suffered no prejudice from trial
counsel’s failure to present the additional mitigating evidence. “[G]iven its cumulative nature, the
additional evidence Petitioner offers “would barely have altered the sentencing profile presented to
the jury . . . and would have done little to counter the weight of the aggravating evidence of
Petitioner’s gruesome beating of an elderly couple he knew well in their own home and his attempt
to flee.” [ECF No. 223 at 95]. Accordingly, the Magistrate Judge found that Petitioner’s underlying
claim of ineffective assistance of counsel was insubstantial and that Petitioner failed to show cause
and prejudice under Martinez. The Magistrate Judge recommended that ground seven remain
defaulted and subject to summary judgment.
(3)

Discussion

In his objections, Petitioner does not address the cumulative nature of the additional
evidence he claims should have been presented. Rather, Petitioner argues in general terms that there

35

8:13-cv-01399-RBH

Date Filed 09/30/18

Entry Number 234

Page 36 of 51

87a
was evidence that could have changed the outcome of this case the jury never heard. Petitioner’s
objections focus on the proposed testimony of Troy Barbare, Jr. (Ms. Barbare’s son) and Dr. Ernest
Martin (Greenville County Detention Center staff psychiatrist).
Trial counsel are not required to investigate every conceivable line of mitigating evidence no
matter how unlikely the effort would be to assist the defendant at sentencing. Wiggins v. Smith, 539
U.S. 510, 533 (2003). There comes a point at which more evidence can reasonably be expected to
be only cumulative, and the search for it distractive from more important duties. Bobby v. Van
Hook, 558 U.S. 4, 11 (2009). As the Magistrate Judge noted, this is not a case where trial counsel
failed to act while potentially powerful mitigating evidence stared them in the face. Rather, this is a
case in which trial counsel's decision not to seek more mitigating evidence falls well within the
range of professionally reasonable judgments.
Petitioner contends trial counsel should have introduced additional mitigation evidence in
the categories of: 1) positive adjustment to prison; 2) good character; 3) cruel and repeated physical
abuse during childhood; 4) Petitioner’s history of depression; and 5) remorse.
Positive Adjustment to Prison
Petitioner's father, Ronnie Sigmon, who was a correctional officer with the S.C. Department
of Corrections, would have testified that, based on his experience as a correctional officer, Petitioner
would obey correctional officers and staff and would not be a future danger or threat to any
correctional officer or staff. [Ronnie Sigmon Aff., ECF No. 117-15].
Petitioner's brother, Mike Sigmon, stated in his affidavit that he visited Petitioner a lot while
Petitioner was at the Greenville County Detention Center. Regarding prison adaptability, Mike
stated that he would have testified that Petitioner was always very respectful of the correctional

36

8:13-cv-01399-RBH

Date Filed 09/30/18

Entry Number 234

Page 37 of 51

88a
officers and staff and that he did not appear to be a problem inmate at all. [Mike Sigmon Aff., ECF
No. 117-13].
Pastor Don McKellar is the retired pastor of Petitioner's mother and step-father's church.
Mr. McKellar indicates in his affidavit that "[b]ased on his experience both as a minister and with
the prison system programs, I can state Brad Sigmon would have been one of the good and wellbehaved inmates and he would try to help others in prison." [Don McKellar Aff., ECF No. 117-10].
Good Character Evidence
Petitioner contends trial counsel should have presented additional positive character
evidence. Petitioner submitted the affidavit of Troy Barbare, Jr., Ms. Barbare's son, who was twelve
years old at the time of the murders. [Troy Barbare, Jr. Aff., ECF No. 117-4]. Troy stated that
Petitioner treated him like a son, even though he was not his actual father. Id. Troy further stated
that he would have testified that he thought of Petitioner like a father. Id. If called to testify, Troy
would have stated that he never saw Petitioner mistreat Ms. Barbare in any way or physically assault
her or commit or attempt to commit any act of domestic violence against her. Id.
Petitioner also contends that Pastor McKellar would have offered positive character
evidence. Pastor McKellar stated in his affidavit that Petitioner appeared to be a good natured
person, hard-worker, and of good moral character. [ECF No. 117-10].
Petitioner also submits the affidavits of Louis Burrell, Virginia Wooten, and Mike Sigmon to
show that they would have testified that when Petitioner was about 15 years old, he went to work
virtually full time while also staying in school to help support his mother and the family. [Louis
Burrell Aff., ECF No. 117-5; Virginia Wooten Aff., ECF No. 117-16; Mike Sigmon Aff., ECF No.
117-13].

37

8:13-cv-01399-RBH

Date Filed 09/30/18

Entry Number 234

Page 38 of 51

89a
Physical Abuse
Petitioner's mother, Virginia Wooten, stated in her affidavit that Petitioner's father would
physically abuse her after drinking alcohol and that Petitioner would often get in the middle of the
physical altercation and try to protect her. [Virginia Wooten Aff., ECF No. 117-16]. Ms. Wooten
stated that her husband would knock Petitioner out of the way, or shove, or slap him. Id. Ms.
Wooten stated that when Petitioner was 15 years old, his father hit her multiple times in the face and
when Petitioner tried to intervene his father punched him and knocked him down. Id. She stated
that these altercations occurred numerous times. Id.
History of Depression
Dr. Ernest Martin (Greenville County Detention Center staff psychiatrist), if called to testify,
would have testified regarding Petitioner's history of depression. [Ernest Martin Aff., ECF No. 1179]. Dr. Martin stated that Petitioner entered the detention center with a previous diagnosis of
Depression, which was being treated with Elavil (.75 milligrams). Id. On May 9, 2001, Dr. Martin
diagnosed Petitioner with Depression recurrent, currently in remission. Id. On October 12, 2001,
Dr. Martin examined Petitioner again and concluded that Petitioner was showing signs of situational
anxiety. Id. On February 4, 2002, Dr. Martin saw Petitioner again and determined that Petitioner
was suffering from mild Depression, in partial remission. Id. Dr. Martin stated that his diagnosis of
Petitioner during the time he was incarcerated at the detention center was Major Depression,
recurrent without Psychotic features in remission. Id.
Remorse
Pastor McKellar visited Petitioner in the Greenville County Detention Center after Petitioner
was arrested. [Don McKellar Aff., ECF No. 117-10]. Pastor McKellar stated in his affidavit that

38

8:13-cv-01399-RBH

Date Filed 09/30/18

Entry Number 234

Page 39 of 51

90a
Petitioner was very remorseful and very sorry for the harm that he had caused to the Larke family,
and to his own family. Id.
Petitioner contends that Dr. Martin's diagnosis of Major Depression is also evidence of
remorse. [ECF No. 131 at 30]. Petitioner also raises counsel’s failure to play for the jury a video
and audio recording of a phone call between Petitioner and his mother after his arrest as evidence of
remorse.
The additional mitigating evidence of positive adjustment to prison, good character, cruel
and repeated physical abuse during childhood, Petitioner’s history of depression, and remorse as set
forth in the affidavits and outlined above is, for the most part, cumulative of the mitigation case trial
counsel presented through its 14 mitigation witnesses. Trial counsel were not deficient in failing to
investigate, discover, and/or introduce this additional mitigating evidence. The determination of
what constitutes "enough" mitigation evidence is a strategic decision that falls within the wide range
of reasonable professional assistance and should not be second guessed after the fact. It was
objectively reasonable for trial counsel to "rest" with the mitigation case that was presented through
Dr. Morton (mental health expert), Shirley Furtick (clinical social worker), James Aiken (prison
adaptability expert), Matt Tally (Field Training Officer - Greenville County Detention Center), Julia
Moore (Licensed Professional Counselor - Greenville County Detention Center), Rosa Jones (Nurse
- Greenville County Detention Center), Valerie Putnam (Greenville County Detention Center),
Captain Michelle Melton (Manager - Greenville County Detention Center), Terry Bradley (religious
volunteer), Donnie Wooten (step-father), Robbie Sigmon (son), Brenda Clark (aunt), Ronnie
Sigmon (father), and Virginia Wooten (mother).
However, even assuming trial counsel should have discovered and presented the additional

39

8:13-cv-01399-RBH

Date Filed 09/30/18

Entry Number 234

Page 40 of 51

91a
mitigating evidence set forth in the affidavits, Petitioner has failed to establish any resulting
prejudice. To show prejudice, Petitioner must demonstrate a reasonable probability that at least one
juror would have voted against the death penalty had the jury heard the additional available
mitigating evidence. See Strickland, 466 U.S. at 695; Wiggins, 539 U.S. at 537. To answer this
question, the Court must “reweigh the evidence in aggravation against the totality of available
mitigating evidence.” Wiggins, 539 U.S. at 534.
Petitioner has failed to show a reasonable likelihood that the additional evidence of prison
adaptability, good character, physical abuse, depression, and remorse would have resulted in a life
sentence, especially when the evidence is cumulative of what was already presented. See Morva v.
Zook, 821 F.3d 517, 531 (4th Cir. 2016). The additional evidence of mitigation set forth in the
affidavits is not particularly compelling and amounts to only minimal mitigation evidence at best.
There is no reasonable probability that at least one juror would have changed his or her sentencing
vote based on anything set forth in the affidavits. When the evidence in aggravation (torture,
burglary, two murders committed during one course of conduct) is weighed against the totality of
available mitigating evidence, there is no reasonable probability that at least one juror would have
changed his or her sentencing vote.
Accordingly, Petitioner has failed to establish that his underlying ineffective assistance of
counsel claim is substantial under Martinez. Because trial counsel were not ineffective for failing to
investigate and present available mitigating evidence, and there was no resulting prejudice, PCR
counsel were not ineffective for failing to raise ground seven in the PCR proceeding. The Court
agrees with the Magistrate Judge that Petitioner has not established "cause" for the default of ground
seven. The Court also agrees with the Magistrate Judge that Petitioner is not entitled to a Martinez

40

8:13-cv-01399-RBH

Date Filed 09/30/18

Entry Number 234

Page 41 of 51

92a
evidentiary hearing on ground seven because the claim is not substantial. Petitioner's objections as
to ground seven are overruled. Ground seven remains defaulted and Respondents are entitled to
summary judgment.
C.

Ground Eight

In ground eight, Petitioner alleges he was denied effective assistance of counsel per the Sixth
and Fourteenth Amendments, and per S.C. Code Ann. § 16-3-26(b)(1), because second chair
counsel, Frank Eppes, impermissibly served as lead counsel, even though he lacked the requisite
felony trial experience to serve as lead counsel. Ground eight was not raised in state court but
Petitioner, nevertheless, argues the ground is not procedurally defaulted pursuant to Martinez.
John Abdalla, who was appointed "lead" counsel, stated in his affidavit that "Mr. Eppes was
appointed as 'second chair'" and "Mr. Eppes insisted on acting as lead counsel." [John Abdalla Aff.,
ECF No. 117-3].
Frank Eppes, who was appointed "second chair" counsel, stated in his affidavit that he "took
over as lead counsel." [Frank Eppes Aff., ECF No. 117-7]. Eppes states that he remembers saying
to Mr. Abdalla that "you may be appointed as lead counsel by the court, but you will bend to my
will." Id. Eppes states that Mr. Abdalla acceded to his request to act as lead counsel. Id.
The Magistrate Judge found that ground eight was not a substantial claim under Martinez
and recommended granting summary judgment. In reaching this conclusion, the Magistrate Judge
noted that there was no rule specifying which aspects of a capital case should fall to lead counsel
and which responsibilities should fall to second chair counsel.
In his objections, Petitioner argues that Eppes did not have the requisite trial or felony
experience to serve as lead counsel in a capital case, though he was qualified to serve as second

41

8:13-cv-01399-RBH

Date Filed 09/30/18

Entry Number 234

Page 42 of 51

93a
chair. Petitioner argues that South Carolina's qualifications statute and rule are a codification of the
Sixth Amendment guarantee to effective counsel and there should be a presumption of
ineffectiveness when the capital appointment statute is violated, which should result in a new trial
for Petitioner.
Under S.C. Code Ann. § 16-3-26(B)(1),
Whenever any person is charged with murder and the death
penalty is sought, the court, upon determining that such person
is unable financially to retain adequate legal counsel, shall
appoint two attorneys to defend such person in the trial of the
action. One of the attorneys so appointed shall have at least
five years’ experience as a licensed attorney and at least three
years’ experience in the actual trial of felony cases . . . .
Section 16-3-26(B) promulgates the “exclusive procedure for appointment of counsel for indigent
defendants charged with capital murder.” State v. Brown, 347 S.E.2d 882, 884 (S.C. 1986). Rule
421 of the South Carolina Appellate Court Rules provides:
(a) Classes of Certified Attorneys. There shall be two
classes of attorneys certified to handle death penalty
cases: lead counsel and second counsel.
(b) Lead Counsel. Lead counsel shall have at least five
years experience as a licensed attorney and at least
three years experience in the actual trial of felony
cases. .
..
(c) Second Counsel. Second counsel shall have at least
three years experience as a licensed attorney. Second
counsel is not required to be further certified to be
eligible for appointment.
Rule 421, SCACR.
Petitioner offers no authority for the proposition that trial counsel are per se ineffective when
second chair counsel assumes the role of lead counsel. Also, Petitioner offers no authority that

42

8:13-cv-01399-RBH

Date Filed 09/30/18

Entry Number 234

Page 43 of 51

94a
specifies which aspects of a capital case should fall to lead counsel and which responsibilities
should fall to second chair counsel.
A review of the record indicates that Mr. Abdalla made the opening statement in the guilt
phase and closing argument in the guilt phase. Mr. Eppes made the opening statement and closing
argument in the penalty phase. In total, it appears Abdalla examined 19 witnesses, while Eppes
examined 24. Abdalla examined the mental health expert, Dr. Morton, and the clinical social
worker, Shirley Furtick. Eppes examined the prison adaptability expert, James Aiken. Abdalla had
the most contact with Petitioner [App. 2595] and investigated Petitioner’s personal history [App.
2647] and mental health [App. 2596–97]. Eppes, on the other hand, focused on the other evidence
in the case, such as police reports. [App. 2647]. Abdalla questioned potential jurors [see, e.g., App.
282]; cross-examined State witnesses [e.g., App. 1269–70, 1280–82, 1285–87]; and examined
defense witnesses in the penalty phase, including two of the three experts [App. 1849–1901,
1965–2002]. Abdalla and Eppes appear to have divided the workload fairly evenly. The trial
transcript does not support the notion that Eppes acted as lead counsel or that he assumed a majority
of the workload.
Petitioner has failed to show how S.C. Code Ann. § 16-3-26(B)(1) or Rule 421 of the
Appellate Court Rules were violated when the court properly appointed Abdalla as lead counsel and
Eppes as second chair. Again, there is no rule setting forth how duties should be divided between
lead counsel and second chair counsel in a capital case.
Even if Eppes did assume the role of lead counsel, Petitioner has failed to establish error or
that Eppes was ineffective under Strickland. As noted by the Magistrate Judge, a violation of a
defendant's statutory right regarding counsel does not automatically equate to a constitutional

43

8:13-cv-01399-RBH

Date Filed 09/30/18

Entry Number 234

Page 44 of 51

95a
violation. See United States v. Blankenship, 548 F2d 1118, 1121 (4th Cir. 1976). Thus, Eppes's lack
of felony trial experience does not automatically render his assistance ineffective under Strickland.
Neither Strickland nor the Constitution specify the number of years or type of experience a capital
defense attorney must have. Rather, "the proper standard for attorney performance is that of
reasonably effective assistance." Strickland, 466 U.S. at 687. As discussed throughout this Order
and the Magistrate Judge's R&R, Eppes and Abdalla both rendered effective assistance of counsel
under Strickland. Petitioner has not shown that he was denied effective assistance of counsel simply
because his second chair attorney acted as lead counsel while lacking the requisite felony trial
experience to serve as lead counsel.
Petitioner relies on United States v. Watson, 496 F.2d 1125 (4th Cir. 1973), for the
proposition that there is a presumption of ineffectiveness when the capital appointment statute is
violated by the attorneys appointed. Petitioner, however, attempts to expand Watson far beyond its
holding. Watson simply held that when a capital defendant requests two attorneys under 18 U.S.C.
§ 3005, § 3005 provides an absolute statutory right to additional counsel. 496 F.2d at 1129. In
Watson, the court did not presume prejudice under Strickland as Petitioner implies. Instead, the
court simply declined to apply a harmless error analysis where a capital defendant's request for two
lawyers under 18 U.S.C. § 3005 was denied. Id. at 1130.
For the reasons stated above, Petitioner has failed to establish that ground eight is a
substantial claim under Martinez. Because ground eight is not a substantial claim, PCR counsel was
not ineffective for failing to raise it in the state court PCR proceeding. Petitioner has, therefore, not
established "cause" for the default of ground eight. Also, because ground eight is not a substantial
claim, Petitioner is not entitled to a Martinez evidentiary hearing. Petitioner's objections as to

44

8:13-cv-01399-RBH

Date Filed 09/30/18

Entry Number 234

Page 45 of 51

96a
ground eight are overruled. Ground eight remains defaulted and Respondents are entitled to
summary judgment.
D.

Ground Nine

In ground nine, Petitioner argues that trial counsel was ineffective for failing to object to
Petitioner wearing a stun belt that may have been visible to jurors. This claim was not presented to
the state court and is procedurally defaulted unless Petitioner can establish "cause" for the default
under Martinez, i.e., that the underlying ineffective assistance of counsel claim is substantial, and
that state habeas counsel was ineffective or absent.
The Magistrate Judge recommended summary judgment in favor of Respondents on ground
nine. The Magistrate Judge stated that Petitioner had failed to state a viable constitutional claim, let
alone a substantial one. As a result, Petitioner could not overcome the procedural default under
Martinez.
In his objections on ground nine, Petitioner states the jury likely saw the stun belt and that no
actual prejudice is required to show a violation of due process. Petitioner relies on Deck v.
Missouri, 544 U.S. 622 (2005), where the U.S. Supreme Court held that when the trial court,
without adequate justification, orders a defendant to wear shackles that will be seen by the jury, the
defendant need not demonstrate actual prejudice to make out a due process violation; instead, the
state must prove beyond a reasonable doubt that the shackling error did not contribute to the verdict
obtained. Deck, 544 U.S. at 634.
Petitioner's reliance on Deck is misplaced insofar as Deck was a direct appeal issue and did
not involve a claim of ineffective assistance of counsel. Thus, while Deck may not require a
defendant to demonstrate actual prejudice to make out a due process violation, Petitioner has not

45

8:13-cv-01399-RBH

Date Filed 09/30/18

Entry Number 234

Page 46 of 51

97a
alleged such a due process violation based on wearing a stun belt. Instead, Petitioner has asserted an
ineffective assistance of counsel claim under Strickland based on the failure to object to the stun
belt. The distinction is critical. Petitioner must establish prejudice to be entitled to relief on a
Strickland claim of ineffective assistance of counsel. Furthermore, to overcome the procedural
default of this ineffective assistance of counsel claim, Petitioner must show that the underlying
claim of ineffective assistance of trial counsel is a substantial one and that Petitioner's state PCR
counsel was ineffective in failing to raise it.
As noted by the Magistrate Judge, on this procedurally defaulted ineffective assistance of
counsel claim, Petitioner must rebut a strong presumption that trial counsel performed reasonably
and show that trial counsel's errors impacted the verdict in order to state a substantial claim. [R&R,
ECF No. 223 at 101]. Where Petitioner only alleges that the jury "likely" saw the stun belt, and
there is no evidence in the record that any member of the jury noticed the stun belt, he has failed to
establish prejudice sufficient to establish a substantial claim under Martinez. See United States v.
McKissick, 204 F.3d 1282, 1299 (10th Cir. 2000) (“However, there is no evidence in the record that
any member of the jury noticed the stun belts. Thus, we do not presume prejudice . . . .”).
There was overwhelming evidence supporting the death penalty and overwhelming evidence
in aggravation of these murders, including torture, burglary, and two murders committed during the
same course of conduct. On these facts, where there is no evidence in the record that any member
of the jury noticed the stun belt, Petitioner has not shown a reasonable probability that, but for
counsel's failure to object to the stun belt, the result of the proceedings would have been different, or
that the proceedings would have resulted in a life sentence. Because there is no prejudice from trial
counsel's failure to object to the stun belt, Petitioner has failed to establish that the underlying

46

8:13-cv-01399-RBH

Date Filed 09/30/18

Entry Number 234

Page 47 of 51

98a
ineffective assistance of counsel claim is a substantial one.
Petitioner has also failed to establish that trial counsel's failure to object to the stun belt was
objectively unreasonable. "Omitting a motion directed to [a] stun belt is not the sort of inexplicable
omission that renders even an apparently sturdy defense so deficient that the representation as a
whole fell below an ‘objective standard of reasonableness.’” Bland v. Hardy, 672 F.3d 445, 451 (7th
Cir. 2012).
Because Petitioner has failed to establish that the underlying ineffective assistance of
counsel claim based on the failure to object to the stun belt is a substantial one, PCR counsel was
not ineffective for failing to raise it. As such, Petitioner has not established "cause" for the
procedural default. The Court agrees with the Magistrate Judge that ground nine remains defaulted
and Respondents are entitled to summary judgment. Petitioner is not entitled to a Martinez
evidentiary hearing on this insubstantial claim.
E.

Ground Ten

In ground ten, Petitioner asserts that trial counsel were ineffective because trial counsel were
unaware that the second defense attorney could have also presented a closing argument at
sentencing after the Petitioner. Petitioner contends that he suffered prejudice as a result because
trial counsel were unable to remedy the damaging effects of Petitioner’s closing argument and
refocus the jury on the mitigating evidence.
This claim was not raised in state court. Thus, it is procedurally defaulted unless Petitioner
can establish "cause" for the default under Martinez, i.e., that the underlying ineffective assistance
of counsel claim is substantial, and that state habeas or PCR counsel was ineffective or absent.
In his affidavit, trial counsel Eppes states that “[a]t the time, I believed the law required

47

8:13-cv-01399-RBH

Date Filed 09/30/18

Entry Number 234

Page 48 of 51

99a
[Petitioner] to be the very last speaker at closing argument at sentencing.” [Eppes Aff., ECF No.
117-7]. Eppes characterizes Petitioner’s closing argument at sentencing as “just awful.” Id.
Abdalla stated that Petitioner’s “closing argument did not go over well with the jury.” [Abdalla Aff.,
ECF No. 117-3]. Both trial counsel stated in their affidavits that had they known they could offer a
closing argument after Petitioner, then Abdalla would have made the final closing argument after
Petitioner.
The Magistrate Judge found that evidence in the record supported the notion that trial
counsel at least knew that they could offer a closing argument after Petitioner.
THE COURT: . . . What is the order of argument?
MR. ABDALLA: I believe we’re not going to require
them to open, if that’s what you’re asking? Unless there’s
something I don’t know. It goes State, defense, then defendant
is my understanding, am I incorrect on that?
....
MR. EPPES: Well, I don’t know -- I thought the statute
did not specify whether the defendant spoke first or second.

THE COURT: I don’t know if it does or does not.
MR. EPPES: We would plan to go State, defendant,
defense
THE COURT: Anything on that?
MS. STROM: They’re always entitled to the last
argument.
....
THE COURT: I understand that. I’m saying -- you
know, defendant, defense?
MS. STROM: That’s not defined as far as which way it
has to go.
48

8:13-cv-01399-RBH

Date Filed 09/30/18

Entry Number 234

Page 49 of 51

100a
[App. 1668–69.]
The Magistrate Judge found while trial counsel’s decision to let Petitioner go last in the
closing argument sequence may have been a poor one, it appears to have been made with full
knowledge of the relevant law. More importantly though, the Magistrate Judge found that even if
trial counsel were deficient, Petitioner had not shown prejudice. “Any possible mitigating effect of
counsel addressing the jury after Petitioner and ‘re-focus[ing]’ the jury on mitigating circumstances
and counsel’s argument for a life sentence cannot outweigh the aggravating evidence in this case.”
[R&R, ECF No. 223 at 105].
In his objections on ground ten, Petitioner argues that trial counsel’s decision to allow
Petitioner to make the last argument was neither a failed strategy nor a reasonable mistake; it was a
decision based on a lack of understanding of the law. Petitioner maintains that trial counsel were
ineffective under Strickland for failing to mitigate the harm caused by Petitioner’s closing argument,
“despite a legal right to effectively soften the damage from [Petitioner’s] closing.” [Petitioner’s
Objections to R&R, ECF No. 229 at 16].
S.C. Code Ann. § 16-3-28 provides: “[n]otwithstanding any other provision of law, in any
criminal trial where the maximum penalty is death or in a separate sentencing proceeding following
such trial, the defendant and his counsel shall have the right to make the last argument.” While the
trial transcript indicates that trial counsel at the guilt phase knew that the defense could offer a
closing argument after Petitioner (Mr. Eppes stated “We would plan to go State, defendant,
defense”), the transcript does not indicate that trial counsel knew that both attorneys could make a
closing argument at the sentencing phase.
However, even assuming that trial counsel were deficient for not knowing that both

49

8:13-cv-01399-RBH

Date Filed 09/30/18

Entry Number 234

Page 50 of 51

101a
attorneys could offer a closing argument or that they could offer a closing argument after Petitioner,
there is no prejudice from this minimal error. Petitioner has failed to show that he would have
received a life sentence had one of his attorneys made the final closing argument. Petitioner’s
closing argument was not good, but it was not as bad as trial counsel suggest. Petitioner does not
dispute the aggravating circumstances of these murders (torture, burglary, and two murders
committed during one course of conduct). Petitioner struck each elderly victim at least nine times
with a baseball bat, then left them to die in their home. The aggravating circumstances of this brutal
crime far outweigh the mitigating circumstances. Any attempts by trial counsel to “refocus” the jury
on the mitigating circumstances would have been a largely futile effort. Petitioner does not indicate
what trial counsel could have said to minimize any impact of Petitioner’s closing argument. Thus,
Petitioner’s suggestion that he could have mitigated the effects of Petitioner’s closing argument and
refocused the jury on the mitigating circumstances is just mere speculation. The jury was aware of
the mitigating circumstances as well as the aggravating circumstances. The order of closing
arguments would not have impacted the jury’s decision. Petitioner has failed to show a reasonable
likelihood that had his attorney given the final closing argument, he would have received a life
sentence. See Morva v. Zook, 821 F.3d 517, 531 (4th Cir. 2016). Having failed to establish
prejudice from this minimal error, Petitioner has not demonstrated that ground ten is a substantial
claim under Martinez or that PCR counsel was ineffective for failing to raise it in the state PCR
proceeding.
Accordingly, ground ten remains procedurally defaulted. Petitioner is not entitled to a
Martinez evidentiary hearing on this insubstantial claim. Petitioner’s objections as to ground ten are
overruled and Respondents are entitled to summary judgment.

50

8:13-cv-01399-RBH

Date Filed 09/30/18

Entry Number 234

Page 51 of 51

102a
Certificate of Appealability
“The district court must issue or deny a certificate of appealability when it enters a final
order adverse to the applicant.” Rule 11(a) of the Rules Governing Section 2254 Cases. A
certificate of appealability will not issue absent “a substantial showing of the denial of a
constitutional right.” 28 U.S.C. § 2253(c)(2). When the district court denies relief on the merits, a
petitioner satisfies this standard by demonstrating that reasonable jurists would find that the court’s
assessment of the constitutional claims is debatable or wrong. Slack v. McDaniel, 529 U.S. 473,
484 (2000); see Miller-El v. Cockrell, 537 U.S. 322, 336–38 (2003). When the district court denies
relief on procedural grounds, the prisoner must demonstrate both that the dispositive procedural
ruling is debatable, and that the petition states a debatable claim of the denial of a constitutional
right. Slack, 529 U.S. at 484–85. In this case, the Court concludes that Petitioner has failed to make
the requisite showing of “the denial of a constitutional right.”
Conclusion
For the foregoing reasons, the Court overrules Petitioner’s objections and adopts the
Magistrate Judge’s R & R [ECF No. 223] to the extent it is consistent with this Order. Accordingly,
the Court GRANTS Respondents' motion for summary judgment [ECF No. 207] and DENIES
AND DISMISSES Petitioner’s § 2254 petition in its entirety with prejudice. The Court DENIES a
certificate of appealability because Petitioner has not made “a substantial showing of the denial of a
constitutional right” under 28 U.S.C. § 2253(c)(2).
IT IS SO ORDERED.
Florence, South Carolina
September 30, 2018

s/ R. Bryan Harwell
R. Bryan Harwell
United States District Judge

51

